<html>
<title> - NOMINATIONS TO THE CONSUMER PRODUCT SAFETY COMMISSION, THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY, THE PIPELINES AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION, AND THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 115-642]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-642

                  NOMINATIONS TO THE CONSUMER PRODUCT
               SAFETY COMMISSION, THE NATIONAL INSTITUTE
                    OF STANDARDS AND TECHNOLOGY, THE
                PIPELINES AND HAZARDOUS MATERIALS SAFETY
                ADMINISTRATION, AND THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
                
                
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
37-225 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="22524d62415751564a474e520c414d4f0c">[email&#160;protected]</a>                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 27, 2017...............................     1
Statement of Senator Thune.......................................     1
    Prepared statement...........................................     3
    Support letter for Ann Marie Buerkle dated July 26, 2017 to 
      Hon. John Thune from Andy S. Counts, Chief Executive 
      Officer, American Home Furnishings Alliance................    66
    Support letter for Ann Marie Buerkle dated July 27, 2017 to 
      Hon. John Thune and Hon. Bill Nelson from Erik Glavich, 
      Director, Legal and Regulatory Policy, National Association 
      of Manufacturers...........................................    66
    Support letter for Ann Marie Buerkle dated August 4, 2017 to 
      Hon. John Thune from Sharron Bradley, CEO, Home Furnishings 
      Association................................................    67
    Support letter for Ann Marie Buerkle dated August 4, 2017 to 
      Hon. John Thune and Hon. Bill Nelson from Torine Creppy, 
      Acting President, Safe Kids Worldwide......................    67
    Support letter for Ann Marie Buerkle dated September 25, 2017 
      to Hon. John Thune and Hon. Bill Nelson from Joseph M. 
      McGuire, President and CEO, Association of Home Appliance 
      Manufacturers..............................................    68
    Support letter for Ann Marie Buerkle dated September 26, 2017 
      to Hon. John Thune and Hon. Bill Nelson from Don Coleman, 
      President, Upholstered Furniture Action Council............    68
    Support letter for Ann Marie Buerkle dated September 26, 2017 
      to Hon. John Thune and Hon. Bill Nelson from Kathleen 
      McGuigan, Senior Vice President and Deputy General Counsel, 
      Retail Industry Leaders Association........................    69
    Support letter for Ann Marie Buerkle dated September 26, 2017 
      to Hon. John Thune and Hon. Bill Nelson from Bob Luedeka, 
      Executive Director, Polyurethane Foam Association..........    70
    Support letter for Ann Marie Buerkle dated September 26, 2017 
      to Hon. John Thune and Hon. Bill Nelson from various 
      organizations..............................................    70
Statement of Senator Nelson......................................     4
    Prepared statement...........................................     6
    Article dated September 27 in The Washington Post entitled 
      ``The Energy 202: Trump's hiring freeze shrank National 
      Weather Service staff before hurricanes hit'' by Dino 
      Grandoni...................................................    61
Statement of Senator Gardner.....................................     8
Statement of Senator Wicker......................................     9
    Prepared statement...........................................     9
Statement of Senator Fischer.....................................    74
Statement of Senator Inhofe......................................    76
Statement of Senator Klobuchar...................................    78
Statement of Senator Cortez Masto................................    80
Statement of Senator Markey......................................    82
Statement of Senator Baldwin.....................................    85
Statement of Senator Blumenthal..................................    87

                               Witnesses

Hon. Ann Marie Buerkle, Nominee to be Chairman, Consumer Product 
  Safety Commission..............................................    10
    Prepared statement...........................................    12
    Biographical information.....................................    13
Walter G. Copan, Nominee to be Under Secretary of Commerce for 
  Standards and Technology; and Director, National Institute of 
  Standards and Technology.......................................    19
    Prepared statement...........................................    20
    Biographical information.....................................    21
Howard R. ``Skip'' Elliott, Nominee for Administrator, Pipeline 
  and Hazardous Materials Safety Administration, U.S. Department 
  of Transportation..............................................    33
    Prepared statement...........................................    34
    Biographical information.....................................    35
RDML Tim Gallaudet, U.S. Navy, Nominee to be Assistant Secretary 
  of Commerce for Oceans and Atmosphere/Deputy Administrator, 
  National Oceanic and Atmospheric Administration (NOAA).........    42
    Prepared statement...........................................    43
    Biographical information.....................................    44

                                Appendix

Hon. Michael F. Bennet, U.S. Senator from Colorado, prepared 
  statement......................................................    91
Response to written questions submitted to Hon. Ann Marie Buerkle 
  by:
    Hon. Jim Inhofe..............................................    91
    Hon. Bill Nelson.............................................    92
    Hon. Richard Blumenthal......................................    95
    Hon. Catherine Cortez Masto..................................   100
Response to written questions submitted to Dr. Walter G. Copan 
  by:
    Hon. Bill Nelson.............................................   101
    Hon. Gary Peters.............................................   102
    Hon. Tammy Duckworth.........................................   104
    Hon. Catherine Cortez Masto..................................   105
Response to written questions submitted to Howard R. Elliot by:
    Hon. Deb Fischer.............................................   107
    Hon. Dan Sullivan............................................   107
    Hon. Dean Heller.............................................   108
    Hon. Jim Inhofe..............................................   108
    Hon. Bill Nelson.............................................   109
    Hon. Richard Blumenthal......................................   109
    Hon. Gary Peters.............................................   109
    Hon. Tammy Duckworth.........................................   111
    Hon. Catherine Cortez Masto..................................   112
Response to written questions submitted to RDML Timothy Gallaudet 
  by:
    Hon. John Thune..............................................   113
    Hon. Roger F. Wicker.........................................   113
    Hon. Dan Sullivan............................................   114
    Hon. Todd Young..............................................   115
    Hon. Bill Nelson.............................................   115
    Hon. Richard Blumenthal......................................   116
    Hon. Edward Markey...........................................   117
    Hon. Gary Peters.............................................   118
    Hon. Catherine Cortez Masto..................................   120

 
                      NOMINATIONS TO THE CONSUMER
                       PRODUCT SAFETY COMMISSION,
                  THE NATIONAL INSTITUTE OF STANDARDS
                   AND TECHNOLOGY, THE PIPELINES AND
                       HAZARDOUS MATERIALS SAFETY
                    ADMINISTRATION, AND THE NATIONAL
                 OCEANIC AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Inhofe, 
Fischer, Moran, Sullivan, Gardner, Young, Moore Capito, Nelson, 
Cantwell, Klobuchar, Blumenthal, Markey, Booker, Baldwin, 
Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning.
    Today we welcome four well-qualified nominees to testify 
before the Committee as we consider their nominations to serve 
in important positions of responsibility at the Consumer 
Product Safety Commission, the National Institute of Standards 
and Technology or NIST, the Pipelines and Hazardous Materials 
Safety Administration or PHMSA, and the National Oceanic and 
Atmospheric Administration or NOAA.
    Thank you, Chairman Buerkle, and Dr. Copan, and Mr. 
Elliott, and Dr. Gallaudet, as well as your families, for your 
presence today and for your willingness to serve the Nation.
    I support each of these nominees and look forward to 
confirming them as quickly as possible.
    The Honorable Ann Marie Buerkle, who currently serves as 
the Acting Chairman of the CPSC, has been nominated by 
President Trump to be the Chairman and also has been nominated 
to a new 7-year term as Commissioner at the CPSC.
    Commissioner Buerkle's nomination is the first of several 
we are likely to see for the CPSC and other consumer protection 
agencies under the Committee's jurisdiction, like the Federal 
Trade Commission, in the weeks and months ahead.
    For example, current CPSC Commissioner Marietta Robinson's 
term will expire next month. And as I have noted in prior 
hearings, the FTC has only two of its five commissioners in 
place.
    I am committed to making sure that these important, 
independent agencies, which are charged with the responsibility 
of protecting the American public, can operate at full capacity 
with senate-confirmed commissioners installed expeditiously.
    Ms. Buerkle has served as the Commissioner at the CPSC 
since 2013, when she was confirmed by the Senate by voice vote. 
Prior to joining the CPSC, Ms. Buerkle represented New York's 
25th Congressional District in the U.S. House of 
Representatives. Early in her career, Ms. Buerkle practiced law 
and worked as a registered nurse at Columbia Presbyterian 
Hospital in New York City.
    She has done a great job during her time at the CPSC, and I 
am very happy to see her elevated to be the Chairman of the 
Commission.
    Dr. Walter Copan is exceptionally well-qualified to serve 
as the Director of NIST; his broad background in science and 
technology, a history of working effectively with the U.S. 
Federal Labs, and significant cross-sector industry and 
leadership experience.
    Dr. Copan is currently the President and CEO of IP 
Engineering Group Corporation. Before that, he served in 
leadership roles at Brookhaven National Laboratory and at the 
National Renewable Energy Laboratory.
    Among his entrepreneurial ventures was Clean Diesel 
Technologies, Inc., where he served as Chief Technology Officer 
and that he helped go public on the NASDAQ. Before that, he 
worked for 28 years at Lubrizol Corporation where he held 
various leadership positions.
    Howard ``Skip'' Elliott has been nominated to lead PHMSA at 
the Department of Transportation. He is a 40-year veteran of 
the U.S. freight rail industry serving over the last decade as 
Group Vice President of Public Safety, Health, Environmental, 
and Security for CSX Transportation in Jacksonville, Florida.
    While at CSX, Mr. Elliott's portfolio of responsibility 
included hazardous materials transportation safety, crisis 
management, environmental compliance and operations, and 
continuity of business operations.
    He is a pioneer in developing and implementing computer-
based tools to assist emergency management officials, first 
responders, and Homeland Security personnel in preparing for, 
and responding to, railroad hazardous materials and security 
incidents.
    Dr. Timothy Gallaudet has been nominated to be the Deputy 
Administrator of NOAA. He retired from the Navy earlier this 
month where he served for 32 years and reached the rank of Rear 
Admiral.
    Most recently, Dr. Gallaudet was Oceanographer of the Navy 
and Commander of the Navy Meteorology and Oceanography Command.
    Dr. Gallaudet has led teams of Navy sailors and civilians 
performing such diverse functions as overseeing aircraft 
carrier combat operations, planning and conducting humanitarian 
assistance and disaster response efforts, and developing the 
Navy's annual $52 billion information technology, cyber 
security, and intelligence budget.
    I know I speak for everyone on this panel, Dr. Gallaudet, 
when I thank you for your service to our country. Clearly, the 
Navy's loss is NOAA's gain.
    As I have noted, all four of these nominees are well-
qualified for the positions to which they have been nominated, 
and I look forward to their swift confirmation.
    And once again, I would like to thank all of you for 
testifying today and for your willingness to fill all these 
very important posts.
    I will now turn to Ranking Member Nelson for any opening 
remarks that he would like to make.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Good morning. Today we welcome four well-qualified nominees to 
testify before the Committee as we consider their nominations to serve 
in important positions of responsibility at the Consumer Product Safety 
Commission (CPSC), the National Institute of Standards and Technology 
(NIST), the Pipelines and Hazardous Materials Safety Administration 
(PHMSA), and the National Oceanic and Atmospheric Administration 
(NOAA).
    Thank you Chairman Buerkle, Dr. Copan, Mr. Elliott, and Dr. 
Gallaudet, as well as your families, for your presence today and for 
your willingness to serve the Nation.
    I support each of these nominees, and look forward to confirming 
them as quickly as possible.
    The Honorable Ann Marie Buerkle, who currently serves as the Acting 
Chairman of the CPSC, has been nominated by President Trump to be the 
Chairman, and has also been nominated to a new seven-year term as 
Commissioner at the CPSC.
    Commissioner Buerkle's nomination is the first of several we are 
likely to see for the CPSC and other consumer protection agencies under 
the Committee's jurisdiction, like the Federal Trade Commission, in the 
weeks and months ahead.
    For example, current CPSC Commissioner Marietta Robinson's term 
will expire next month. And, as I've noted in prior hearings, the FTC 
has only two of its five commissioners in place.
    I am committed to making sure that these important independent 
agencies--which are charged with the responsibility of protecting the 
American public--can operate at full capacity, with Senate-confirmed 
commissioners installed expeditiously.
    Ms. Buerkle has served as a Commissioner at the CPSC since 2013, 
when she was confirmed by the Senate by voice vote. Prior to joining 
the CPSC, Ms. Buerkle represented New York's 25th Congressional 
District in the U.S. House of Representatives.
    Earlier in her career, Ms. Buerkle practiced law and worked as a 
registered nurse at Columbia Presbyterian Hospital in New York City. 
She has done a great job during her time at the CPSC, and I'm very 
happy to see her elevated to be the Chairman of the Commission.
    Dr. Walter Copan is exceptionally well qualified to serve as the 
Director of NIST. He has a broad background in science and technology, 
a history of working effectively with the U.S. Federal Labs, and 
significant cross-sector industry and leadership experience.
    Dr. Copan is currently the president and CEO of IP Engineering 
Group Corporation. Before that, he served in leadership roles at 
Brookhaven National Laboratory and at the National Renewable Energy 
Laboratory.
    Among his entrepreneurial ventures was Clean Diesel Technologies, 
Inc., where he served as chief technology officer, and which he helped 
go public on the NASDAQ. Before that, he worked for 28 years at 
Lubrizol Corporation, where he held various leadership positions.
    Howard ``Skip'' Elliott, has been nominated to lead PHMSA at the 
Department of Transportation. He is a forty-year veteran of the U.S. 
freight rail industry, serving over the last decade as group Vice 
President of Public Safety, Health, Environment and Security for CSX 
Transportation in Jacksonville, Florida.
    While at CSX, Mr. Elliott's portfolio of responsibility included 
hazardous materials transportation safety, crisis management, 
environmental compliance and operations, and continuity of business 
operations.
    He is a pioneer in developing and implementing computer-based tools 
to assist emergency management officials, first responders, and 
homeland security personnel in preparing for and responding to railroad 
hazardous materials and security incidents.
    Dr. Timothy Gallaudet has been nominated to be the Deputy 
Administrator of NOAA. He retired from the Navy earlier this month, 
where he served for 32 years and reached the rank of Rear Admiral.
    Most recently, Dr. Gallaudet was Oceanographer of the Navy and 
Commander of the Navy Meteorology and Oceanography Command.
    Dr. Gallaudet has led teams of Navy sailors and civilians 
performing such diverse functions as overseeing aircraft carrier combat 
operations, planning and conducting humanitarian assistance and 
disaster response efforts, and developing the Navy's annual $52 billion 
information technology, cyber security, and intelligence budget.
    I know I speak for everyone on this panel, Dr. Gallaudet, when I 
thank you for your service to our country. Clearly the Navy's loss is 
NOAA's gain.
    As I've noted, all four of these nominees are well-qualified for 
the positions to which they have been nominated and I look forward to 
their swift confirmation. Once again, I would like to thank you all for 
testifying today and for your willingness to fill these important 
posts.
    I will now turn to Ranking Member Nelson for any opening remarks he 
would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Yes, sir, Mr. Chairman.
    Naturally, over the last few weeks, this senator has been 
dealing with some natural disasters. We have seen the 
devastation that has resulted. As recently as last evening, 
Senator Cruz and I had a conversation in-person with General 
McMaster. It is going to take getting the military into Puerto 
Rico in big numbers.
    The food, the medicine is piling up at the docks. There is 
no way to distribute it and our United States military is 
especially capable of doing that. That has to be a decision by 
the White House with direction to FEMA which controls that, 
then requests that from the U.S. military.
    Now, the storms have caused numerous deaths, and why I 
bring that up is for this reason. As we are picking up the 
pieces, not only in Texas and Florida, the Virgin Islands, and 
of course, now, Puerto Rico, we have surveyed all the damage 
and there is a long recovery ahead of us.
    I am encouraged because we have seen extraordinary people 
helping others all throughout. We have a real challenge with 
Puerto Rico. And we are, and I think I can speak for the 
Committee, committed to help all of these folks including my 
state of Florida.
    The connection with this hearing today is that the four 
agencies represented here play a very important role in the 
life and property around this country.
    The Consumer Product Safety Commission, for example, plays 
a key role in ensuring the safety of consumer products. And one 
product that is often in high demand after hurricanes and 
severe storms is what? Portable generators. They can be very 
important because they bring a source of energy in the 
aftermath of a hurricane.
    You remember the tragic situation that the rules did not 
require generators strong enough to run the air conditioners. 
And in one nursing home, it turned into a hotbox and 11 people, 
unbelievably, 11 are dead because of overexposure to heat. But 
if you use one of those generators incorrectly, that is also 
deadly.
    We have been pushing CPSC on this Committee for the last 
decade to enact a robust safety standard to either reduce the 
amount of carbon monoxide emitted by the portable generators or 
to cause the generators to automatically shutoff when the 
carbon monoxide in a closed room gets too high.
    I was heartened last fall when the CPSC voted 4-to-1 to 
publish a draft standard for significantly reducing the amount 
of deadly carbon monoxide these machines emit.
    And by the way, in the aftermath of Irma, just in my state 
alone, 11 deaths, the same as the number of seniors in that 
hotbox. Eleven deaths from carbon monoxide poisoning as a 
result of people putting a generator inside the house to give 
you power, and the carbon monoxide building up.
    And now it appears that what was the first step of a rule 
last fall is being held up because of behind the scenes 
industry lobbying at both the CPSC and the EPA. And this is 
deadly. So as of last Friday, 11 deaths, numerous injuries; 
that is just in Florida.
    But what in the world is going to happen in the aftermath 
as they are climbing out of this tragedy in Puerto Rico and the 
Virgin Islands?
    Ms. Buerkle, while I appreciate your generator safety 
outreach messages prior to Irma, your efforts to delay this 
potentially lifesaving rule is quite concerning.
    Now Admiral--and I noticed the Chairman called you doctor--
Dr. Admiral, for years we have been trying to make sure that 
NOAA has reliable tools to forecast hurricanes and to better 
understand and predict weather patterns. Extreme events in this 
year alone include unprecedented wildfires and back-to-back 
record Atlantic hurricanes only to underscore that something is 
happening in the climate.
    It is interesting while we praise NOAA of which the 
National Weather Service is a part, and the National Hurricane 
Center, because it has the tools and is so accurate now on not 
only the track, but the ferocity of the hurricane. At the same 
time, we have a President's budget that wants to take away some 
of those tools by cutting your NOAA budget.
    Let us be consistent. In fact, we know in the measurements 
over decades of time, not on any one storm, that the global 
temperatures are rising. And therefore, as the earth heats up, 
and two-thirds of the earth is covered with water, 90 percent 
of that heat is absorbed by the oceans. When water is heated, 
it expands and that is the phenomenon we see in South Florida 
now.
    On the six o'clock news, it is standard that the water is 
washing over the curbs in Fort Lauderdale and in Miami Beach. 
Oceans are warming and then that warm water is the fuel for 
these dizzying, extraordinary storms.
    And so, Admiral, we need leaders at NOAA who understand the 
importance of what is going on and I hope you are going to take 
on NOAA in the same diligence that you had in your role in the 
United States Navy. And thank you for your service.
    And speaking of the United States Navy, I want to point out 
that a member of our staff, a United States Navy Commander, 
Bale Dalton, a reservist, a helicopter pilot Special Forces, 
member of our staff for the last several years, he has been 
activated. He is going to the Middle Eastern theater as active 
duty reservist and he will be piloting the helicopters on the 
Special Forces missions.
    Is Bale here? I want him to stand up and be recognized. OK. 
I brought him here. He did not know I was going to introduce 
him.
    [Laughter.]
    Senator Nelson. We are grateful to Navy Commander Bale 
Dalton.
    Mr. Elliott, I want to welcome you, as a fellow Floridian. 
You know that safe and reliable transportation of hazardous 
materials across the country and into densely urban areas is 
critical.
    I look forward to hearing from you about the work you did 
in overseeing the safety of transporting those hazardous 
materials within CSX. He is from Florida. CSX is based in 
Jacksonville.
    And Dr. Copan, I have spent the last 2 weeks, as you and I 
have discussed about the science of hurricanes and what is 
happening. Thank you for bringing the expertise that you have 
to the job of NIST. It is a critical Federal agency and it not 
only contributes to the technology that we have, but it is an 
essential agency in our national security apparatus.
    The devastation that we have seen to infrastructure in 
these natural events that have occurred is one of the reasons 
that Senator Rubio and I have authored the National Windstorm 
Impact Reduction Act. Consumer standards and building standards 
are a part of one job of NIST.
    Under that program, NIST leads the Federal investigations 
after a hurricane. By the way, the building codes do work 
because where there was a new structure, according to the new 
codes, the international code standard, the structure is there. 
Where there was an old structure next door, it is gone.
    The investigations and the research that you do to improve 
the building codes, it is absolutely critical for the next 
storm and you are going to base a lot of your decisions on 
scientific data. I look forward to that.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, over the past few weeks we have seen the devastation 
hurricanes can cause. Irma, Harvey, and Maria have been the most 
powerful storms we have seen in decades.
    These storms have caused numerous deaths and our thoughts and 
prayers are with the families of Florida, Texas, Puerto Rico, Virgin 
Islands, and the rest of the Caribbean, who have lost so much.
    Now it's time to start picking up the pieces. I have been down in 
Florida surveying the damage and hearing from local communities and I 
can tell you, we have a long recovery ahead of us.
    But I am encouraged.
    The strength and resilience of the Floridians I have met with never 
ceases to amaze me. I have seen neighbors and communities coming 
together to help each other while less affected areas in Florida are 
giving to those in dire need.
    I am fully committed to doing everything that I can to aid my 
fellow Floridians and all others who have lost life and property in 
these storms.
    This is why this hearing today is so important. The four agencies 
represented here play an integral role in protecting life and property 
around this country.
    The Consumer Product Safety Commission, for example, plays a key 
role in ensuring the safety of consumer products. And one product that 
is often in high demand after hurricanes and severe storms is portable 
generators. They can be a very important source of emergency power 
after storms. But when used incorrectly, they can also be deadly.
    For over ten years, I have been pushing the CPSC to enact a robust 
safety standard to either reduce the amount of carbon monoxide emitted 
by portable generators or to cause generators to automatically shut off 
when carbon monoxide concentrations in the area where they are being 
used reach toxic levels.
    I was heartened when the CPSC voted four to one last year to 
publish a draft standard to significantly reduce the amount of deadly 
carbon monoxide these machines emit.
    Sadly, it appears that this rule is being held up because of 
behind-the-scenes industry lobbying at both the CPSC and the EPA.
    And this delay, quite frankly, is deadly.
    As of last Friday, there have been at least eleven deaths and 
numerous injuries in Florida related to carbon monoxide poisoning from 
portable generators used in the wake of Hurricane Irma.
    And I suspect we will see more in the coming weeks in Puerto Rico, 
the Virgin Islands, and other Caribbean countries decimated by 
Hurricane Maria.
    Ms. Buerkle, while I appreciate your generator safety outreach 
messages prior to Hurricane Irma, I am deeply disappointed in your 
efforts to delay this potentially lifesaving rule.
    Admiral Gallaudet, for years, I have been working to make sure that 
NOAA has reliable tools to forecast hurricanes and to better understand 
and predict weather patterns.
    Extreme events in 2017 alone include unprecedented wildfires and 
back-to-back-to-back record Atlantic hurricanes and only underscore the 
growing impact of climate change.
    Global temperatures are rising--and so are the seas. 2016 and 2017 
have had the two highest global temperatures ever recorded since we 
began measuring in 1880.
    Oceans are warming and fueling the dizzyingly fast intensification 
of hurricanes we saw in Harvey, Irma, Jose, and Maria.
    We need leaders at NOAA who understand the importance of studying 
climate change, and I hope you, Admiral Gallaudet, will show the same 
diligence at NOAA in studying and preparing for climate change that you 
displayed in your role of oceanographer of the Navy.
    Mr. Elliott, I want to welcome you to the committee as a fellow 
Floridian. As you know, the safe and reliable transportation of 
hazardous materials across the country and into densely populated 
regions is critical.
    I look forward to hearing from you about the work you did 
overseeing the safety of transporting hazardous materials within CSX, 
which is based in our home state of Florida.
    And Dr. Copan, I've spent the last two weeks crisscrossing Florida 
after Hurricane Irma devastated many parts of the state. Luckily, the 
devastation wasn't as bad as feared in some areas because of the 
improved building codes put in place after Hurricane Andrew.
    In fact, the devastation to Florida's infrastructure after 
hurricanes is one of the reasons I authored the original legislation 
creating the National Windstorm Impact Reduction Act. Under that 
program, NIST leads the Federal investigations after a hurricane. Those 
investigations and research is used to improve building codes--so that 
communities are more resilient and ready for the next storm.
    All of the agencies represented today base their work on one 
thing--scientific data. I look forward to hearing from each of you 
today on how we can protect scientific integrity and the many other 
issues I mentioned.
    Thank you.

    The Chairman. Thank you, Senator Nelson.
    I think I can say that members of this Committee, and I 
daresay all Members of the Senate, stand ready to help and 
assist the citizens of your state and the many others who were 
impacted by these horrible, horrible storms. So thank you.
    We now are going to have Senator Gardner, I think, is going 
to introduce Dr. Walter Copan, followed by Senator Wicker, who 
will introduce Dr. Timothy Gallaudet.
    I will recognize Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, to Senator Wicker. I have a Committee 
hearing that I have to chair, Foreign Relations Committee, so I 
appreciate the opportunity and I apologize for having to chair 
a committee at the same time as this Committee hearing.
    I wanted to welcome all of the nominees today. Thank you 
for your willingness to serve. It is great to see Ann Marie 
here as well. We came into Congress together, so thank you for 
your willingness to serve in this new capacity as well.
    Chairman Nelson, thanks for this hearing. It is great to be 
here with a fellow Coloradan. Honored to be here with Dr. 
Walter Copan--and for the information of all Senators, it is 
snowing Colorado. The ski slopes will open in mid-October--to 
be Director of the National Institute of Standards and 
Technology or NIST.
    Dr. Copan has dedicated his life to expanding the reach of 
innovation and research during his time in both the private 
sector and the public sector. He began his career working in 
chemicals and material research for a firm that conducted 
business all over the world, all over the globe and focused on 
significant technology transfer initiatives as well.
    From there, Dr. Copan spent time at the Department of 
Energy's National Renewable Energy Laboratory headquartered in 
Golden, Colorado--just down the mountain from the ski resorts 
that open in October--where he focused on improving 
commercialization of energy technologies developed in the lab. 
He performed similar work at Brookhaven National Laboratory 
where he launched efforts to boost entrepreneurial ventures.
    In addition to the work he undertook at our Federal labs, 
Dr. Copan founded several companies and partnerships within the 
advanced materials manufacturing and clean fuels space.
    In short, Dr. Copan understands the benefits of our Federal 
labs, the challenges that industry faces, and the importance of 
a robust Federal research enterprise, and the commercial 
transferability that occurs from both.
    NIST is one of the hardest working agencies in the Federal 
Government made up of great people and employees and the 
groundbreaking research, productive relationships with industry 
and academia, and a critical role in the Federal Government 
should be applauded and emboldened.
    In light of his experience across a wide range of 
laboratory and industry research projects, and his vision for 
promoting the great work that NIST undertakes, I believe Dr. 
Copan would be an excellent director of the agency and I hope 
that my colleagues will agree.
    It is an honor to introduce you today. Welcome, 
congratulations, and I look forward to your service.
    The Chairman. Thank you, Senator Gardner.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    It is my pleasure to introduce Admiral Tim Gallaudet to be 
the Assistant Secretary of Commerce for Oceans and Atmosphere. 
President Trump has made an excellent nomination for NOAA 
Deputy Administrator.
    Admiral Gallaudet is experienced and knowledgeable about 
oceans, coasts, and atmosphere having served 32 years in the 
Navy.
    Dr. Gallaudet got one degree at Annapolis and two out in 
San Diego, but we consider him a Mississippian having finished 
his naval career at Stennis Space Center in my home State of 
Mississippi and serving as the Oceanographer of the Navy and 
Commander of the Naval Meteorology and Oceanography Command, 
and that is a mouthful. That post made him the highest ranking 
active naval officer in our State of Mississippi. So we claim 
him.
    He knows firsthand the devastation caused by Katrina and 
the importance of NOAA's mission to provide accurate 
information and warnings.
    Admiral Gallaudet has been a leader in the development of 
unmanned systems during his time in the Navy. And, of course, 
we are headed that way in a big way.
    He participated in the first operational launch and 
recovery of an undersea glider on a naval oceanographic vessel 
aboard the USNS Bowditch. Like ships, unmanned systems are 
vital to the 21st Century Navy. These unmanned systems' 
capabilities are also needed outside our defense sector. So, no 
doubt, Admiral Gallaudet will incorporate this technology at 
NOAA.
    Admiral Gallaudet's leadership in employing unmanned 
systems gave the Navy cutting edge environmental intelligence 
and was successful because of his ability to collaborate with 
industry, engage multiple branches of Government, and utilize 
our tremendous oceanography assets on the Mississippi Gulf 
Coast.
    It is my hope that he will continue to draw on this 
expertise during his time at NOAA.
    Mr. Chairman, President Trump has recognized the superb 
service of Admiral Gallaudet and he has given NOAA the 
leadership it needs at this opportune time.
    So I thank the Admiral for his career of service and I am 
confident that he will have bipartisan support for confirmation 
very, very soon.
    Thank you, sir.
    [The prepared statement of Senator Wicker follows:]

    Introduction of Admiral Tim Gallaudet by Hon. Roger F. Wicker, 
                     U.S. Senator From Mississippi
    It is a pleasure to introduce Admiral Tim Gallaudet to be the 
Assistant Secretary of Commerce for Oceans and Atmosphere.
    In Admiral Gallaudet, President Trump made an excellent nomination 
for NOAA's deputy administrator. He is experienced and knowledgeable 
about the oceans, coasts, and atmosphere from his 32 years of service 
in the Navy.
    Admiral Gallaudet finished his naval career as the Oceanographer of 
the Navy and the commander of the Naval Meteorology and Oceanography 
Command. During this time, you were serving as the highest ranking 
active naval officer in my home state at Stennis Space Center in 
Mississippi. I also know that your family--like many Mississippians--
lost your home during Hurricane Katrina, so you know the seriousness of 
NOAA's mission to provide accurate information and warnings.
    I had the chance to spend some time with the Admiral this June in 
Gulfport, Mississippi, as we announced the launch of Governor Bryant's 
Ocean Task Force and showcased Naval Oceanography's work with unmanned 
systems.
    Admiral Gallaudet has been a leader in unmanned systems throughout 
his time in the Navy, ever since the time he participated in the first 
operational launch and recovery of an undersea glider on a naval 
oceanographic vessel aboard the USNS Bowditch.
    Like ships, unmanned systems are vital capabilities for the twenty-
first century navy. The unmanned systems capabilities are also needed 
outside our defense sector, so I look forward to Admiral Gallaudet's 
incorporation of this technology at NOAA.
    His leadership in employing unmanned systems to give the Navy 
cutting-edge environmental intelligence was visionary, and it is 
successful thanks to his ability to maximize collaboration among 
industry, multiple branches of government, and the tremendous 
oceanography assets on the Mississippi Gulf Coast. It is my hope you 
continue to draw on that expertise during your time at NOAA.
    As the nominee for NOAA's deputy secretary, Admiral Gallaudet has 
the requisite strategic vision, operational experience, and leadership 
capabilities to fulfill the core missions of NOAA.
    President Trump recognized the superb service of Admiral Galluadet, 
and he has given NOAA the leader it needs at this opportune time.
    Thank you for your career of service, and I am confident that there 
will be bipartisan support for your confirmation after this hearing.

    The Chairman. Thank you, Senator Wicker.
    We will now proceed. I will start on my left and your right 
with the Honorable Ann Marie Buerkle of New York to be Chairman 
of the Consumer Product Safety Commission; followed by Dr. 
Walter Copan of Colorado to be Under Secretary of Commerce for 
Standards and Technology; Mr. Howard Elliott of Indiana to be 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration; and Dr. Timothy Gallaudet of California to be 
Assistant Secretary of Commerce for Oceans and Atmosphere. So 
welcome.
    Ms. Buerkle, please proceed.

 STATEMENT OF HON. ANN MARIE BUERKLE, TO BE CHAIRMAN, CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Ms. Buerkle. Thank you very much.
    Good morning, Chairman Thune, and Ranking Member Nelson, 
and distinguished members of this Committee.
    I am deeply honored and humbled by the President's 
nomination to be the Chairman of the United States Consumer 
Product Safety Commission as well as for the opportunity to 
address you here this morning.
    Ranking Member Nelson and Senator Cruz, please know that my 
thoughts and prayers continue to be with your constituents 
recovering from the devastating hurricanes in Florida and 
Texas. I assure you that the CPSC will remain vigilant and 
continue to use every tool at its disposal to raise consumer 
awareness about post-storm hazards, particularly those related 
to the improper use of portable generators and the resultant 
carbon monoxide poisonings.
    Along with promoting our safety messages through 
traditional and social media, we will continue to engage with 
CPSC field staff in the affected areas, other Federal agencies, 
State and local public safety counterparts, and major retailers 
to educate the consumer and share this potentially lifesaving 
information.
    I would like to express my thanks here this morning and my 
appreciation to my colleagues, Commissioners Robert Adler, 
Marietta Robinson, Elliot Kaye, and Joseph Mohorovic, for their 
support of my nomination as well as their friendship. In 
addition, I would like to thank CPSC's staff, who have assisted 
and supported me throughout this entire process including my 
Chief Counsel, Gib Mullan; my Chief of Staff, Nancy Lowery; and 
Katelyn Costello. I am honored to work alongside such talented 
and dedicated public servants.
    Finally, I would like to thank my family for their 
continuous love and support. One of my six children is here 
today, my son, Tom from Texas. Also here is my brother, retired 
Marine Corps Colonel Tom Colella. Thank you both for being 
here.
    For me, having the opportunity to lead the Consumer Product 
Safety Commission is the culmination of many aspects of my 
life. I began my professional career in nursing and then, at 
the age of 40, went to law school.
    After receiving my law degree, I went on to work as a New 
York State Assistant Attorney General representing a Level 1 
trauma hospital in upstate New York. In addition, for more than 
a decade, I was a strong advocate of the victims of domestic 
violence by providing pro bono legal counseling for residents 
at a local women's shelter.
    I then had the honor and the privilege of serving the 
people of New York's 25th Congressional District in Congress 
and in 2013, President Obama appointed me to be a Commissioner 
at the Consumer Product Safety Commission.
    My most important role throughout my life, has been raising 
my six children and being actively involved in the lives of my 
17 grandchildren. Whether it is making sure that the 
grandchildren practice water safety or that my kids buy safe 
nursery products, as a mother, as well as a grandmother, safety 
is always on my mind.
    I have spent my life in advocacy, and I believe that my 
background gives me a unique perspective as well as the ability 
to carry out CPSC's critical mission of keeping American 
consumers safe.
    CPSC's priorities are ultimately guided by our regulatory 
agenda, strategic plan, and operating plan. And if confirmed, I 
will personally try to focus on areas where we can be most 
effective in carrying out our mission of safety.
    Number one, by ensuring that our resources are dedicated to 
our highest priority risk and that we focus on emerging hazards 
from new technologies.
    Two, is remaining vigilant in monitoring the safety of 
imported products, by continuing our excellent working 
relationship with Customs and Border Patrol, and enhancing our 
internal import surveillance program. One of the best ways we 
can keep consumers safe is by keeping unsafe products from 
entering the United States marketplace.
    Maintaining robust engagement is my third effort in 
voluntary standards development and strengthening the agency's 
collaboration with manufacturers, retailers, consumer 
advocates, other Government agencies, academia, and all of the 
stakeholders to advance consumer safety.
    And fourth, enhancing the agency's data capabilities by 
expanding both the sources and the types of data we receive, as 
well as increasing our analytical capabilities. Congress 
created the Consumer Product Safety Commission as a data-driven 
agency. Sound science and reliable data is critical to our 
safety mission and during my tenure I hope to further modernize 
CPSC.
    The Consumer Product Safety Commission's mission is a 
critical one. Nothing is more important than the safety of our 
children and our families. And I do not take the responsibility 
to lead this agency and execute its mission lightly. I will do 
so with diligence and with the utmost humility if confirmed by 
this distinguished body.
    Thank you again, Chairman Thune, Ranking Member Nelson, and 
members of the Committee. If confirmed, I hope this hearing 
will just be the beginning of a collaborative and productive 
relationship with Congress. Thank you for your service to our 
Nation.
    I look forward to answering any questions you may have. 
Thank you.
    [The prepared statement and biographical information of Ms. 
Buerkle follow:]

    Prepared Statement of Ann Marie Buerkle, Nominee for Chairman, 
                U.S. Consumer Product Safety Commission
    Good morning, Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee. I am deeply honored and humbled 
by the President's nomination to be Chairman of the U.S. Consumer 
Product Safety Commission (CPSC) and for the opportunity to address you 
this morning.
    Ranking Member Nelson and Senators Rubio and Cruz, please know that 
my thoughts and prayers continue to be with your constituents 
recovering from the devastating hurricanes in Florida and Texas. I 
assure you that the CPSC will remain vigilant and continue to use every 
tool at its disposal to raise consumer awareness about post-storm 
hazards, particularly those related to the improper use of portable 
generators and resultant carbon monoxide poisonings. Along with 
promoting our safety messages through traditional and social media, we 
will continue to engage with CPSC field staff in the affected areas, 
other Federal agencies, state and local public safety counterparts, and 
major retailers to educate consumers and share potentially life-saving 
information.
    I would like to express my thanks and appreciation to my 
colleagues, Commissioners Robert Adler, Marietta Robinson, Elliot Kaye, 
and Joseph Mohorovic, for their support of my nomination as well as 
their friendship. In addition, I would like to thank CPSC's staff who 
have assisted and supported me throughout this process. I am honored to 
work alongside such talented and dedicated public servants.
    Finally, I would like to thank my family for their continuous love 
and support. Two of my six children are here today, my son Tom from 
Texas and daughter Caroline, from New York. Also here is my brother, 
Marine Corp Colonel Tom Colella. Thank you all for being here.
    For me, having the opportunity to lead CPSC is the culmination of 
many aspects of my life. I began my professional career in nursing and 
then, at the age of 40, went to law school. After receiving my law 
degree, I went on to work as a New York State Assistant Attorney 
General representing a Level One Trauma Hospital in Upstate New York. 
In addition, for more than a decade, I was a strong advocate for 
victims of domestic violence by providing pro bono legal counseling for 
residents at a local women's shelter. I then had the honor of serving 
the people of New York's 25th Congressional District in Congress and in 
2013, President Obama appointed me to serve as a Commissioner at CPSC.
    My most important role, however, has been raising my six children 
and being actively involved in the lives of my seventeen grandchildren. 
Whether it is making sure the grandchildren practice water safety or 
that my kids are buying safe nursery products, as a mother and a 
grandmother, safety is always on my mind.
    I have spent my life in advocacy and I believe that my background 
gives me a unique perspective as well as the ability to carry out 
CPSC's critical mission of keeping American consumers safe.
    CPSC's priorities are ultimately guided by our regulatory agenda, 
strategic plan, and operating plan. If confirmed, I will personally try 
to focus on areas where we can be most effective in carrying out our 
safety mission, by:

  (1)  Ensuring that our resources are dedicated to the highest 
        priority risks and that we focus on emerging hazards from new 
        technologies.

  (2)  Remaining vigilant in monitoring the safety of imported products 
        by continuing our excellent working relationship with Customs 
        and Border Patrol and enhancing our import surveillance 
        program. One of the best ways to keep consumers safe is to keep 
        unsafe products from entering the U.S. marketplace altogether.

  (3)  Maintaining robust engagement in voluntary standards development 
        and strengthening the agency's collaboration with 
        manufacturers, retailers, consumer advocates, other government 
        agencies, academia, and all stakeholders to advance consumer 
        safety.

  (4)  Enhancing the Agency's data capabilities by expanding both the 
        sources and the types of data we receive as well as our 
        analytical capabilities. Congress created CPSC as a data-driven 
        agency. Sound science and reliable data is critical to our 
        mission of safety and during my tenure I hope to further 
        modernize CPSC.

    CPSC's mission is a critical one. Nothing is more important than 
the safety of our children and our families. I do not take the 
responsibility to lead this agency and execute its mission lightly, and 
I will do so with diligence and the utmost humility if confirmed by 
this distinguished body.
    Thank you again, Chairman Thune, Ranking Member Nelson, and members 
of the Committee. If confirmed, I hope this hearing will be just the 
beginning of a collaborative and productive relationship with Congress. 
Thank you for your service to our Nation. I look forward to answering 
any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Ann Marie 
Colella; Ann Marie Buerkle.
    2. Position to which nominated: Chairman CPSC.
    3. Date of Nomination: July 27, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not provided to the public.
        Office: Information not provided at time of publication.

    5. Date and. Place of Birth: Auburn, NY; May 8, 1951.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    I am divorced with no spouse or co-inhabitant; Children are as 
follows: August Roy III, 41 years; Elizabeth Buerkle Kunkel, 40 years; 
Thomas Buerkle, 38 years; Amelia Buerkle Littrell, 37 years; Christine 
Buerkle, 33 years; Caroline Buerkle, 30 years.
    7. List all college and graduate degrees. Provide year and school 
attended.

        St. Joseph's Hospital School of Nursing; 1969-1972; RN degree

        LeMoyne College; 1976-1977; BS degree

        Syracuse University College of Law; 1991-1994

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    Office of New York State Attorney General 1994-2010; Member of 
United States Congress 2011-2012; Commissioner at CPSC 2013-2017; 
Acting-Chair at CPSC February, 2017-present.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.
    Please see resume.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Please see resume.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Friends for Life; American Bar Association; St. Joseph Alumni 
Association; Former Member of Congress Association.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Appointed to the Syracuse Common Council in 1994, ran for that 
position and lost; Candidate for Congress in 2010 and a Member of 
Congress 2011-2012; lost that re-election in 2014.
    None of my campaigns have any debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    None known.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Lists of all awards are listed in the attached CV.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Over the past 4 years while a Commissioner, I have given several 
speeches to industry organizations and consumer groups.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served as a Commissioner for the past 4 years and believe 
that I will be able to enforce the law that we are charged to do. My 
healthcare background, as well as the last 4 years, is an excellent 
foundation to not only execute the CPSC mission, but also to do so in a 
fair, even and transparent manner.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I managed an office with the AG in NYS and was responsible for a 
staff of 12 and for the significant receivable issue with a major 
teaching hospital. In addition, managed a Congressional Office with a 
budget of $1.2 million. I successfully managed an office as a 
Commissioner for 4 years and for the last 6 months managed the CPSC as 
the Acting Chairman. I understand the high bar for accountability to 
the public that we serve.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  a.  To find a balance between reasonableness and safety when 
        considering regulations and protecting the consumer for an 
        unreasonable risk of harm

  b.  Protect the consumer while not adversely affecting our industries 
        with unfair and costly regulations.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? 1f so, 
please explain.
    No, I do not.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None known.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None known.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None known.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I do not believe that I will have any potential conflicts of 
interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group?

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No. If yes: N/A.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Please see attached CV.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes
                                 ______
                                 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                              

    The Chairman. Thank you, Ms. Buerkle.
    Dr. Copan.

       STATEMENT OF WALTER G. COPAN, NOMINEE TO BE UNDER

            SECRETARY OF COMMERCE FOR STANDARDS AND

          TECHNOLOGY; AND DIRECTOR, NATIONAL INSTITUTE

                  OF STANDARDS AND TECHNOLOGY

    Dr. Copan. Thank you.
    For my opening statement, I would like to thank Senator 
Gardner for his kind introduction, and together with Senator 
Bennet, for their message of support for me for NIST and for 
science. I am deeply grateful for the support of our Colorado 
congressional delegation in this journey.
    I would like to introduce my wife, Mary Lynn, daughters 
Alexandra and Marissa, here from Colorado, as well as 
relatives, colleagues and friends from NIST, from the 
Departments of Energy, Defense, and Commerce, from the Federal 
labs, the National Science Foundation, and others who join with 
us in today's proceedings. Thanks to each one of you and now to 
my opening statement.
    Chairman Thune, Ranking Member Nelson, and distinguished 
members of the Committee.
    It is my great honor to appear to you today as nominee for 
the Director of the National Institute of Standards and 
Technology.
    I am first and foremost a scientist. I believe in the power 
of basic research, its development and commercialization, and 
of standards to drive economic growth and improve our standards 
of living.
    I am also a businessman, an entrepreneur, an investor, and 
an intellectual property and technology transfer professional. 
I am committed to NIST, and to America's treasure, our Federal 
research enterprise.
    If confirmed as Director, I will look forward to leveraging 
my experiences with a passion to serve our Nation, and to lead 
NIST into its next era of impact for America.
    I was born in New York and raised in Cleveland, Ohio. I 
went to college at Case Western Reserve University and 
completed a dual degree in chemistry and music. After beginning 
my professional career in physics and chemistry at the Lubrizol 
Corporation, I went back to graduate school at Case to complete 
my doctorate in physical chemistry, and carried out research 
that would establish the fundamental biochemical understanding 
of human vision. I returned to Lubrizol on a career journey 
that totaled 28 years with the company.
    My science career progressed to research and development 
leadership in the U.S. and in the UK, senior business 
management, venture capital, mergers and acquisition, strategy, 
innovation, intellectual property and tech transfer.
    As a national advisory council representative to the 
Federal Laboratory Consortium, I saw firsthand the value of 
Federal research, and within it, even greater potential for 
economic impacts. I was also one of the very few 
representatives from corporate America with the FLC then.
    Since the beginning of my professional journey in 1975, I 
encountered NIST. I came to deeply respect and appreciate 
NIST's role, and its impact on every sector of U.S. commerce.
    After years of serving as an advisor to the Department of 
Energy, it was Admiral Richard Truly who asked me if I ever 
considered working to advance the Federal labs from within. 
That conversation was a turning point for me. I joined Truly's 
team at the National Renewable Energy Lab in Colorado, with 
responsibilities for technology transfer.
    After several years, I joined a tech company as its Chief 
Technology Officer and Head of North American operations. I led 
the change and growth of CDTI to its listing on NASDAQ, as well 
as preparing its merger.
    That brought me back to the Department of Energy at 
Brookhaven National Lab in New York, to lead technology 
commercialization and partnerships, and also to provide 
leadership within the DOE to advance technology transfer 
mechanisms and policy.
    Having returned to Colorado and family, I founded several 
companies and a nonprofit, and I continue in close engagement 
with the Federal labs to bring inventions to market.
    As established in Article 1 of our Constitution, our 
Nation's founders saw the importance of standards to U.S. 
commerce, enabling America to take a leading role on the world 
stage. This was the birth of NIST.
    Whether it is for mature or emerging technologies, NIST 
brings scientific rigor and practicality in serving the economy 
of our Nation. From the cyber security framework, advanced 
computing, quantum communications, the Internet of things, 
biomedical metrology, to advanced manufacturing excellence and 
operational quality, NIST is a cornerstone for American 
innovation, also providing stewardship for U.S. technology 
transfer policy and reporting.
    It is my privilege and honor to have the President nominate 
me to serve as Director of NIST. I thank Secretary Ross for his 
strong support of NIST, and for his trust and confidence in me 
for this role.
    If confirmed, I pledge to work closely with the members of 
this Committee, and with Congress, to ensure that NIST 
continues to perform its essential mission, that it is true to 
the principle of unbiased integrity in serving our Nation, and 
that NIST will continually adapt as an essential part of the 
leading edge of American progress.
    Thank you. I look forward to your questions.
    [The prepared statement and biographical information of Dr. 
Copan follow:]

  Prepared Statement of Walter G. Copan, Nominee for Under Secretary 
   of Commerce for Standards and Technology/Director of the National 
                 Institute of Standards and Technology
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, it is my great honor to appear before you today as 
nominee for Director of the National Institute of Standards and 
Technology.
    I am first and foremost a scientist. I believe in the power of 
basic research, its development and commercialization--and of standards 
to drive economic growth and improve our standards of living. I am also 
a businessman, an entrepreneur, investor, and an intellectual property 
and technology transfer professional. I am committed to NIST, and to 
America's treasure--our Federal research enterprise. If confirmed as 
Director, I look forward to leveraging my experiences with a passion to 
serve our nation, and to lead NIST into its next era of impact for 
America.
    I was born in New York and raised in Cleveland, Ohio. I went to 
college at Case Western Reserve University and completed a dual degree 
in Chemistry and Music. After beginning my professional career in 
physics and chemistry at the Lubrizol Corporation, I went back to 
graduate school at Case to complete my doctorate in physical chemistry, 
and carried out research that would establish the fundamental 
biochemical understanding of human vision. I returned to Lubrizol on a 
career journey that totaled 28 years with the company. My science 
career progressed to research and development leadership in the U.S. 
and in the UK, senior business management, venture capital, M&A, 
strategy, innovation, intellectual property and technology transfer. As 
national advisory council representative to the Federal Laboratory 
Consortium, I saw first-hand the value of Federal research, and within 
it, even greater potential for economic impact. I was also one of the 
very few representatives from Corporate America with the FLC then.
    Since the beginning of my professional journey in 1975, I 
encountered NIST. I came to respect and deeply appreciate NIST's role, 
and its impact on every sector of U.S. commerce.
    After years of serving as advisor to the Department of Energy, 
Admiral Richard Truly asked me whether I had ever considered working to 
advance the Federal labs from within. That conversation was a turning 
point for me. I joined Truly's team at the National Renewable Energy 
Laboratory in Colorado, with responsibilities for technology transfer.
    Several years later, I joined a tech company as Chief Technology 
Officer and head of North American operations. I led the change and 
growth of CDTI and to listing on NASDAQ, as well as preparing its 
merger. That brought me back to the Department of Energy at Brookhaven 
National Laboratory in New York, to lead technology commercialization 
and partnerships, and to provide leadership in the DOE to advance 
technology transfer mechanisms and policy. Having returned to Colorado 
and family, I founded several companies and a non-profit, and I 
continue in close engagement with Federal labs to bring inventions to 
market.
    As established in Article 1 of the Constitution, our Nation's 
founders saw the importance of standards to U.S. commerce, enabling 
America to take a leading role on the world stage. This was the birth 
of NIST.
    Whether it's for mature or emerging technologies, NIST brings 
scientific rigor and practicality in serving the economy of our Nation. 
From the cybersecurity framework, quantum computing and communications, 
to the Internet of Things to biomedical metrology, to advanced 
manufacturing excellence and operational quality, NIST is a cornerstone 
for American innovation, also providing stewardship for U.S. technology 
transfer policy and reporting.
    It is a privilege and honor to have the President nominate me to 
serve as Director of NIST. I thank Secretary Ross for his strong 
support of NIST, and for his trust and confidence in me for this role. 
If confirmed, I pledge to work closely with the members of this 
Committee and with Congress to ensure that NIST continues to perform 
its essential mission, that it is true to the principle of unbiased 
integrity in serving our nation, and that NIST will continually adapt 
as an essential part of the leading edge of American progress.
    Thank you. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Walter G. 
Copan.
    2. Position to which nominated: Under Secretary of Commerce for 
Standards and Technology/Director, National Institute of Standards and 
Technology (NIST).
    3. Date of Nomination: September 14, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Information not provided.

    5. Date and Place of Birth: February 26, 1954 in Bronxville, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse, Mary Lynn Copan, is a homemaker. Children: Elizabeth M. 
        Copan (age 34); Alexandra H. Copan (age 31); Marissa E. Copan 
        (age 28).

    7. List all college and graduate degrees. Provide year and school 
attended.

        BS/BA Chemistry & Music dual degree, 1975--Case Western Reserve 
        University.
        Ph.D. Physical Chemistry, 1982--Case Western Reserve 
        University.

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    All of these roles listed in my professional background relate to 
the position of Director of the National Institute of Standards and 
Technology. Since 1983, all the positions held were management roles. 
Whether the positions involved executive leadership of technology-
focused companies and organizations, analysis and measurements related 
to standards across a range of industries and technology domains, 
innovation leadership, technology transfer, research & development, new 
product development and commercial introduction, advanced manufacturing 
and process control technologies, quality systems development and 
implementation, economic development and/or commercialization--these 
all connect directly to the work and mission of NIST.

        President & CEO, Board Director, IP Engineering Group 
        Corporation, Monument, Colorado, Jan 2015-present

        Founding Board Member & Director, Technology Transfer and 
        Innovation, Rocky Mountain Innovation Partners, Colorado 
        Springs, Colorado, 2014-present

        Founding CEO & Chairman Of The Board, Impact Engineered Wood 
        Corporation, Silicon Valley, California, May 2015-June 2017

        Advisor & Managing Director, Technology Transfer, Tekcapital 
        plc, Oxford, U.K., 2014-present

        President, Copan Associates, LLC, and Managing Director, 
        EnergyInsight, LLC, Monument, Colorado, 2009-present

        President, TAEUS Corporation, Colorado Springs, Colorado, 2013-
        2014

        Managing Director, Technology Commercialization & Partnerships, 
        Brookhaven National Laboratory (BNL), Upton, New York, 2010-
        2013.

        Executive Vice President and Chief Technology Officer, Clean 
        Diesel Technologies, Inc. (CDTI), Bridgeport, Connecticut, 
        2005-2010

        Principal Licensing Executive, Technology Transfer, National 
        Renewable Energy Laboratory, U.S. Department of Energy, Golden, 
        Colorado, 2003-2005

    The following positions were held at The Lubrizol Corporation, 
Wickliffe, Ohio between 1998 and 2003.

        Managing Director, Technology Transfer And Licensing, 1999-2003

        Director, Technology Strategy & Commercial Manager, Europe, 
        1998-1999

        Department Head, Application Technology/Physical & Analytical 
        Sciences, 1993-1998

        Manager, Lubrizol Petroleum Chemicals Technology, Derbyshire, 
        U.K., 1989-1993

    The following positions were held at The Lubrizol Corporation, 
Wickliffe, OH between 1982 and 1989:

        Business Unit Manager, Polymers & Viscosity Modifiers, and 
        Technology Manager, Engine Lubricants, Wickliffe, Ohio, 1987-
        1989

        Group Leader--Molecular Spectroscopy, 1985-1987

        Group Leader--Analytical Research & Competitive Intelligence, 
        1983-1985

        Research Chemist--Polymer Characterization & Physical 
        Chemistry. 1982-1983

        On academic leave of absence from Lubrizol Corporation to 
        complete Ph.D. in Physical Chemistry at Case Western Reserve 
        University: 1978-1982

    The following positions were held at The Lubrizol Corporation, 
Wickliffe, OH between 1975 and 1978:

        Research Chemist--Competitive Intelligence Group, 1977-1978

        Research Chemist--Physics & Analytical Chemistry Laboratory, 
        1975-1977

    9. Attach a copy of your resume.
    Please see Attachment 1--WGCopan Resume 062017.
    10, List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Please see all positions listed from 2005 to the present in my 
response to question 8, above.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Licensing Executives Society (Member, 1997 to present)

        American Chemical Society (Member, 1975 to present)

        Association of University Technology Managers (Member, 2000 to 
        present)

        Federal Laboratory Consortium for Technology Transfer (National 
        . Advisory Council, 1998-2003; and Member, 1998-2005; 2010-
        2013)

        Industrial Research Institute (Member representative from 
        Lubrizol Corporation, 1994-2003; Member representative from 
        Brookhaven National Laboratory, 2010-2013)

        Innovators International (Representative on behalf of U.S. 
        Department of Energy, 2012-2013)

        National Business Incubation Association (Member, 2001-2005; 
        2010-present)

        Society of Automotive Engineers (Member, 1983-2003; 2005-2010)

        Manufacturers of Emission Controls Association (Member 
        representative from Clean Diesel Technologies, Inc., 2005-2010)

        Licensing Executive Society (LES)--Member, Executive Board 
        (2003-2011) and Vice President for LES U.S.A. (2006-2011)

        LES Board of Trustees, Chair--Strategic Planning (2006-2010)

        LES Board of Trustees, Co-Chair--Mentorship Program and The 
        Frank Barnes Mentorship Award Committee (2003-2011)

        LES International (LESI)--International Delegate representing 
        LES USA & Canada (2004-2011)

        Vice-Chair-LES International (LESI) External Relations 
        committee (2009-2012)

        Chair--LES Cleantech Committee (2011-2012)

        Chair--LES (USA-Canada) Annual Meeting Committee (2006-2008)

        Chair--LES (USA-Canada) Industry/University and Government 
        Laboratories Transactions Sector (2001-2002)

        Chair LESI Industry/University and Government Transactions 
        Sectors (2002-2005)

        Chair--LES (USA-Canada) Energy, Chemicals, Petrochemicals, 
        Polymers and Allied Industries Sector (2002-2004)

        Chair--LESI Chemicals, Energy, Environment and Materials Sector 
        (2005-2008)

        LES Chair, Joint Task Force with the Association of University 
        Technology Managers (ATM) on Academia-Industry Relations, and 
        LES Board liaison with AUTM (2008-2010)

        Founding partner and member of the Board of ``Accelerate Long 
        Island'' Alliance for innovation, new business creation, 
        investment and economic development (New York, 2010-2013)

        Chair--Battelle Commercialization Council (Battelle Memorial 
        Institute/U.S. Department of Energy National Laboratories, 
        2011-2012)

        Member--U.S. Department of Energy Technology Transfer Working 
        Group, Chair--Technology Transfer Mechanisms and Metrics (2012-
        2013)

    None of these organizations restricts membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honored by Case Western Reserve University as the University's 
        Distinguished Alumnus of the Year (May, 2008).

        Battelle Memorial Institute Leadership Award, 2012 for service 
        to the U.S. Department of Energy stakeholders in the 
        development and implementation of the new technology transfer 
        mechanism ``Agreements for Commercializing Technology (ACT)''.

        Battelle Memorial Institute Outstanding Service Award as Chair 
        of the Battelle Commercialization Council with the U.S. 
        Department of Energy National Labs (2011-2012).

        Recognition Awards from the World Intellectual Property 
        Organization (WIPO) for service in support of global innovation 
        and training for successful technology licensing (2004-2014).

        Listed in ``Who's Who in U.S. Business,'' ``Who's Who in 
        Science and Technology,'' and Licensing Executives Society 
        International ``Who's Who in Global Licensing''.

        Recipient of Licensing Executives Society Distinguished Service 
        Award in October 2010 for contributions and leadership roles in 
        this professional society:

                2003-2010 Board of Trustees; 2004-2010 LESI 
                International Delegate; 2006-2010 Regional Vice 
                President LES USA; 2005-6 Vice President--Member 
                Interests; 2003-2005 Co-Chair Mentoring Committee; 
                2002-2004 Chair--Energy, Chemicals, Petrochemicals, 
                Polymers and Allied Industries Sector; 2001-2002 
                Chair--Industry/University and Government Laboratories 
                Transactions Sector

        Recipient of Licensing Executives Society Service Awards in 
        each year between 2001 and 2012 for committee and sector 
        leadership, regional and annual meeting committee leadership, 
        and Board of Directors committee leadership.

        Lubrizol Corporation Commercial Development Award, 1997.

        Lubrizol Corporation Innovation Award, 1995.

        Lubrizol Corporation Recognition Award for Mergers & 
        Acquisitions (Specialty Chemicals), 1994.

        European Chemical Industry (CEFIC) Leadership Award for leading 
        the Additive Technical Committee task force to document and 
        analyze the environmental impacts of the transportation sector 
        in Europe, 1991-1993.

        Lubrizol Business Development Pioneer Award, for contributions 
        leading to the launch of the Paints, Coatings and Inks business 
        unit, 1987-1988.

        Lubrizol Research & Development Recognition Award, for service 
        as Founder and Chair of the Lubrizol Technical Symposium, 1985.

        Lubrizol Corporate Service Recognition Awards, for service as 
        Founder and Director of the ``Lubrizol Chorale'' from 1976 to 
        1988.

        Reviewer for American Chemical Society journal 
        ``Macromolecules,'' 1984-1988.

        Case Western Reserve University: Graduate Alumni Fund Award, 
        1981.

        Graduate Teaching Award, 1979.

        Undergraduate Presidential Scholar, 1971.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Please see Attachment 2--WGCopan Publications and Presentations 
Summary 062017.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe that I am the right person to lead NIST at this time, and 
I'm pleased that the Department of Commerce and the Administration have 
recognized this strong fit. Leading NIST to the next level is my stated 
and deeply-felt goal. I will bring to NIST the benefit of my 
experience, insights and talents developed throughout my lifetime and 
across a broad, diverse career path to this point. This background has 
spanned success in large company, entrepreneurial small company, U.S. 
Federal laboratory, public and non-profit organization, educational and 
investment sector settings in the U.S. and internationally.
    I have been familiar with NIST, and have engaged with the NIST 
people, technologies, materials and programs throughout my career. hold 
NIST in highest regard, as the national treasure upon which the country 
and our economy rely. NIST is at the heart of the U.S. innovation 
system, supporting the whole of the U.S. economy and our global 
leadership and competitiveness. As a scientist, first and foremost, I 
believe that NIST has an essential role that must continually adapt its 
capabilities, people and programs as economic dynamics and science & 
technology advance and change globally.
    My own PhD studies were in a multidisciplinary setting, requiring 
partnerships, creative access to resources, and bold leadership of the 
project and its many interfaces to achieve success. I was the first 
graduate student in my class to complete the PhD program--through the 
dissertation, defense and graduation. I credit, in part, my background 
in business and industrial research & development for having equipped 
me with both the skills and determination to accomplish this outcome. 
This experience, having a clear focus on the goal and embracing 
collaborations to achieve it, have remained with me as important life 
lessons.
    I care deeply about the mission of NIST and recognize clearly the 
scientific integrity, skills and capabilities needed to do its work. I 
believe that, with my strong background in science & technology, 
innovation, technology transfer, intellectual property and 
international business, that I will be an effective contributor to 
advance NIST, as well as the goals of the Department of Commerce.
    NIST is an organization whose mission, capabilities and 
contributions enjoy broad support. I also bring a proven track record 
of achieving a positive difference while in the U.S. Federal laboratory 
system and as an advisor to the Federal labs, to improve their 
effectiveness and impacts for the U.S. economy. The technology transfer 
expertise and experience that I bring will also serve the Department of 
Commerce and our Federal laboratory system well, as I take on the role 
of NIST Director. My goal is to serve NIST and our Nation with 
distinction, and to support NIST in continuing to accomplish great 
things for America.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    It will be my responsibility, upon confirmation to the position of 
Under Secretary and as Director of NIST, to ensure all appropriate 
management and accounting controls are in place, and effectively 
serving the requirements of NIST and stakeholders. I will review the 
NIST organization, systems and reporting functions, assessing their 
effectiveness, and will ensure that any necessary changes are made 
appropriately, with stakeholder inputs.
    A significant portion of my career has involved executive 
organizational leadership with full budgetary authority, profit & loss 
responsibilities, and accountability for all essential functions of the 
organization. These responsibilities applied as I led a range of 
business units and functional organizations with over 400 personnel in 
large company settings (Lubrizol Corporation), in small companies with 
up to 50 employees and over 500 contract expert staff (including Clean 
Diesel Technologies Inc. and TAEUS Corp.), in the Department of Energy 
system at Brookhaven National Laboratory, and in startup companies such 
as the IP Engineering Group Corporation and Impact Engineered Wood 
Corp. I have had fiscal oversight and accountability as a Board member 
of multiple corporations and many non-profit organizations. My 
involvement in mergers & acquisitions as well as in venture capital 
investments during my career has further allowed me to develop a solid 
understanding of organization financials and forecasting, valuation and 
negotiations. This broad background translates directly to the 
responsibilities and understanding required of the Director of NIST.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

    (1.) Program Integrity: It is critically important to maintain and 
develop the essential capabilities of NIST to effectively carry out its 
mission, while addressing the realities of budgetary allocations and 
constraints. This is a key challenge area that needs to take into 
account strategic national priorities.

    (2.) U.S. Cybersecurity Integration: NIST has a major role in the 
cybersecurity of our Nation. Although the latest NIST Cybersecurity 
Framework (CSF) has been issued and new standards are being adopted, 
there is much work to be done. Not only does the CSF need to be adopted 
and integrated effectively across the Federal complex, but it needs to 
be adapted with a range of solutions for U.S. businesses and the non-
profit sector. Small U.S. companies are at significant risk from 
cyberattacks. However, the CSF together with the related standards are 
most applicable to larger organizations with greater access to funding 
and resources. This gap needs to be addressed for smaller enterprises, 
which contribute significantly to U.S. economic growth and employment.

    (3.) Addressing Emerging Requirements for U.S. Industry and 
International Competitiveness: As technologies and markets develop at 
ever-accelerating rates, NIST must adjust to address the increased 
demand for measurement science solutions. This is challenging to 
achieve both in terms of access to budget and to the necessary 
capabilities. NIST supports U.S. industrial competitiveness through 
measurements for standards setting, enabled by fundamental science and 
technology understanding, as well as by measurement capabilities, 
expertise and facilities. In doing so, NIST has a strong history of 
collaboration with industry, standards organizations and government 
agencies. Collaborative approaches are an essential and expanding part 
of delivering measurement solutions to growth areas including advanced 
communications, bioscience, resilient infrastructure, next generation 
computing, etc. The organization needs access to the required talent 
pool and resources, both directly and through new partnerships. To even 
more effectively do its work in the future, the NIST organization can 
expand its available ``tool kit'' of mechanisms for transactions, 
partnerships and technology transfer in accomplishing its mission and 
programs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have already resigned as Chairman and Founding CEO of Impact 
Engineered Wood Corporation, effective June 14, 2017. In accordance 
with the Ethics Agreement I have entered with the Department of 
Commerce on June 22, 2017 I will resign the following positions 
immediately upon confirmation:

  <bullet> President and CEO, and Board Director of IP Engineering 
        Group Corporation.

  <bullet> Board Director of Rocky Mountain Innovation Partners [501 
        (c)(3)].

  <bullet> Advisor & Vice President--Technology Transfer, Tekcapital 
        pie.

    The payment of deferred compensation from the time of my employment 
with IP Engineering Group Corp. and Impact Engineered Wood Corp., or 
indeed any other payment for my services from any of these 
organizations listed that are not received by the date I assume the 
duties of the position of Under Secretary will be forfeited. I will 
also forfeit the potential value of the shares of the following 
companies of which I was founder and significant investor: IP 
Engineering Group and Impact Engineered Wood. My consulting companies 
(Copan Associates LLC and EnergyInsight LLC) have been inactive since 
March 1, 2015 as I focused on establishing the other companies and the 
non-profit organization. These consulting companies will be inactive 
during the time of my government service. I will have no ongoing 
business interactions with customers, clients or business associates 
from any of these companies during the time of my government service. 
These commitments are described in more detail in the Ethics Agreement 
referred above.
    I do not have defined benefit retirement plans from former or 
current employers. My financial disclosure form OGE 278e submitted and 
approved in June 2017 details the assets I have in personal retirement 
accounts, including those in my IRAs and in the 401 (k) and other 
defined contribution retirement accounts I had with former employers--
The National Renewable Energy Laboratory and Brookhaven National 
Laboratory.
    The following table summarizes these arrangements.

------------------------------------------------------------------------
          Employer or      City,
   #         Party         State       Status and Terms    Starting Date
------------------------------------------------------------------------
1        Impact         Campbell,   Will forfeit company   5/2015
          Engineered     Californi   stock within 90 days
          Wood           a           of confirmation and
          Corporation                will forfeit
                                     deferred
                                     compensation unless
                                     received prior to
                                     entering government
                                     service. No
                                     continuing benefits
                                     or involvement after
                                     confirmation as
                                     Under Secretary
------------------------------------------------------------------------
2        IP             Monument,   Will forfeit company   1/2015
          Engineering    Colorado    stock within 90 days
          Group                      of confirmation and
          Corporation                will forfeit
                                     deferred
                                     compensation unless
                                     received prior to
                                     entering government
                                     service. No
                                     continuing benefits
                                     or involvement after
                                     confirmation as
                                     Under Secretary
------------------------------------------------------------------------
3        Brookhaven     Upton, New  I will continue to     4/2010
          Science        York        participate in this
          Associates                 defined contribution
                                     plan, but the plan
                                     sponsor no longer
                                     makes contributions.
------------------------------------------------------------------------
4        National       Golden,     I will continue to     6/2003
          Renewable      Colorado    participate in this
          Energy                     defined contribution
          Laboratory                 plan, but the plan
                                     sponsor no longer
                                     makes contributions.
------------------------------------------------------------------------
5        Copan          Monument,   These entities will    8/2009
          Associates     Colorado    be maintained in
          LLC/                       good standing with
          EnergyInsigh               the State of
          t LLC                      Colorado, and will
                                     be inactive while I
                                     am in government
                                     service.
------------------------------------------------------------------------

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce ethics 
officials to identify any potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of the ethics agreement that I have entered into with the 
Department of Commerce and has been provided to this Committee. I am 
not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    As I had also indicated in my response to B.3, in connection with 
the nomination process, I have consulted with the Office of Government 
Ethics and the Department of Commerce ethics officials to identify any 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of the ethics agreement 
that I have entered into with the Department of Commerce and has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    As also indicated in my responses to B.3 and B.4 above, in 
connection with the nomination process, I have consulted with the 
Office of Government Ethics and the Department of Commerce ethics 
officials to identify any potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of the ethics agreement that I have entered into with the 
Department of Commerce and has been provided to this Committee. I am 
not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group?
    No.
    If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Yes, involved in one matter to collect compensation due me from 
TAEUS International Corporation/TAEUS Corp. (Colorado Springs, CO). 
This arbitration process went through the discovery phase, and before 
arbitration proceedings were scheduled to begin, a fairly satisfactory 
settlement was offered to me and accepted in April 2016.
    Lubrizol VS Exxon patent litigation: Early in my career at Lubrizol 
Corporation, the company's competitive intelligence team which I led in 
corporate Research & Development discovered that Exxon allegedly 
infringed one of Lubrizol's core patents (U.S. Patent 4,234,435 and 
foreign equivalents) . I provided documents and deposition statements 
in this matter. After extensive litigation in the U.S. and abroad, this 
case ultimately settled. https://www.icis.com/resources/news/1999/04/
01/77455/lubrizol-exxon-settle-patent-litigation/
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    A former Director of NIST has told me that I was likely the best 
candidate ever to be nominated to serve as the Director of NIST. He 
said this because of my broad background in science and technology, 
innovation and technology transfer, a history of working effectively 
with the U.S. Federal Labs, and my cross-sector industry and leadership 
experience.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    Resume of Walter G. Copan, Ph.D.
           EXECUTIVE LEADER--INNOVATION, RESEARCH, STRATEGY, 
                          BUSINESS OPERATIONS
 Technology Commercialization <bullet> Intellectual Property <bullet> 
                 Entrepreneurship <bullet> Partnerships
Executive with more than three decades of successful experience leading 
technology transfer, corporations and organizations, spearheading R&D, 
product development and commercialization of innovative technologies--
from concept to the commercial marketplace. Rich experience base 
spanning large company, entrepreneurial small company, U.S. national 
laboratory/academic sector settings, including policy, venture 
investment, capital markets, M&A. Visionary leader who develops, 
communicates and executes clear strategies for results. Internationally 
recognized expertise in innovation, tech transfer, commercialization, 
sustainability, new ventures, economic development and alliances.

  <bullet> Established technology transfer and licensing business for 
        Lubrizol Corp., contributing over $150M/year profits.

  <bullet> Drove transformation and growth for Clean Diesel 
        Technologies, Inc., took CDTI onto NASDAQ, set up merger.

  <bullet> Led U.S. Dept. of Energy team of national labs to establish 
        DOE's first new tech transfer mechanism in over 25 years. 
        Agreements to Commercialize Technology (ACT) enhanced industry 
        access to the U.S. DOE Federal labs.
                           Areas of Expertise
   Executive Leadership <bullet> R&D <bullet> Intellectual Property 
    <bullet> Strategy <bullet> Change Leadership <bullet> Alliances 
   <bullet>Technology <bullet> Business Operations <bullet> Finance 
 <bullet> Negotiations <bullet> Product Management <bullet> Standards 
     <bullet> Quality <bullet> Energy <bullet> Cleantech <bullet> 
 Environment <bullet> Chemicals, Catalysis & Polymers <bullet> Biotech 
          <bullet> Advanced Materials <bullet> Transportation
                        PROFESSIONAL EXPERIENCE
PRESIDENT & CEO, IP Engineering Group Corporation, Monument, Colorado 
Jan 2015-present
Leader and co-founder, providing services for Intellectual property and 
strategy, IP transactions and investment. IPEGC helps clients maximize 
commercial and financial impacts from their inventions. www.ipegc.com

FOUNDING BOARD MEMBER & DIRECTOR, TECHNOLOGY TRANSFER and INNOVATION, 
Rocky Mountain Innovation Partners, Colorado Springs, Colorado 2014-
present
Providing technology transfer and innovation services to research 
organizations, universities and companies, together with venture 
investment, business incubation/accelerator programs. 
www.rmipartners.org

CHAIRMAN & CTO, Impact Engineered Wood Corporation, Silicon Valley, 
California May 2015-present
Development and commercialization of high performance products with 
positive environmental impacts for commercial and residential building 
materials markets worldwide. www.impactengineeredwood.com

ADVISOR & MANAGING DIRECTOR, TECHNOLOGY TRANSFER,
Tekcapital plc, Oxford, UK 2014-present
Connecting emerging technologies and market insights with corporate 
strategic investors. Tekcapital helps clients profit from university 
intellectual property globally. www.tekcapital.com

PRESIDENT, Copan Associates, LLC, Monument, Colorado 2009-present
MANAGING DIRECTOR, EnergyInsight, LLC Monument, Colorado
Leader of consulting groups providing services in business strategy and 
innovation, technology development and commercialization, with 
expertise across a wide range of technology domains and markets. 
EnergyInsight, LLC subsidiary provides consultation and services 
focused on energy and environment. www.waltercopan.com

PRESIDENT, TAEUS Corporation, Colorado Springs, Colorado 2013-2014
TAEUS is an intellectual property and engineering company that helps 
clients defend, assert, manage, and monetize intellectual property to 
realize value for their assets in the global market for innovation. 
www.taeus.com
Recruited to lead the company through restructuring, to develop sales, 
and to reposition the company brand.
  <bullet> Successfully completed turn-around of this privately-held 
        company; secured financing commitments.

MANAGING DIRECTOR, TECHNOLOGY COMMERCIALIZATION
& PARTNERSHIPS 2010-2013
Brookhaven National Laboratory (BNL), Upton, New York
Premier national laboratory of the U.S. Department of Energy (DOE). 
Major thrust areas include Energy, Climate, Nuclear Physics, 
Accelerator Science & Instrumentation, Human Health & Environment, and 
National Security. Advanced materials, buildings systems and renewable 
resources. www.bnl.gov.

Leader to transform BNL organization for technology transfer and 
industry collaboration. Led investor interface. More startup companies 
were formed from BNL in this period than in the Lab's entire prior 
history.

EXECUTIVE VICE PRESIDENT AND CHIEF TECHNOLOGY OFFICER 2005-2010
Clean Diesel Technologies, Inc., Bridgeport, Connecticut
Technology innovation focused on clean energy, energy efficiency, and 
environmental technologies for the global emissions control market, 
vehicles and power generation. www.cdti.com NASDAQ: CDTI

Recruited based on industry-wide reputation to lead CDTI, an 
entrepreneurial technology company, through significant business change 
and redefinition. Reporting to the CEO, spearheaded company 
transformation from research focus to successful commercial enterprise. 
Full P&L responsibilities.

  <bullet> Developed supply chain, commercial partnerships and 
        restructured the business to effectively address market 
        opportunities with global vehicle and engine OEMs, and Tier One 
        suppliers.

  <bullet> Spearheaded successful NASDAQ listing of CDTI in October 
        2007.

  <bullet> Key contributor to growing total company revenues 15x over 4 
        years.

  <bullet> Established framework for CDTI company merger in 2010.

PRINCIPAL LICENSING EXECUTIVE, TECHNOLOGY TRANSFER 2003-2005
National Renewable Energy Laboratory (NREL), U.S. Department
of Energy, Golden, Colorado
Leading DOE laboratory for renewable energy and energy efficiency 
research and development; www.nrel.gov

Joined NREL in expressly-created position, to increase the National 
Lab's effectiveness in developing and commercializing clean energy 
technologies. Served as change agent to enhance partnerships with 
industry, investors and entrepreneurs. Negotiated major IP license 
deals with industry partners for technologies including buildings 
systems, bioproducts and renewables, cellulosic materials biorefinery, 
solar, wind, energy storage, biotech, fuels and vehicles. Implemented 
licensing program for Sustainable Buildings Industry Council.

MANAGING DIRECTOR, TECHNOLOGY TRANSFER AND LICENSING 1999-2003
The Lubrizol Corporation, Wickliffe, OH
World leader in specialty chemicals, systems and services focused on 
transportation, energy and industrial sectors. www.lubrizol.com

Established and led new business unit with P&L responsibility for 
technology licensing, corporate venturing, intellectual property 
management, technology strategy and global external relationships for 
technology. Led M&A, strategic alliances and new business development 
with partners including Caterpillar, BASF, BP, Chevron.

  <bullet> Negotiated major transactions and licensing agreements, with 
        contribution income over $150M, including the most financially 
        significant license and technology transfer agreements in 
        Lubrizol history.

  <bullet> Developed & launched new product ranges for significant 
        market share increase, including establishing the Lubrizol 
        Paints Coatings & Inks business unit and related M&A 
        transactions: Becker GmbH, Noveon.

DIRECTOR, TECHNOLOGY STRATEGY & COMMERCIAL MANAGER,
EUROPE 1998-1999
Developed and implemented disciplined management processes for 
Lubrizol's $400M+ technology investment portfolio, and for new 
ventures, M&A. Spearheaded new market introduction of novel clean fuels 
and systems to reduce vehicle emissions. Developed fuel technology 
business for EU markets, established market channel partnerships, and 
built organization to implement. Integrated Lubrizol acquisition of BP 
Chemicals-Adibis.

DEPARTMENT HEAD, APPLICATION TECHNOLOGY / PHYSICAL
& ANALYTICAL SCIENCES 1993-1998
Led two corporate R&D departments totaling more than 120 staff in 
research, new products and applications development. Directed Lubrizol 
Global Physical & Analytical Science management team. Managed, 
worldwide manufacturing interface, new product and process technology 
introduction, and technical service, with 300+ personnel at 
international research, testing and manufacturing facilities. Leader, 
Corporate New Product Introduction team.

  <bullet> Established Corporate Ventures and business incubation to 
        spin-out and spin-in new tech companies.

  <bullet> Managed interface with JV partners and portfolio companies 
        including Genentech, Cetus, Agrigenetics.

MANAGER, LUBRIZOL PETROLEUM CHEMICALS TECHNOLOGY,
DERBYSHIRE, U.K. 1989-1993
Established and directed new department of 35 staff in product 
development, program management and technical service in EMEA and the 
Former Soviet Union.

  <bullet> Increased sales and market share in highly competitive 
        marketplace.

  <bullet> Led European-wide industry initiative to quantify the 
        environmental impacts from vehicles sectors.

Previous professional experience with Lubrizol: Business Unit General 
Manager--Polymers & Viscosity Modifiers; Partner--Lubrizol Enterprises 
Inc. venture capital group; Technology Manager--Engine Oils; Department 
Head--Molecular Spectroscopy; and Manager, Competitive Intelligence.

  <bullet> Led preparations resulting in successful global patent 
        infringement litigation for Lubrizol vs Exxon.
                 EDUCATION and PROFESSIONAL DEVELOPMENT
Executive Business Administration and Leadership Program, Harvard 
Business School

Ph.D. Physical Chemistry, Case Western Reserve University--Cleveland, 
Ohio USA
(In collaboration with CWRU School of Medicine and the University of 
Guelph, Ontario, Canada).
Dissertation: ``Carbon-13 and Nitrogen-15 NMR Studies of Rhodopsin and 
Bacteriorhodopsin.''

B.S./B.A. Chemistry and Music, Dual Degree, Case Western Reserve 
University

Leadership studies at CWRU Weatherhead School of Management, and the 
Management Centre Europe--Brussels. Advanced studies in New Product 
Development, Innovation Leadership, Marketing, Finance and Business 
Management; Negotiations, Strategic Alliances, Competitive 
Intelligence; Media Relations; Seed and Venture Capital Investment, 
Mergers & Acquisitions, Valuation, Corporate Board Governance, Due 
Diligence, International Business, etc.
         SELECTED PROFESSIONAL SOCIETIES, HONORS AND ACTIVITIES
Licensing Executive Society (LES)--Member, Executive Board and Vice 
President for LES U.S.A.
LES Board of Trustees, Chair--Strategic Planning; Chair--Mentorship 
Program, Frank Barnes Mentorship Award Committee. Vice-chair--LES 
International (LESI) External Relations committee, Founder and Chair--
LES Cleantech Committee.
Chair--LES (USA-Canada) and LESI Industry/University and Government 
Transactions Sector
Chair--LES (USA-Canada) and LESI Chemicals, Energy, Environment and 
Materials Sector and other Board and professional society leadership 
roles.

LES Chair, Joint Task Force with the Association of University 
Technology Managers (AUTM) on Industry-Academic Relations. LES Board 
liaison with AUTM.

Led Task Force with LESI, the European Patent Office, the United 
Nations Environment Programme, the International Centre for Trade and 
Sustainable Development, OECD, U.S. Chamber of Commerce, the 
International Chamber of Commerce, and others on the development, 
transfer and licensing of new energy technologies and intellectual 
property, and their impact potential for economic development. Reports 
were presented and used by the UN and EPO in policy forums 2007-2010.

Founding partner and member of the Board of ``Accelerate Long Island'' 
alliance for innovation, new business creation, investment and economic 
development (New York)

Chair--Battelle Commercialization Council (Battelle Memorial Institute/
U.S. DOE)
Chair--Task Force to establish new Agreements to Commercialize 
Technology (ACT)--National Laboratory Directors Council, U.S. DOE. 
Designed, negotiated and implemented this new DOE tech transfer 
mechanism.
Chair--Technology Transfer Mechanisms and Metrics--U.S. DOE Technology 
Transfer Working Group

Professional Affiliations: Industrial Research Institute, Association 
of University Technology Managers, Licensing Executives Society, 
Innovators International, Directors of Industrial Research, American 
Chemical Society, National Business Incubation Association, Society of 
Automotive Engineers.

  <bullet> Author, patent holder, and frequent speaker.

  <bullet> Service on non-profit and corporate boards.

  <bullet> Invited expert and consultant on intellectual property 
        matters, energy, sustainability and economic development with 
        the United Nations and the World Intellectual Property 
        Organization (WIPO).

  <bullet> Contributor to U.S. Council on Competitiveness on innovation 
        and economic development

  <bullet> Member, National Advisory Council to the U.S. Federal 
        Laboratory Consortium.

  <bullet> Advisor to the U.S. Department of Energy, ``Inventions and 
        Innovations'' program

  <bullet> Contributor to the U.S. National Academy of Sciences on 
        innovation and technology transfer matters.

Honored by Case Western Reserve University as the University's
Distinguished Alumnus of the Year (May, 2008).
Listed in ``Who's Who in U.S. Business, ``Who's Who in Science and 
Technology,'' and LESI ``Who's Who in Global Licensing''.

Certified Licensing Professional (CLP<SUP>TM</SUP>)

Corporate Boards: Clean Diesel Technologies, Inc., TAEUS Corp., IP 
Engineering Group Corp., Impact Engineered Wood Corporation, Nova 
Lignum, B.V.

Non-Profit Boards: Cleveland Orchestra/Advisory Council; Cleveland 
Music School Settlement/Chair--External Relations; Case Western Reserve 
University board of advisors; University of Akron--Macromolecular 
Science and Engineering board of advisors; Licensing Executives Society 
(LES) and Licensing Executives Society International (LESI) officer and 
board member; Clean Energy Alliance Advisory board; Accelerate Long 
Island--Founding Board Member; Colorado Springs Technology Incubator--
Advisory board; Rocky Mountain Innovation Partners--Founding Board 
member; Church, Educational and Civic organizations Board member.
                               LANGUAGES
German--fluent; Russian and Ukrainian--conversant; French and Italian--
basic.

 Summary of Walter G. Copan Skill Sets, Qualifications and Competencies
Active Listening          Honesty and High        Results Oriented
                           Integrity
Adaptability              Media & Public          Self-Motivated &
                           Relations               Confident
Budget Development &      Negotiations            Strategy & Leadership
 Management
Collaboration             Operations Management   Strong Work Ethic
Critical Thinking         Planning and            Team Player
                           Organization
Effective Communications  Positive ``Can-Do''     Visionary Leader
                           Attitude
Experienced Executive     Problem Solving
 Leadership
Financial Planning &      Professionalism
 Analysis
Foreign Relations         Project & Program
                           Management
 


    Chairman Thune. Thank you, Dr. Copan.
    Mr. Elliott.

            STATEMENT OF HOWARD R. ``SKIP'' ELLIOTT,

            NOMINEE FOR ADMINISTRATOR, PIPELINE AND

           HAZARDOUS MATERIALS SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Elliott. Chairman Thune, Ranking Member Nelson, and 
members of the Committee.
    I am grateful for the opportunity to appear before you 
today. I appreciated the opportunity to meet with many of the 
Committee members, and, if I am confirmed, I look forward to 
working with you to enhance safety in the transportation of 
hazardous materials and energy-related products.
    This morning, I am pleased to introduce my wife, 
Jacqueline, my daughter Jessica and her husband Brendan, who is 
an active duty Coast Guard officer. I am also pleased to have 
here today my youngest granddaughter, Elizabeth. My son Joshua, 
a teacher, and his family, who live in Pennsylvania, were not 
able to be with us today.
    I am humbled that President Trump and Secretary Chao have 
asked me to lead the team of dedicated professionals in the 
Department's Pipeline and Hazardous Materials Safety 
Administration, known as PHMSA.
    I see this task as delivering safety enhancements that 
protect the public and the environment, while allowing for the 
uninterrupted, multimodal transportation of energy products and 
other hazardous commodities that are necessary and essential to 
our daily lives.
    In addition to oil and chemicals for manufacturing, 
Americans depend on PHMSA for the safe transportation of a wide 
variety of everyday needs, including gasoline for their cars, 
natural gas to heat their homes, fertilizer for their gardens, 
cleaning solutions, and propane for their backyard barbeques.
    My forty-year career in the U.S. railroad industry, much of 
it leading critical safety programs, has prepared me for this 
challenge. From 2004 until my retirement from CSX 
Transportation in Jacksonville, Florida in March of this year, 
I served as Vice President of Public Safety, Health and 
Environment. In that role I led a highly skilled team that was 
responsible for hazardous material transportation safety, 
homeland security and railroad policing, environmental 
compliance and protection, crisis preparedness and response, 
and occupational health.
    I am a practitioner whose role and responsibilities 
required me to respond to many major hazardous material 
incidents during my career, and I have witnessed firsthand the 
severe impacts to the public and the environment these 
incidents can have.
    This experience has led me to the belief that inspections 
and worker training are paramount in preventing accidents. In 
the same vein, I have worked tirelessly during my career to 
ensure that America's emergency first responders are trained 
and prepared to handle such events safely.
    I am especially proud of the innovative technology we 
developed and provided to State emergency management and 
Homeland Security officials, starting more than 15 years ago. 
This technology has allowed these officials to track, in near 
real time, CSX trains traversing their state and to quickly 
identify the commodities, hazardous and non-hazardous, that 
these trains are transporting so they can better prepare to 
respond to a security event or a train emergency.
    I am interested in exploring how technology can be deployed 
in other ways to enhance safety on pipelines and other forms of 
transportation. If confirmed, I would seek to encourage 
research and development efforts that will create and apply new 
and cutting edge technology and automation to safety solutions.
    Second, I would promote innovations and improvement in 
communications and outreach with all PHMSA stakeholders, 
ensuring regular, face to face interaction at all levels of 
Government, industry, and the public.
    Third, but not least, is to reinforce the necessity for 
quality and the sense of urgency of PHMSA's safety inspection 
mandates and to enhance the value and support the Agency 
provides to its partners at the State level.
    As I close, I want to assure you of my absolute commitment 
to this role if confirmed. I began my railroad career as a 
railroad police officer working the midnight shift in Emhart, 
Indiana. Never did I imagine I would end that career 40 years 
later as a vice president of a major railroad company 
responsible for important public safety, security, and 
environmental programs. Nor could I have envisioned sitting 
here today in front of an important Senate committee as the 
President's nominee for PHMSA Administrator.
    I continue to believe in the value of hard work, 
perseverance when things get tough, never compromising my 
ethical values, and in being a compassionate and a strong 
leader. I realize too how thankful I am to have a loving and 
understanding family, and many wonderful friends and 
colleagues, some here today, who have helped and guided me 
along the way.
    If confirmed, I will do my very best to earn the confidence 
placed in me by the President, by the Secretary, and by the 
members of this Committee.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Elliott follow:]

     Prepared Statement of Howard R. ``Skip'' Elliott, Nominee for 
Administrator, Pipeline and Hazardous Materials Safety Administration, 
                   U.S. Department of Transportation
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    I am grateful for the opportunity to appear before you today. I 
appreciated the opportunity to meet with many of the Committee members, 
and, if I am confirmed, I look forward to working with you to enhance 
safety in the transportation of hazardous materials and energy related 
products.
    This morning I am pleased to introduce my wife, Jacqueline, my 
daughter Jessica and her husband Brendan, who is an active duty officer 
in the U.S. Coast Guard. I am also pleased to have here today my 
youngest granddaughter Elizabeth. My son Joshua and his family, who 
live in Pennsylvania, were not able to be with us today.
    I am humbled that President Trump and Secretary Chao have asked me 
to lead the team of dedicated professionals in the Department's 
Pipeline and Hazardous Materials Safety Administration, known as PHMSA. 
I see this task as delivering safety enhancements that protect the 
public and the environment, while allowing for the uninterrupted, 
multi-modal transportation of energy products and other hazardous 
commodities that are necessary and essential to our daily lives. In 
addition to oil and chemicals for manufacturing, Americans depend on 
PHMSA for the safe transportation of a wide variety of everyday needs, 
including gasoline for their cars, natural gas to heat their homes, 
fertilizer for their gardens, cleaning solutions, and propane for their 
backyard barbeques.
    My forty-year career in the U.S. railroad industry, much of it 
leading critical safety programs, has prepared me for this challenge. 
From 2004 until my retirement from CSX Transportation in Jacksonville, 
Florida, in March of this year, I served as Vice President of Public 
Safety, Health and Environment. In that role I led a highly-skilled 
team that was responsible for hazardous materials transportation 
safety, homeland security and railroad policing, environmental 
compliance and protection, crisis preparedness and response, and 
occupational health. I am a practitioner whose role and 
responsibilities required me to respond to many major hazardous 
materials incidents during my career. I have witnessed first-hand the 
severe impacts to the public and the environment these incidents can 
have.
    This experience has led me to the belief that inspections and 
worker training are paramount in preventing accidents. In the same 
vein, I have worked tirelessly during my career to ensure that 
America's emergency first responders are trained and prepared to handle 
such events safely. I am especially proud of the innovative technology 
we developed and provided to state emergency management and homeland 
security officials, starting more than 15 years ago. This technology 
has allowed these officials to track in near real-time CSX trains 
traversing their state and to quickly identify the commodities, 
hazardous and non-hazardous, the trains are transporting so they could 
be better prepared to respond to a security event or train emergency.
    I am interested in exploring how technology can be deployed in 
other ways to enhance safety on pipelines and other forms of 
transportation. If confirmed, I would seek to encourage research and 
development efforts that will create and apply new and cutting-edge 
technology and automation to safety solutions.
    Second, I would promote improvements in communications and outreach 
with all PHMSA stakeholders, ensuring regular, face-to-face interaction 
at all levels of government, industry, and the public.
    Third, but not least, is to reinforce the necessity for quality and 
the sense of urgency of PHMSA's safety inspection mandates and to 
enhance the value and support the Agency provides to its partners at 
the state level.
    As I close, I want to assure you of my absolute commitment to this 
role if confirmed. I began my railroad career as a railroad police 
officer working the midnight shift in Elkhart, Indiana. Never did I 
imagine I would end that career 40 years later as a Vice President of a 
major railroad company responsible for important public safety, 
security and environmental programs. Nor could I have envisioned 
sitting here today in front of an important Senate Committee as the 
President's nominee for PHMSA Administrator. I continue to believe in 
the value of hard work, perseverance when things get tough, never 
compromising my ethical values, and in being a compassionate and strong 
leader. I realize too how thankful I am to have a loving and 
understanding family and many wonderful friends and colleagues--some of 
whom are here today--who have helped and encouraged me along the way.
    If confirmed, I will do my best to earn the confidence placed in me 
by the President, the Secretary, and by this Committee. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Howard R. 
``Skip'' Elliott.
    2. Position to which nominated: Administrator, Pipeline and 
Hazardous Materials Safety Administration (PHMSA).
    3. Date of Nomination: September 11, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Information not provided.

    5. Date and Place of Birth: 11/14/1954; Elkhart, IN.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Jacqueline L. Elliott, retired. Children: Joshua B. 
        Elliott, 38; Jessica E. Hughes, 34.

    7. List all college and graduate degrees. Provide year and school 
attended.

        MS, Columbia Southern University, 2011
        BA, Indiana University, 1977

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2004 to 2017--VP-Public Safety, Health and Environment, CSX, 
        Jacksonville, FL
        2003 to 2004--AVP-Public Safety and Environment, CSX, 
        Jacksonville, FL

        2002 to 2003--General Mgr.--Environmental and HazMat Systems, 
        CSX, Jacksonville, FL

        2002 to 2002--Assistant GM--Hazardous Material Systems, CSX, 
        Jacksonville, FL

        1998 to 2002--Director--Hazardous Materials, CSX, Jacksonville, 
        FL

        1997 to 1998--Director--Hazardous Material Systems, Conrail, 
        Philadelphia, PA

        1995 to 1997--Director--Field Services, Hazardous Materials, 
        Conrail, Philadelphia, PA
        1994 to 1995--Senior Environmental Area Manager, Conrail, Mt. 
        Laurel, NJ

        1992 to 1994--Environmental Area Manager, Conrail, Mt. Laurel, 
        NJ

        1992 to 1998--Emergency Management Coordinator, City of 
        Woodbury, NJ (part time)

        1988 to 1992--Supervisor--Hazardous Materials, Conrail, 
        Philadelphia, PA

        1985 to 1988--Safety Superintendent--Eastern Region, Conrail, 
        Philadelphia, PA

        1984 to 1985--Division Safety Supervisor, Conrail, Chicago, IL

        1977 1984--Police Officer, Conrail, Elkhart, IN

    9. Attach a copy of your resume. Copy attached as requested.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

        12/2006 to 01/2014: Special Deputy U.S. Marshal

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        03/2014-10/2016: Director, Indiana Chapter, Delta Upsilon 
        Fraternity Alumni Association
        11/2007-Present: Trustee of Howard R. Elliott Revocable Trust, 
        and Trustee of Jacqueline L. Elliott Revocable Trust

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> Executive Dean's Advisory Council, College of Arts and 
        Sciences, Indiana University, 2010 to present (educational-
        member).

  <bullet> Joint FBI-DHS Domestic Security Alliance Council, 2013 to 
        2017 (professional-member).

  <bullet> American Society of Industrial Security, 2010 (est.) to 
        present (professional-member).

  <bullet> Association of American Railroads, Risk Management 
        Committee, 2007 to 2017 (professional-member).

  <bullet> Association of American Railroads, Security Committee, 2002 
        to 2015 (professional-member)

  <bullet> Delta Epsilon Tau Honor Society, 2016 to present 
        (educational-member)

  <bullet> Omicron Sigma-Sigma, 2016 to present (professional-member)

  <bullet> Delta Upsilon Fraternity, 1973 to present (social-member).

  <bullet> Cabana Club, Ponte Vedra Beach, FL, 1999 to present (private 
        club-member).

  <bullet> TPC Sawgrass, Ponte Vedra Beach, FL, 2016 to present 
        (private club-social member).

    None of the above organizations restrict membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        1992 to1998: Emergency Management Coordinator, City of 
        Woodbury, NJ (part time). Appointed position. No campaign or 
        debt incurred.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        2017: CSX Good Government Fund--$1,250.00

        2016: CSX Good Government Fund--$10,000.00*

        06/2016: Angela Corey for State's Attorney--$1,000.00

        02/2016: Representative Jeff Denham--$500.00

        2015: CSX Good Government Fund--$10,000.00

        09/2015: Angela Corey for States Attorney--$500.00

        06/2015: Shuster for Congress--$500.00

        04/2015: Randy Royal for Sheriff--$500.00

        2014: CSX Good Government Fund--$10,000.00

        09/2014: Ken Jefferson for Sheriff--$500.00

        2013: CSX Good Government Fund--$10,000.00

        2012: CSX Good Government Fund--$5,000.00

        10/2012: Peter King for Congress--$1,000.00

        2011: CSX good Government Fund--$10,000.00

        09/2011: Bill Nelson for U.S. Senate--$500.00

        2010: CSX Good Government Fund--$10,000.00

        2009: CSX Good Government Fund--$2,875.76

        2008: CSX Good Government Fund--$5,000.00

    *CSX Good Government Fund contributions were via monthly payroll 
deduction and a one-time $5,000.00 contribution from spouse for years 
2010 through 2016.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> Indiana University, Department of Criminal Justice, 
        Distinguished Alumni Award, 2009

  <bullet> Association of American Railroads, Lifetime Achievement 
        Award in Hazardous Material Transportation, Safety, 2001

  <bullet> President's Circle, Indiana University, 2016

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

  <bullet> An Unlikely Training Partner: CSX Railroad. Tactical 
        Response, 01/2010.

  <bullet> Getting Tough on Environmental Crimes--Railway Age Magazine, 
        05/2009.

17.  Please identify each instance in which you have testified orally 
            or in writing before Congress in a governmental or non-
            governmental capacity and specify the date and subject 
            matter of each testimony.

        U.S. House of Representatives Committee on Homeland Security, 
        May 31, 2012, rail security.
        U.S. Senate Committee on Commerce, Science, and Transportation 
        April, 2010, rail security.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I spent the majority of my 40 year professional career striving to 
improve the safe transportation of hazardous materials. I am a 
practitioner who has responded to many major hazardous incidents and 
has seen first-hand the severe impacts to the public and the 
environment. I have worked tirelessly to ensure that America's 
emergency responders are prepared to handle such incidents safely 
because, ultimately, they are the ones we depend upon to protect us 
when a hazardous material incidents occurs. I understand the hazardous 
materials transportation and energy supply chain and the efforts being 
made by manufacturers, shippers and transporters to improve their 
safety records. And, while I have witnessed significant improvements in 
hazardous materials transportation safety across all transportation 
modes during my career, there is more that can be done to improve 
safety further while, at the same time, ensuring the viability of 
America's reliance on these commodities. During my career, I have 
worked closely with many of the Federal agencies responsible for 
hazardous materials transportation safety, policy and regulation and I 
am now deeply honored to have the opportunity to apply my knowledge, 
experience and unwavering commitment to safety as the PHMSA 
Administrator.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Proven leadership, unwavering integrity, demonstrated 
accountability and strong financial acumen are critical attributes 
required of a successful PHMSA Administrator. It is the PHMSA 
Administrator's responsibility to utilize these skills to lead the 
Agency and ensure that along with its employees, deliver a strong and 
sustainable strategic initiative that provides tangible year-over-year 
improvements in hazardous materials transportation safety across all 
modes of transportation. A strong PHMSA Administrator must have proven 
hands-on experience in hazardous materials transportation safety, 
regulation and policy; coupled to deep and abiding personal commitment 
to the safety of the employees involved in the transportation of these 
products, the communities through which they travel, and our nationwide 
network of dedicated emergency responders who are there to protect us 
when an accident occurs.
    My 40 year professional business career has allowed me to develop 
and demonstrate the skills and attributes necessary to lead a vital and 
critical safety agency such as PHMSA. I was a successful senior 
executive at a major freight railroad responsible for a multi-faceted 
organization of over 300 employees and with corporate-wide program 
responsibilities affecting the company's estimated 18,000 employees. My 
role was responsible for a diverse range of departments ranging from 
hazardous materials transportation safety, crisis management and 
response, the environment, homeland security, railroad police, medical, 
industrial hygiene, and employee assistance programs.
    I have found that it is, in fact, possible to work for a major 
public corporation with its dependency on profits and meeting 
shareholder expectations, and still be a strong and vocal advocate for 
the environment, employee and community safety, and emergency responder 
readiness, although it sometimes generated criticism from other company 
leaders. I am proud of my conviction and dedication to public safety 
and the environment and my record of accomplishments in these areas.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  1.  Improving the effectiveness and efficiency of PHMSA's safety 
        mission: Each day over one million shipments of hazardous 
        materials traverse the United States by all modes of 
        transportation, and millions of gallons of energy related 
        products move through a network of pipelines extending more 
        than 2.5 million miles. Ultimately, prevention is key and PHMSA 
        must quickly and without hesitation improve its responsiveness 
        in resolving critical hazardous materials transportation safety 
        issues, and in establishing a solid reputation for demanding 
        that all entities that manufacture, ship and transport 
        hazardous materials and energy products are fully accountable 
        to their responsibilities prevent to mitigate the most serious 
        deficiencies before they can escalate into major incidents 
        impacting the public and the environment. Should, however, a 
        serious incident occur, those same stakeholders must also be 
        prepared to meet their obligation to respond quickly, minimize 
        the impact to the public and the environment, and to remain 
        until all impacts are resolved.

  2.  Enhancing communications and transparency with all PHMSA 
        stakeholders: To effectively and successfully carry-out the 
        PHMSA mission, the Agency must improve its communications and 
        outreach with all stakeholders and concerned entities at all 
        levels of government, industry and the public. Furthermore, 
        PHMSA must clearly articulate its intentions and priorities 
        with regards to implementing standards and regulations, 
        applying consistent but fair enforcement measures, and setting 
        expectations for tangible and ongoing safety improvements in 
        the transportation of hazardous materials across all 
        transportation modes. To obtain the best possible pathway to 
        enhanced hazardous materials transportation safety in the 
        United States, PHMSA must actively and regularly engage and 
        listen closely to all stakeholders, respecting all points of 
        view, and then act in a prudent, fact-based manner to establish 
        clear expectations that will achieve a higher level of safety.

  3.  Building a sustainable record of tangible year-over-year safety 
        improvement: While the United States has seen significant 
        safety improvements in the transportation of hazardous 
        materials, PHMSA must continue to work with manufacturers, 
        shippers and transporters of hazardous commodities to ensure it 
        achieves a reliable and sustainable record of year-over-year 
        safety improvements. PHMSA must also work closely with other 
        transportation agencies at the state and Federal level to 
        ensure consistency and clarity of regulatory requirement and 
        enforcement practices. Accomplishing this goal also means 
        ensuring that PHMSA improves its safety inspection mandate 
        working closely with state partners to apply inspection 
        procedures that focus-in on the most critical safety deficient 
        areas.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I retired from CSX Transportation on March 17, 2017. At the time of 
my retirement, I held CSX Transportation common stock, vested 
restricted stock, vested and unvested restricted stock units, unvested 
performance stock units, and unvested stock options. I do not hold 
unvested restricted stock, or vested stock options. Pursuant to the 
company's compensation plan, I was able to retain these financial 
interests when I retired. Prior to assuming the duties of the position 
of Administrator, CSX Transportation accelerated the vesting of my 
unvested performance stock units and unvested restricted stock units, 
and in lieu of issuing me common stock, I received a lump sum cash 
payment.
    CSX Transportation also accelerated the vesting of my unvested 
stock options. I will divest the stock options by exercising them, and 
I will divest the resulting stock within 90 days of my confirmation. I 
will also receive CSX restricted stock as part of an executive 
employment retention agreement that began on November 15, 2014 and 
ended on March 17, 2017. These shares (  ) are governed by IRS 
Regulation 409A and therefore subject to a six-month delay in 
distribution. These shares (  ) will be distributed on September 17, 
2017, and I will divest that stock within 90 days of my confirmation. 
Furthermore, my vested restricted stock units are also subject to IRS 
Regulation 409A. These units will become exercisable on September 17, 
2017 or upon CSX's notification of confirmation, whichever occurs 
first, and I will divest that stock within 90 days of my confirmation.
    I also have a deferred compensation plan and defined benefit plan 
with CSX Transportation. Additionally, as a retired executive of the 
company, I am entitled to receive health coverage for both me and my 
spouse for the rest of our lives, but I pay the plan premiums, 
consistent with the company's practice for retired executives. If 
confirmed, I will retain those benefits.
    At that time of my retirement from CSX Transportation, I held a 
401k plan with CSX. In April 2017, I rolled that over to my individual 
retirement accounts (IRAs). If confirmed, I will retain my IRAs.
    I will retain my position as trustee of my revocable living trust. 
I will not receive any fees for the services that I provide as a 
trustee during my appointment to the position of Administrator.
    I anticipate receiving Federal U.S. Railroad pension payments 
commencing in 2020. If confirmed, I will retain this Federal benefit.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    During my employment with CSX Transportation I directly or 
indirectly provided opinion to legal and legislative areas of the 
company on proposed rail safety and security legislation. I have 
personally testified at the local, state and Federal level in support 
of or opposition against certain proposed safety and security 
regulations involving rail transportation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Yes. My former employer, CSX Transportation, as a major freight 
railroad, was involved in instances of civil litigation. Examples are 
employees claiming disability due to a work-related illness or injury 
or wrongful termination, or members of the public involved in a 
highway-railroad grade crossing collision. However, I was never 
individually named as a defendant in any action.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  Resume of Howard R. ``Skip'' Elliott
Summary
    Senior executive with a successful and proven track record spanning 
40 years in the areas of public safety, hazardous materials 
transportation safety, security, occupational health and the 
environment. A highly respected senior leader at a Fortune 250 freight 
rail transportation company with a reputation for developing best-in-
class organizations and implementing innovative and sustainable 
solutions. Proven experience in the boardroom, on Capitol Hill, state 
houses and city halls. Effective in building and leading diverse, 
multi-functional, high-performing teams, and in developing key talent.

 
         Areas of Expertise                    Business Acumen
 
<bullet> Hazardous materials         <bullet> Strategic planning
 transportations safety
<bullet> Crisis management and       <bullet> Innovative solution design
 emergency planning
<bullet> Environmental policy and    <bullet> Developing and leading
 regulation                           high-performing teams
<bullet> Risk management             <bullet> Applying financial rigor
                                      and accountability
<bullet> Police and security         <bullet> Business Continuity
 management
<bullet> Occupational health         <bullet> Proven track record of
 management                           success
 

Professional Experience
CSX Transportation, Jacksonville, FL
Vice President, Public Safety, Health and Environment, 2004 to 2017
Recently retired Vice President of Public Safety, Health and 
Environment for CSX Transportation (CSX), one of North America's 
largest freight railroads with operations in 23-states and two Canadian 
provinces. Responsible for managing a number of critical departments 
including police, infrastructure protection, hazardous materials 
transportation safety, environmental, medical, industrial hygiene and 
employee assistance. Oversaw corporate crisis management, emergency 
planning and continuity of operations.
Education
Columbia Southern University, MS in Criminal Justice Administration
Indiana University, BA, double major in English and Forensic Studies
Business and Professional Affiliations
FBI-DHS Domestic Security Alliance Council (DSAC)
American Society of Industrial Security (ASIS)
National Defense Transportation Association (NDTA)
Association of American Railroads (AAR) Risk Management Working 
Committee
Association of American Railroads Security Committee
Executive Dean's Advisory Council, Indiana University, College of Arts 
and Sciences
Delta Epsilon Tau Honor Society
Omicron Sigma Sigma Academic and Professional Honor Society
Awards and Recognitions
AAR Lifetime Achievement Award in Hazardous Materials Transportation 
Safety
Distinguished Alumni Award, Indiana University, Department of Criminal 
Justice
President's Circle, Indiana University

    The Chairman. Thank you, Mr. Elliott.
    Dr. Gallaudet.

   STATEMENT OF RDML TIM GALLAUDET, U.S. NAVY, NOMINEE TO BE 
   ASSISTANT SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE/
    DEPUTY ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
                     ADMINISTRATION (NOAA)

    Admiral Gallaudet. Thank you.
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee.
    I would also like to thank Senator Wicker for your gracious 
introduction. I would also like to thank the President and 
Secretary Ross for their trust and confidence in me for this 
nomination as Assistant Secretary of Commerce for Oceans and 
Atmosphere, also serving as the Deputy Administrator of the 
National Oceanic and Atmospheric Administration, or NOAA.
    If I have the honor of being confirmed by this Committee, I 
look forward to working with all of you on the very important 
work that NOAA does for our Nation and including such aspects 
as weather forecasting, storm warning, fisheries and coastal 
zone management, ocean exploration, and climate monitoring.
    I have spent the past 32 years in the U.S. Navy studying 
and applying the knowledge of earth sciences. My experience in 
the Navy has touched everything that NOAA does for the Nation, 
specifically the practical aspects of meteorology, 
oceanography, hydrography, and even developing policies to 
counter illegal fishing.
    During my last tour as Oceanographer of the Navy, I served 
as the Navy Deputy to the NOAA Administrator. And in this 
position, I directed the extensive partnership activities 
between the Navy and NOAA. And it was this experience which 
exposed me to the many significant contributions that NOAA 
makes for national security.
    These include severe weather warnings for Navy bases that 
NOAA's National Weather Service issues that protects life and 
property of our sailors. These also include ocean observing 
activities that helps reinforce our Navy's undersea war 
fighting capability and allows them to maintain a competitive 
advantage against our adversaries.
    I also saw firsthand how NOAA contributes to our Nation's 
economic, homeland, and natural resource security. Every day, 
NOAA's information impacts hundreds of billions of dollars of 
activity and infrastructure, and tens to hundreds of millions 
of lives. This occurs in all sectors of our Nation, which 
include manufacturing, defense, transportation, agriculture, 
energy, and trade. Thus, NOAA is critical to the effective 
functioning of Government at all levels from local, State, to 
Federal.
    And I do not need hurricanes Irma, Harvey, Jose, or Maria 
to reinforce this understanding to me. My family lost our 
entire home in Hurricane Katrina. And as you mentioned, Senator 
Wicker, it was the timely and accurate forecast provided by 
NOAA's National Weather Service which allowed my family to 
escape from harm. And even though it did not prevent us from 
losing our house, it very well kept us alive.
    Of the many exciting opportunities that NOAA has today, I 
see three that interest me most.
    First, it is implementation of the Weather Research and 
Forecasting Innovation Act of 2017. This will enable NOAA's 
combined atmospheric sensing and modeling capabilities to be 
the best in the world, and therefore continue to protect lives 
and property, and enhance the national economy.
    Second, advancing fisheries management under the Magnuson-
Stevens Act, or any potential reauthorization of it. This, 
along with promoting aquaculture within the U.S. will help us 
eliminate our over $13 billion seafood trade deficit.
    And third, focusing NOAA's ocean observation, mapping, 
exploration, and prediction activities will not only help us 
expand our Nation's blue economy, but also ensure U.S. 
competitive advantage in maritime trade, transportation, 
energy, business development, and defense.
    So last, I would like to talk about the most important part 
of NOAA, and that is their people. This extraordinary team of 
12,000 professionals serves all across the country and world, 
and includes 6,000 scientists and engineers that are the world 
leaders in what they do, including some Nobel Prize winners.
    They also have a first-rate uniformed officer corps that do 
such amazing activities as fly hurricane hunter aircraft, 
operate a fleet of oceanographic vessels, conduct scuba and 
deep sea dives with remotely operated vehicles.
    If confirmed, I would be absolutely honored and thrilled to 
help lead this terrific team, champion their cause, and ensure 
they have what they do to do their work more effectively.
    So, I would like to end by thanking the Chief of Naval 
Operations, Admiral John Richardson, and then Acting Secretary 
of the Navy, Sean Stackley, for supporting me in my decision to 
retire so that I could go on to this and potentially serve in 
this opportunity of further public service.
    I would also like to thank my wife Caren, and my three 
daughters, two of whom are here today, and my mother-in-law, 
Jan, for supporting me in all I have done in the past and 
hopefully doing more of this in the future.
    Thank you again, Committee members, for this great 
opportunity and I look forward to taking your questions.
    [The prepared statement and biographical information of 
Admiral Gallaudet follow:]

  Prepared Statement of RDML Tim Gallaudet, U.S. Navy, Nominee to be 
   Assistant Secretary of Commerce for Oceans and Atmosphere/Deputy 
 Administrator, National Oceanic and Atmospheric Administration (NOAA)
    Thank you Chairman Thune, Ranking Member Nelson, and Members of the 
Committee. I'd also like to thank Senator Wicker for his gracious 
introduction.
    I would like to thank the President and Secretary Ross for their 
trust and confidence in me with this nomination to be the Assistant 
Secretary of Commerce for Oceans and Atmosphere which also serves as 
the Deputy Administrator of the National Oceanic and Atmospheric 
Administration (NOAA). If I have the honor of being confirmed by this 
Committee, I look forward to working with all of you on the important 
work performed by NOAA in such areas as weather forecasting, storm 
warning, fisheries and coastal zone management, ocean exploration, and 
climate monitoring.
    I have spent the past 32 years in the Navy studying and applying 
the knowledge of earth sciences. My experience in the Navy has touched 
everything that NOAA does for the nation, from the practical aspects of 
meteorology, oceanography, and hydrography, to developing policies on 
illegal fishing.
    During my last tour in the Navy as Oceanographer of the Navy, I 
also served as the Navy Deputy to the NOAA Administrator. In this 
position, I directed the extensive partnership activities between the 
Navy and NOAA. It was this experience which exposed me to the many 
significant contributions that NOAA makes to our national security, 
these included severe weather warnings at Navy bases that allowed the 
Navy to plan and minimize damage and prevent loss of life. Also, the 
Navy partnered with NOAA to share ocean observations and models that 
are critical to ensuring our undersea forces maintain their war 
fighting superiority over our adversaries.
    I also saw first-hand how NOAA contributes to our Nation's 
economic, homeland, and natural resource security. Every day, NOAA's 
information impacts hundreds of billions of dollars of activity and 
infrastructure, and tens to hundreds of millions of lives in American 
states and territories. These impacts occur in nearly every possible 
sector: homeland defense, energy, transportation, agriculture, and 
manufacturing. Thus, NOAA is critical to the effective functioning of 
government: at the local, state and Federal levels. And I did not need 
Hurricanes Harvey, Irma, Jose, or Maria to reinforce this 
understanding. My family lost our entire home to storm surge during 
Hurricane Katrina. The timely and accurate storm predictions from 
NOAA's National Weather Service allowed us to evacuate early, and 
although that did not prevent us from losing our home, it very well 
kept us alive.
    Of the many exciting opportunities that face NOAA today, three 
interest me most. First, implementing the Weather Research and 
Forecasting Innovation Act of 2017. This will enable NOAA's combined 
atmospheric sensing and modeling capabilities to be the best in the 
world, and continue to protect lives and property while enhancing the 
national economy. Second, advancing fisheries management under the 
Magnuson-Stevens Act and any potential reauthorization. This, along 
with supporting the growth of aquaculture in the U.S. will help to 
eliminate our $13 billion seafood trade deficit. Third, focusing NOAA's 
ocean observations, mapping, and exploration activities will not only 
expand the Nation's blue economy, but also ensure U.S. competitive 
advantage in maritime trade, transportation, energy, business 
development, and defense.
    Lastly, I'd like to talk about the most important part of NOAA--
their people. This extraordinary team of 12,000 professionals serve all 
across the country and the world. It includes over 6,000 scientists and 
engineers that are world leaders in their fields, even a few Nobel 
Prize winners. They also have a first rate uniformed officer corps that 
fly Hurricane Hunter aircraft, operate a Fleet of oceanographic 
vessels, and conduct scuba and deep sea dives along with remotely 
operated and unmanned vehicles. If confirmed, I would be absolutely 
honored to help lead this amazing Team, champion their cause, and 
ensure they have what they need to do their work more effectively.
    I want to thank the Chief of Naval Operations, Admiral John 
Richardson and then Acting Secretary of the Navy Sean Stackley for 
supporting my request to retire from the Navy, allowing me to serve in 
this position if confirmed.
    I also want to thank my wife Caren and 3 daughters, who have 
supported me in choosing to continue in public service.
    Thank you again Committee Members, for the opportunity to be here. 
I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Timothy Cole 
Gallaudet (Tim).
    2. Position to which nominated: Assistant Secretary of Commerce for 
Oceans and Atmosphere/Deputy Administrator, National Oceanic and 
Atmospheric Administration.
    3. Date of Nomination: 28 August 2017 (estimated).
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Information not provided.

    5. Date and Place of Birth: March 18, 1967; Los Angeles CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
        Spouse: Caren Marie Ritter Gallaudet, Self-employed Pet Sitter, 
        North Beach MD.
    7. List all college and graduate degrees. Provide year and school 
attended.

  <bullet> BS in Oceanography: U.S. Naval Academy, 1989

  <bullet> MS in Oceanography: UC San Diego, Scripps Institution of 
        Oceanography, 1991

  <bullet> PhD in Oceanography: UC San Diego, Scripps Institution of 
        Oceanography, 2001

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

2015-2017: Chief of Naval Operations Staff, Washington, D.C.

  <bullet> Oceanographer of the Navy: Oversee an annual $350M budget to 
        program and direct all policy for U.S. Navy oceanography, 
        meteorology, oceanography, astrometry, and precise timing 
        capability which is used by all Navy ships, aircraft, 
        submarines and SEAL Teams to safety and successfully operate.

  <bullet> Navigator of the Navy: Oversee a 5 year budget of $1.68 for 
        directing all policy, research, development,. and integration 
        of navigation equipment on all Navy ships, submarines, and 
        aircraft.

  <bullet> Naval Deputy to the NOAA Administrator: Coordinate 
        cooperative efforts between the Navy and NOAA on sea floor 
        charging, and weather modeling, ocean and weather observations, 
        technology development and research, and personnel exchanges.

  <bullet> Director, U.S. Navy Task Force Climate Change: Direct all 
        Navy policy and plans regarding climate change impacts to 
        facilities, and strategic plans, and capability development, 
        with a focus on the Arctic. Authored the U.S. Navy Arctic 
        Roadmap of 2010, and reviewed and approved the U.S. Navy Arctic 
        Roadmap for 2014-2030.

  <bullet> Director of the Office of the DoD Executive Agent for 
        Maritime Domain Awareness (MDA): Directed all DoD strategic 
        planning, partnerships, and system development MDA. Signed the 
        DoD MDA Strategic Plan, Architecture, and Vessel of Interest 
        Lexicon.

  <bullet> DoD Precise Time and Time Interval Manager and DoD Celestial 
        Reference Frame and Earth Orientation Manager: Oversee a $20M 
        annual budget that allows the U.S. Naval Observatory to provide 
        the absolute fundamental spatial and temporal references needed 
        for U.S. DoD network and space operations, targeting, and 
        command, control, communications, computers, intelligence, 
        surveillance and reconnaissance.

2014-2017: Naval Meteorology and Oceanography Command, Stennis Spaoe 
Center, MS

  <bullet> Commander, Naval Meteorology and Oceanography Command/
        Commander, Task Group 80.7: Direct the operations of 14 
        subordinate commands comprised of over 2,500 military and 
        civilian personnel who provide weather, ocean, seafloor, 
        precise time, and astrometry information to all Navy operating 
        units afloat, aloft, and ashore. These commands continuously 
        deploy all over the globe on Navy ships, submarines, aircraft, 
        and with SEAL Teams, and include reachback centers that 
        assimilate environmental information from satellites, 
        underwater floats and drones, and other sensors worldwide into 
        cyber secure supercomputers that predict the best routes, 
        timelines, weapons setting, sensor configurations, and 
        equipment loads for Navy units to operate safely and 
        effectively.

  <bullet> Hydrographer of the Navy: Develop and direct all U.S. Navy 
        hydrographic survey plans, partnerships, and operations using a 
        Fleet of six $250M Oceanographic survey vessels as well as a 
        rapidly deplorable Team that uses jet skis equipped with 
        echosounders, sunderwater drones, and small boats to identify 
        safe routes and harbor berths after natural disasters. The 
        hydrographic partnerships and engagements that I direct include 
        over 60 nations and are highly praised by Geographic Combatant 
        Commanders for contributing to their Theater Security 
        Cooperation (TSC) objectives.
2013-2014: Chief of Naval Operations Staff, Washington, D.C.

  <bullet> Deputy Oceanographer of the Navy: Deputy to the senior 
        Oceanography officer in the Navy, directing the daily actions 
        of a staff of 90 personnel that oversee $350M of annual 
        resources for the Navy's operational oceanography, meteorology, 
        hydrography, precise time, and astrometry capabilities. Duties 
        also included oversight of the Navigation capabilities, Navy 
        climate change policy and plans. DoD's Maritime Domain 
        Awareness Program, the Navy Space Program, and a variety of 
        classified space rested intelligence programs.

2011-2013: U.S. Naval Observatory, Washington, D.C.

  <bullet> Superintendent/Commanding Officer: Commanded a team of over 
        100 atomic physicists, astrophysicists, astronomers, 
        mathematicians and engineers who develop, maintain, and 
        modernize the DoD's precision time keeping and astrometric 
        observing capabilities. The Master Clock atomic clock ensemble 
        and telescope data processing computers at the U.S. Naval 
        Observatory are designated national critical infrastructure 
        because all U.S. satellites, ballistic missiles, and national 
        defense and economic computer networks would fail to operate 
        without the information they provide.

2008-2011: Chief of Naval Operations Staff, Washington, D.C.

  <bullet> Deputy Navigator of the Navy: Assisted with management of a 
        5 year budget of $1.68 for directing all policy, research, 
        development, and integration of navigation equipment on all 
        Navy ships, submarines, and aircraft.

  <bullet> Deputy Director. U.S. Navy Task Force Climate Change: 
        Established a Task Force of over 120 individuals representing 
        all Navy operating forces, headquarters, system commands, all 
        Federal agencies, and numerous universities and labs. Directed 
        all Navy policy and plans regarding climate change impacts to 
        facilities, and strategic plans, and capability development, 
        with a focus on the Arctic. Authored the U.S. Navy Arctic 
        Roadmap of 2010.

2005-2008: Naval Oceanography Special Warfare Center, Coronado, CA

  <bullet> Commanding Officer. Commanded 120 personnel who deployed 
        with U.S. Navy SEAL Teams in Iraq, Afghanistan, Africa, and 
        Southeast Asia to forecast weather, sea state, ocean and river 
        currents, and operate unmanned aerial and underwater vehicles 
        and other technical sensors to detect and locate enemy forces.

  <bullet> Technical Special Reconnaissance Officer, Commander, Naval 
        Special Warfare Command: Established the first Navy SEAL 
        program for unmanned aerial and underwater vehicles and other 
        technical sensors to detect and locate enemy forces.

2004-2005: Naval Oceanographic Office, Stennis Space Center, MS

  <bullet> Anti-Submarine Warfare (ASW) Program Manager: Coordinated 
        the undersea data collection of 8 Oceanographic Survey Ships 
        deployed worldwide, the processing of this data into 
        geophysical databases used by Navy ships, aircraft, and 
        submarines to operate their sonars/sonobuoys effectively, and 
        direct teams of deploying Military and civilian personnel to 
        advise these units during ASW exercises and operations. 
        Deployed on the USNS Bowditch during the first operational 
        deployment of an ocean glider underwater drone from a Navy 
        ship.

2003-2004: Commander, Naval Meteorology and Oceanography Command, 
Stennis Space Center, MS

  <bullet> Plans and Programs Officer. Oversaw the budget and plans for 
        a highly classified unmanned underwater program executed at a 
        subordinate command (Naval Oceanographic Office).

2001-2003: USS KITTY HAWK (CV-63), Yokosuka, Japan

  <bullet> Meteorology and Oceanography Division Officer: Led 18 
        personnel to forecast wind, weather, sea state, and ocean 
        currents for the KITTY HAWK Carrier Strike Group (CSG) composed 
        of an air wing of 60 aircraft, and 5 escort ships which 
        conducted the first strikes into Afghanistan during Operation 
        Enduring Freedom in October 2001. Also conducted first strikes 
        into Iraq during Operation Iraqi Freedom in March 2003.

  <bullet> Officer of the Deck: Directed all aircraft carrier movements 
        and all aircraft launches and recoveries for two 4-hour periods 
        each day.

  <bullet> INSURV Coordinator. Developed and executed a 6 month plan 
        for the 3,000 person crew to prepare the ship for its 
        inspection by the Board of Inspection and Survey (INSURV). This 
        involved tens of thousands of maintenance actions precisely 
        coordinated across a dozen departments.

1997-2001: UC San Diego, Scripps Institution of Oceanography, La Jolla, 
CA

  <bullet> PhD Student: Completed course work on underwater acoustics, 
        digital signal processing, and computer programming. Performed 
        research at Scripps' Marine Physical Laboratory (MPL). 
        Participated on a research cruise on the RN New Horizon.

1995-1997: USS PELELIU (LHA-5), San Diego, CA

  <bullet> Meteorology and Oceanography Division Officer: Led 15 
        personnel to forecast wind, weather, sea state, and ocean 
        currents for the PELELIU Amphibious Ready Group (ARG) composed 
        of a Marine Aviation Combat Element of 25 aircraft, 2 escort 
        ships, and a Marine Expeditionary Unit. Conducted Operation 
        Southern Watch in the Northern Arabian Gulf,

  <bullet> Officer of the Deck: Directed all ship movements and all 
        aircraft launches and recoveries for two 4-hour periods each 
        day.

1993-1995: Naval European Meteorology and Oceanography Center, Rota, 
Spain

  <bullet> Command & Forecast Duty Officer: Lead weather and ocean 
        forecaster of a watch team supporting Navy, Joint, and Allied 
        Maritime forces operating in Europe and the Mediterranean. 
        Supported NATO operations in Bosnia, and participated in 
        Operation Deny Flight.

1994: Commander, U.S. 6th FLEET, USS LASALLE (LCC-20) Gaeta, Italy

  <bullet> Assistant Fleet Oceanographer: Assistant to the senior 
        oceanographer on the staff of the Commander of the U.S. 6th 
        Fleet. Led a division of 10 personnel who prepared the weather 
        and ocean forecasts for the Fleet Commander daily. Coordinated 
        with staff planners and operations officers to ensure all 6th 
        Fleet operations were conducted safely and effectively. Routed 
        dozens of ships around hazardous seas.

1993: Naval European Meteorology and Oceanography Detachment, Sousa 
Bay, Greece

  <bullet> Officer in Charge: Led 14 personnel who provided weather and 
        ocean forecasts for Navy, Joint, and NATO ships and aircraft 
        using the port and air field on the island of Crete.

1991-1993: Oceanographic Unit FIVE, USNS HARKNESS (T-AGS 32), Manama, 
Bahrain

  <bullet> Operations Officer/Boat Division Officer: Led 60 personnel 
        who maintained $5M in hydrographic survey equipment Also 
        planned, participated in, and directed over 15 hydrographic 
        surveys in the Arabian Sea and Arabian Gulf immediately after 
        the first Gulf War. These surveys were essential to hundreds of 
        future ship and submarine deployments to the region by U.S. and 
        Allied Naval forces.

1989-1991: UC San Diego, Scripps Institution of Oceanography, La Jolla, 
CA

  <bullet> Master's Degree Student: Completed academic course work in 
        oceanography, digital signal processing, artificial 
        intelligence, machine learning, computer science, and linear 
        algebra. Performed research on oceanography, remote sensing, 
        and digital signal processing. Participated in an underwater 
        acoustic research cruise onboard the USNS DeSteiger.

    9. Attach a copy of your resume.
    My CV is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years. None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> US Naval Institute, Lifetime Member, 1989-2017

  <bullet> US Navy league, Lifetime Member, 1989-2017

  <bullet> US Naval Weather Service, Lifetime Member, 1989-2017

  <bullet> US Naval Academy Alumni Association, Lifetime Member, 1989-
        2017

  <bullet> UC San Diego Alumni Association, Member, 1989-2017

  <bullet> Acoustical Society of America, Member, 1997-2001

  <bullet> International Hydrographic Organization, Member, 2014-2017

  <bullet> Marine Technology Society, invited speaker

  <bullet> American Geophysical Union, invited speaker

  <bullet> American Meteorology Society, invited speaker

  <bullet> Oceanology International, invited speaker

    None of these restrict membership on the basis of sex, race, color, 
religion, national origin, age or handicap; however the UC San Diego 
Alumni association and USNA Alumni Association restrict membership to 
alumni of their respective institutions.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
Military
  <bullet> Legion of Merit (2)

  <bullet> Meritorious Service Medal (3)

  <bullet> Navy and Marine Corps Commendation Medal (5)

  <bullet> Navy and Marine Corps Achievement Medal

  <bullet> Joint Unit Commendation Medal

  <bullet> Meritorious Unit Commendation Medal

  <bullet> Navy Unit Commendation Medal

  <bullet> Humanitarian Service Medal

  <bullet> Global War of Terror Service Medal

  <bullet> Southwest Asia Service Medal

  <bullet> National Defense Service Medal
Professional
  <bullet> Commander, Naval Air Forces Leadership Award, 2002
Academic
  <bullet> UC San Diego Distinguished Alumni Award, 2016
Athletic
  <bullet> U.S. Swimming Master's National Record Holder, 1,500 m 
        freestyle, 2008

  <bullet> U.S. Naval Special Warfare Command Superfrog Half Iron Man 
        Triathlon Relay Course Record Holder, 2006

  <bullet> U.S. Naval Academy Record Holder, 500 yd; 1,000 yd; 1,650 
        yd; 400 m; 800 m; 1,500 m freestyle, 1985-1989

  <bullet> Bronze Medalist, National Sports Festival, 400 m freestyle, 
        1985

  <bullet> Junior National Swimming Champion, 500 yd freestyle, 1984

  <bullet> #1 National Prep School All American Swimmer, 500 yd 
        freestyle, 1984

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Academic
  <bullet> Detection of sonar induced measurement uncertainties in 
        environmental sensing: a case study using the Toroidal Volume 
        Search Sonar, in Impact of Littoral Environmental Variability 
        of Acoustic Predictions in Environmental Sensing, pp. 571-577, 
        Springer, 2002, (C de Moustier, lead author)

  <bullet> Multi beam volume acoustic backscatter imagery and 
        reverberation measurements in the northeastern Gulf of Mexico, 
        J. Acoustic. Soc. Am., 2002 (with C. De Moustier)

  <bullet> Shallow water acoustic backscatter and reverberation 
        measurements using a 68 kHz cylindrical array, Ph.D. 
        Dissertation, Univ. Calif. San Diego, 2001

  <bullet> On optimal amplitude shading for arrays of irregularly 
        spaced or non coplanar elements, IEEE J. Oceanic Eng., 25, 553-
        567, 2000 (with C, de Moustier)

  <bullet> An empirical orthogonal function analysis of remotely sensed 
        sea surface temperature variability and its relation to 
        interior oceanic processes off Baja California, Remote Sensing 
        of the Environment, 47(3), pp.375-389, 1994.

  <bullet> Automated cloud screening of AVHRR imagery using split and 
        merge clustering, Remote Sensing of the Environment, 44(4), 
        1991
Professional
  <bullet> Naval Oceanography Information Warfare Strategy, U.S. Navy, 
        2017

  <bullet> Securing The Weather Gauge of the 21st Century, Navy Live, 
        2017

  <bullet> Naval Oceanography Electromagnetic Maneuver Warfare 
        Strategy, U.S. Navy, 2016

  <bullet> Exploring Our Past, Forging Our Future: Diving on the USS 
        Independence, The Sextant, Naval Historical and Heritage 
        Command, 2016

  <bullet> US Navy Ocean Gliders: Unmanned Underwater Vehicles That Are 
        Improving Our Understanding of the World's Oceans, DOD Live, 
        2016

  <bullet> Navy Meteorology and Oceanography Makes It Real During 
        RIMPAC 2016, DOD Live, 2016

  <bullet> Naval Oceanography Unmanned Systems Strategy, U.S. Navy, 
        2015

  <bullet> Chatting the Invisible Terrain, U.S. Naval Institute 
        Proceedings, 2015

  <bullet> Keeping the Fleet Safe Through Inclusion, Diversity, and 
        Innovation, DOD Live, 2015

  <bullet> Honoring Our Veterans, USNA Alumni Magazine Shipmate, 2015

  <bullet> Department of the Navy and the Arctic, Statement to the 
        Joint Subcommittee Hearing on Foreign Affairs, U.S. House of 
        Representatives, Subcommittee on Europe, Eurasia, and Emerging 
        Threats and Subcommittee on the Western Hemisphere, November 
        17, 2015

PRESENTATIONS: A select list of the hundreds of formal presentations 
over my academic and professional career include:
Congressional
  <bullet> Oral Testimony to the U.S. House of Representatives Joint 
        Subcommittee Hearing on Charting the Arctic: Security, 
        Economic, and Resource Opportunities, November 2015
Academic
  <bullet> UC San Diego/Scripps Institution of Oceanography, U.S. Navy 
        actions to address sea level rise, 2014

  <bullet> University of Maine, U.S. Navy actions to address climate 
        change in the Arctic, 2010

  <bullet> Meetings of the Acoustical Society of America, Seattle WA, 
        1999, Berlin GE, 2000

    Professional: Keynote and invitational addresses at major 
conferences/meetings hosted by:

  <bullet> AFCEA Intelligence, Surveillance, and Reconnaissance 
        Conferences, 2014-2017

  <bullet> NDIA's Undersea Warfare Conferences, 2015-2017

  <bullet> AUSVI Conferences, 2014-2017

  <bullet> US State Department's Our Oceans Conference, 2016

  <bullet> Marine Technology Society/IEEE Oceans Conferences, 2014-2016

  <bullet> Maury Project for Ocean Educators, sponsored by ONR, 2014-
        2016

  <bullet> National Ocean Sciences Bowl, hosted by NOAA and the Office 
        of Naval Research

  <bullet> ONR Program Meeting on International Cooperation and 
        Engagement on Polar Programs and Research presentations on U.S. 
        Navy Arctic research activities, 2015

  <bullet> Naval Studies Board presentations on unmanned systems 
        technology, operations, 2015

  <bullet> Defense Science Board presentations on unmanned systems 
        technology, operations, 2014-2016

  <bullet> Defense Science Board presentations on U.S. Navy actions to 
        address climate change, 2010-2014

  <bullet> National Research Council presentations on U.S. Navy actions 
        to address climate change, 2010-2014

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Oral Testimony to the U.S. House of Representatives Joint 
Subcommittee Hearing on Charting the Arctic: Security, Economic, and 
Resource Opportunities, November 2015
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    (a) I believe I am qualified for this position because I have 28 
years of experience in the Navy doing exactly the same work that NOAA 
does for the nation, including practical, policy, and leadership 
experience in weather forecasting, ocean forecasting, hydrographic 
survey and charting, and counter-illegal fishing policy and planning.
    (b) I wish to serve in this position because I have a lifelong 
commitment to serve my country, as well as an intellectual passion for 
the earth sciences. I would be honored to serve in a similar capacity 
that I have served in the Navy, but at a higher level.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    (a) If confirmed as the Assistant Secretary and Deputy 
Administrator, I would make it one of my top responsibilities to ensure 
the proper management and accounting controls of NOAA, and to ensure 
that our Nation's taxpayer dollars are used as effectively and 
efficiently as possible. To do this, if confirmed, I would ensure NOAA 
has a rigorous programming, planning, budgeting, and execution process 
that is tied to well defined requirements which are derived from a 
comprehensive NOAA Strategic Plan that is informed by input from 
external and internal stakeholders.
    (b) I have experience managing large organizations as detailed 
above in question A(8) and my attached CV. Specifically, I led the Navy 
equivalent to NOAA, the Naval Meteorology and Oceanography Command from 
2014-2017, and I served as the Oceanographer of the Navy from 2015-
2017.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top 3 challenges facing NOAA are:

  (a)  Implementing the requirements of the Weather Research and 
        Forecasting Innovation Act of 2017: The Congress passed this 
        legislation, and the President signed it for a very clear 
        reason: to improve our hazardous weather and tsunami prediction 
        capability that can impact our Nation by billions of dollars 
        each year. If confirmed, I will conduct a review of our 
        Nation's approach to weather modeling to determine if we can 
        improve alignment between, NOAA, the Navy and the USAF and 
        ensure that we have a plan with a clearly articulated pathway 
        to ensure the United States regains preeminence in weather 
        modeling in the defense and non-defense sectors. If confirmed, 
        I would make it my top priority to meet the intent of this law, 
        especially the aspects concerning improvement to severe 
        weather, tornado and hurricane warnings, and satellite data 
        collection program management. I would also increase focus on 
        cybersecurity for all NOAA information systems as these 
        directly underpin it's effective hazardous weather warning 
        capabilities. Finally, I will need to work with the NOAA 
        Administrator as well as NESDIS and NWS leadership to focus on 
        the NOAA satellite programs which are growing at an 
        unsustainable rate and that have been delayed numerous times.

  (b)  Ensuring National Marine Fisheries, National Marine Sanctuary, 
        and National Ocean Service policies and efforts that 
        successfully balance the economic, conservation, national 
        security, and homeland security requirements for our nation: I 
        share the view of many Americans that we need to preserve our 
        natural marine resources and undertake any development or 
        activity (military, law enforcement, etc) in these regions in a 
        sustainable, environmentally conscious way. I do believe we can 
        do this while simultaneously benefiting from the vast energy, 
        mineral, and fishery resources that exist within our Exclusive 
        Economic Zones. NOAA is a critical enable to economic 
        development in the United States, especially in the rapidly 
        expanding ``blue economy'' sector. If confirmed, I would ensure 
        NOAA increases focus on this aspect of its mission to ensure 
        the United States retains its competitive advantage over other 
        nations that are expanding their maritime activities and 
        investments (e.g., aquaculture, shipping, offshore energy, 
        etc).

  (c)  Organizing and resourcing NOAA to more effectively and 
        efficiently achieve its mission and meet legislative and legal 
        requirements. As I indicated in my response to A(19), if 
        confirmed I would immediately review NOAA's planning, 
        programming, budgeting, and execution process to ensure every 
        single tax dollar is optimally allocated to effectively achieve 
        NOAA's mission. To do this effectively requires reviewing 
        NOAA's current processes to determine if they are rigorous and 
        to then determine if NOAA's approach requires changes to 
        support this critical objective. Of these processes, improving 
        how NOAA hires, trains, and retains its highly talented 
        workforce would receive my focused attention.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts. None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    Between 2009-2017, as part of my official duty in the Navy, I have 
prepared submissions for the Navy Meteorology and Oceanography 
Command's portion of each annual National Defense Authorization Act 
(NOAA). These submissions averaged approximately $350M each year, and 
included budget requests for weather and ocean sensors, supercomputers 
for weather and ocean modeling, hydrographic survey ships, and the 
funding for operations and salaries for approximately 2,500 Navy Sailor 
and civilian oceanographers, meteorologists, chirographers, atomic 
physicists, engineers, and support personnel.
    6. Explain how you will resolve any potential conflict of interest, 
including automat may be disclosed by your responses to the above 
items.
    Any potential conflict of interest will be resolved in accordance 
with the terms of my ethics agreement. I understand that my ethics 
agreement has been provided to the Committee. I am not aware of any 
potential conflict of interest other than those that are the subject of 
my ethics agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No/Not applicable.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No/Not applicable.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No/Not applicable.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No/Not applicable.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No/Not applicable.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
    Resume of Rear Admiral Timothy Cole Gallaudet, Ph.D., U.S. Navy
Focus
    I have a lifelong commitment to serve my country, and an 
intellectual passion for the physical sciences of oceanography, 
meteorology, and hydrography. I owe this to my father, a retired U.S. 
Navy Captain, and mother, a lifelong member of the Daughters of the 
American Revolution. They inspired me towards a professional career in 
the U.S. Navy's Oceanography community, in which I have served since 
1989 and have led since 2014. I would be honored to continue to serve 
our great nation at an even higher level in a similar capacity.
Expertise
    Leadership: broad experience ranging from small Navy units of a few 
dozen personnel conducting tactical-scale scientific support missions, 
to large enterprises of thousands of military and civilian teams 
providing ocean, weather, and sea floor information to every Navy ship, 
submarine, aircraft, and SEAL Team to ensure their safe and effective 
mission accomplishment.
    Management: diverse portfolio to include: running the pre-
inspection maintenance program for a $7 billion Navy aircraft carrier 
(as a collateral duty); coordinating a $5 billion 5-year budget 
submission for all U.S. Navy's Information Warfare programs, and 
planning and executing the research, development, and integration of 
over $1.6 billion dollars of navigation equipment on all U.S. Navy 
ships, aircraft, and submarines.
    Strategy: far reaching results in developing U.S. Navy strategy for 
environmental support Naval Special Warfare, Anti-submarine Warfare, 
Electromagnetic Manuever Warfare, and Information Navy Warfare; 
Unmanned systems development and operations, Arctic research, 
development, capability development, and operations; and adaptation of 
Naval facilities and operational planning to climate change.
    Science & Technology: proven expertise in the skillful oversight 
and direction of research, development, acquisition, and transition of 
capabilities covering multiple disciplines, to include: digital signal 
processing, information technology, cyber security, machine learning, 
artificial intelligence, remote sensing, underwater acoustics, atomic 
physics, astrophysics, astrometry, oceanography, meteorology, and 
hydrography.
    Partnerships: widely recognized initiative and support to academic, 
research, and operational partnerships across the U.S. Federal 
agencies, domestic and international research institutions and 
universities, and the Joint U.S. DoD force.
Education
Degrees
  <bullet> PhD Oceanography, UC San Diego, Scripps Institution of 
        Oceanography, 2001

  <bullet> MS. Oceanography, UC San Diego, Scripps Institution of 
        Oceanography, 1991

  <bullet> BS. Oceanography, U.S. Naval Academy, 1989
Courses
  <bullet> Harvard Business School: Executive Cyber Security Course, 
        2016

  <bullet> Air War College: Executive Cyber Security Course, 2015

  <bullet> MIT: Summer Seminar, 2013

  <bullet> Naval Post Graduate School: Effects Based Strategy Course, 
        2009
Experience

2015-2017: Chief of Naval Operations Staff, Washington, D.C.
  <bullet> Oceanographer of the Navy: oversee an annual $350M budget to 
        program and direct all policy for U.S. Navy oceanography, 
        meteorology, oceanography, astrometry, and precise timing 
        capability which is used by all Navy ships, aircraft, 
        submarines and SEAL Teams to safety and successfully operate.

  <bullet> Navigator of the Navy: oversee a 5 year budget of $1.68 for 
        directing all policy, research, development, and integration of 
        navigation equipment on all Navy ships, submarines, and 
        aircraft.

  <bullet> Naval Deputy to the NOAA Administrator: coordinate 
        cooperative efforts between the Navy an NOAA on sea floor 
        charging, and weather modeling, ocean and weather observations, 
        technology development and research, and personnel exchanges.

  <bullet> Director, U.S. Navy Task Force Climate Change: direct all 
        Navy policy and plans regarding climate change impacts to 
        facilities, and strategic plans, and capability development, 
        with a focus on the Arctic. Authored the U.S. Navy Arctic 
        Roadmap of 2010, and reviewed and approved the U.S. Navy Arctic 
        Roadmap for 2014-2030.

  <bullet> Director of the Office of the DoD Executive Agent for 
        Maritime Domain Awareness (MDA): directed all DoD strategic 
        planning, partnerships, and system development MDA. Signed the 
        DoD MDA Strategic Plan, Architecture, and Vessel of Interest 
        Lexicon.

  <bullet> DoD Precise Time and Time Interval Manager and DoD Celestial 
        Reference Frame and Earth Orientation Manager: oversee a $20M 
        annual budget that allows the U.S. Naval Observatory to provide 
        the absolute fundamental spatial and temporal references needed 
        for U.S. DoD network and space operations, targeting, and 
        command, control, communications, computers, intelligence, 
        surveillance and reconnaissance.

2014-2017: Naval Meteorology and Oceanography Command, Stennis Space 
Center, MS

  <bullet> Commander, Naval Meteorology and Oceanography Command/
        Commander, Task Group 80.7: Direct the operations of 14 
        subordinate commands comprised of over 2500 military and 
        civilian personnel who provide weather, ocean, seafloor, 
        precise time, and astrometry information to all Navy operating 
        units afloat, aloft, and ashore. These commands continuously 
        deploy all over the globe on Navy ships, submarines, aircraft, 
        and with SEAL Teams, and include reachback centers that 
        assimilate environmental information from satellites, 
        underwater floats and drones, and other sensors worldwide into 
        cyber secure supercomputers that predict the best routes, 
        timelines, weapons setting, sensor configurations, and 
        equipment loads for Navy units to operate safely and 
        effectively.
  <bullet> Hydrographer of the Navy: Develop and direct all U.S. Navy 
        hydrographic survey plans, partnerships, and operations using a 
        Fleet of six $250M Oceanographic survey vessels as well as a 
        rapidly deplorable Team that uses jet skis equipped with 
        echosounders, underwater drones, and small boats to identify 
        safe routes and harbor berths after natural disasters. The 
        hydrographic partnerships and engagements that I direct include 
        over 60 nations and are highly praised by Geographic Combatant 
        Commanders for contributing to their Theater Security 
        Cooperation (TSC) objectives.
2013-2014: Chief of Naval Operations Staff, Washington, D.C.

  <bullet> Deputy Oceanographer of the Navy: Deputy to the senior 
        Oceanography officer in the Navy, directing the daily actions 
        of a staff of 90 personnel that oversee $350M of annual 
        resources for the Navy's operational oceanography, meteorology, 
        hydrography, precise time, and astrometry capabilities. Duties 
        also included oversight of the Navigation capabilities, Navy 
        climate change policy and plans, DoD's Maritime Domain 
        Awareness Program, the Navy Space Program, and a variety of 
        classified space rested intelligence programs.

2011-2013: U.S. Naval Observatory, Washington, D.C.

  <bullet> Superintendent/Commanding Officer: Commanded a team of over 
        100 atomic physicists, astrophysicists, astronomers, 
        mathematicians and engineers who develop, maintain, and 
        modernize the DoD's precision time keeping and astrometric 
        observing capabilities. The Master Clock atomic clock ensemble 
        and telescope data processing computers at the U.S. Naval 
        Observatory are designated national critical infrastructure 
        because all U.S. satellites, ballistic missiles, and national 
        defense and economic computer networks would fail to operate 
        without the information they provide.

2008-2011: Chief of Naval Operations Staff, Washington, D.C.

  <bullet> Deputy Navigator of the Navy: Assisted with management of a 
        5 year budget of $1.6B for directing all policy, research, 
        development, and integration of navigation equipment on all 
        Navy ships, submarines, and aircraft.

  <bullet> Deputy Director, U.S. Navy Task Force Climate Change 
        Established a Task Force of over 120 individuals representing 
        all Navy operating forces, headquarters, system commands, all 
        Federal agencies, and numerous universities and labs. Directed 
        all Navy policy and plans regarding climate change impacts to 
        facilities, and strategic plans, and capability development, 
        with a focus on the Arctic. Authored the U.S. Navy Arctic 
        Roadmap of 2010.

2005-2008: Naval Oceanography Special Warfare Center, Coronado, CA

  <bullet> Commanding Officer: Commanded 120 personnel who deployed 
        with U.S. Navy SEAL Teams in Iraq, Afghanistan, Africa, and 
        Southeast Asia to forecast weather, sea state, ocean and river 
        currents, and operate unmanned aerial and underwater vehicles 
        and other technical sensors to detect and locate enemy forces.

  <bullet> Technical Special Reconnaissance Officer, Commander, Naval 
        Special Warfare Command Established the first Navy SEAL program 
        for unmanned aerial and underwater vehicles and other technical 
        sensors to detect arid locate enemy forces.

2004-2005: Naval Oceanographic Office, Stennis Space Center, MS

  <bullet> Anti-Submarine Warfare (ASW) Program Manager: Coordinated 
        the undersea data collection of 8 Oceanographic Survey Ships 
        deployed worldwide, the processing of this data into 
        geophysical databases used by Navy ships, aircraft, and 
        submarines to operate their sonars/sonobuoys effectively, and 
        direct teams of deploying military and civilian personnel to 
        advise these units during ASW exercises and operations. 
        Deployed on the USNS Bowditch during the first operational 
        deployment of an ocean glider underwater drone from a Navy 
        ship.

2003-2004: Commander, Naval Meteorology and Oceanography Command, 
Stennis Space Center, MS

  <bullet> Plans and Programs Officer: Oversaw the budget and plans for 
        a highly classified unmanned underwater program executed at a 
        subordinate command (Naval Oceanographic Office).

2001-2003: USS KITTY HAWK (CV-63), Yokosuka, Japan

  <bullet> Meteorology and Oceanography Division Officer: Led 18 
        personnel to forecast wind, weather, sea state, and ocean 
        currents for the KITTY HAWK Carrier Strike Group (CSG) composed 
        of an air wing of 60 aircraft, and 5 escort ships which 
        conducted the first strikes into Afghanistan during Operation 
        Enduring Freedom in October 2001. Also conducted first strikes 
        into Iraq during Operation Iraqi Freedom in March 2003.

  <bullet> Officer of the Deck: Directed all aircraft carrier movements 
        and all aircraft launches and recoveries for two 4-hour periods 
        each day.

  <bullet> INSURV Coordinator: Developed and executed a 6 month plan 
        for the 3,000 person crew to prepare the ship for its 
        inspection by the Board of Inspection and Survey (INSURV). This 
        involved tens of thousands of maintenance actions precisely 
        coordinated across a dozen departments.

1997-2001: UC San Diego, Scripps Institution of Oceanography, La Jolla, 
CA

  <bullet> PhD Student: Completed course work on underwater acoustics, 
        digital signal processing, and computer programming. Performed 
        research at Scripps' Marine Physical Laboratory (MPL). 
        Participated on a research cruise on the RN New Horizon.

1995-1997: USS PELELIU (LHA-5), San Diego, CA

  <bullet> Meteorology and Oceanography Division Officer: Led 15 
        personnel to forecast wind, weather, sea state, and ocean 
        currents for the PELELIU Amphibious Ready Group (ARG) composed 
        of a Marine Aviation Combat Element of 25 aircraft, 2 escort 
        ships, and a Marine Expeditionary Unit. Conducted Operation 
        Southern Watch in the Northern Arabian Gulf.

  <bullet> Officer of the Deck Directed all ship movements and all 
        aircraft launches and recoveries for two 4-hour periods each 
        day.

1993-1995: Naval European Meteorology and Oceanography Center, Rota, 
Spain

  <bullet> Command & Forecast Duty Officer: lead weather and ocean 
        forecaster of a watch team supporting Navy, Joint, and Allied 
        Maritime forces operating in Europe and the Mediterranean. 
        Supported NATO operations In Bosnia, and participated in 
        Operation Deny Flight.

1994: Commander, U.S. 6th FLEET, USS LASALLE (LCC-20) Gaeta, Italy

  <bullet> Assistant Fleet Oceanographer: Assistant to the senior 
        oceanographer on the staff of the Commander of the U.S. 6th 
        Fleet. Led a division of 10 personnel who prepared the weather 
        and ocean forecasts for the Fleet Commander daily. Coordinated 
        with staff planners and operations Officers to ensure all 
        6thFleet operations were conducted safely and effectively. 
        Routed dozens of ships around hazardous seas.

1993: Naval European Meteorology and Oceanography Detachment, Sousa 
Bay, Greece

  <bullet> Officer in Charge: Led 14 personnel who provided weather and 
        ocean forecasts for Navy, Joint, and NATO ships and aircraft 
        using the port and air field on the island of Crete.

1991-1993: Oceanographic Unit FIVE, USNS HARKNESS (T-AGS 32), Manama, 
Bahrain

  <bullet> Operations Officer/Boat Division Officer: Led 60 personnel 
        who maintained $5M in hydrographic survey equipment. Also 
        planned, participated in, and directed over 15 hydrographic 
        surveys in the Arabian Sea and Arabian Gulf immediately after 
        the first Gulf War. These surveys were essential to hundreds of 
        future ship and submarine deployments to the region by U.S. and 
        Allied Naval forces.

1989-1991: UC San Diego, Scripps Institution of Oceanography, La Jolla, 
CA

  <bullet> Master's Degree Student: Completed academic course work in 
        oceanography, digital signal processing, artificial 
        intelligence, machine learning, computer science, and linear 
        algebra. Performed research on oceanography, remote sensing, 
        and digital signal processing. Participated in an underwater 
        acoustic research cruise onboard the USNS DeSteiger.
References
Federal
  <bullet> Congressman Ryan Zincked--(R-MO); fellow staff officer at 
        the Headquarters of the Naval Special Warfare Command, 2007

  <bullet> Dr. Kathy Sullivan--Under Secretary of Commerce for Oceans & 
        Atmosphere/NOAA Administrator, partner in a Navy-NOAA MOA
Military
  <bullet> ADM John Richardson--Chief of Naval Operations (CNO); I 
        served on his staff, away 2015-2017

  <bullet> ADM William Moran--Vice Chief of Naval Operations; I 
        coordinated with him on U.S. Navy Navigation and Oceanography 
        policy while serving on the CNO's staff, 2016-2017

  <bullet> ADM Michelle Howard--Commander, Naval Forces Europe; I 
        coordinated with her on U.S. Navy Navigation and Oceanography 
        policy, 2015-2016

  <bullet> ADM Scott Swift--Commander, U.S. Pacific Fleet; I deployed 
        my units and reported to him to support his operations, 2015-
        2017

  <bullet> ADM Harry Harris--Commander, U.S. Pacific Command; I 
        deployed my units to support his operations, 2015-2017

  <bullet> VADM Nora Tyson--Commander, U.S. 3'' Fleet; I deployed my 
        units to support her operations, 2015-2016

  <bullet> VADM Jan Tighe--Deputy Chief of Naval Operations for 
        Information Warfare; I report to her as my immediate superior 
        officer, 2016-2017

  <bullet> VADM Gardner Howe--Military aide to the Director, CIA; I 
        reported to him on the staff of the Commander, Naval Special 
        Warfare Command, 2007

  <bullet> GEN (ret) John Kelly--former Commander, U.S. Southern 
        Command; he served as my senior mentor during the Chairman of 
        the Joint Chiefs of Staff CAPTSTONE training program, 2016

  <bullet> ADM (ret) William Gortney--former Commander, U.S. Northern 
        Command; I reported to him as my immediate superior officer, 
        2014-2015

  <bullet> VADM (ret) Paul Gaffney--former Chief of Naval Research; I 
        continue to coordinate with him on ocean science outreach 
        efforts

  <bullet> VADM (ret) Joseph Kernan--former Deputy Commander, U.S. 
        Southern Command; I reported to him while serving on his staff 
        at the Naval Special Warfare Command, 2007

  <bullet> RADM (ret) Jon White--former Oceanographer of the Navy, CEO 
        Consortium for Ocean Leadership; I served as his Executive Aide 
        and Deputy on the CNO staff, 2013

  <bullet> RADM (ret) David Tilley--former Oceanographer of the Navy, 
        Director Pennsylvania State University Center for Climate and 
        Weather Security; I served as his Deputy on CNO staff, 2009
Academic
  <bullet> Dr. Margery Lienen--Director, Scripps Institution of 
        Oceanography

  <bullet> Dr. Walter Munk, Professor, UC San Diego, Scripps 
        Institution of Oceanography

  <bullet> Dr. Bill Kuperman--Professor, Director, Marine Physical 
        Laboratory, UC San Diego, Scripps Institution of Oceanography

  <bullet> Dr. Marc Abbott--Director, MIT/Woods Hole Oceanographic 
        Institution

  <bullet> Dr. Robert Ballard--Ocean Exploration Trust, University of 
        Road Island
Awards
Military
  <bullet> Legion of Merit (2)

  <bullet> Meritorious Service Medal (3)

  <bullet> Navy and Marine Corps Commendation Medal (5)

  <bullet> Navy and Marine Corps Achievement Medal

  <bullet> Joint Unit Commendation Medal

  <bullet> Meritorious Unit Commendation Medal

  <bullet> Navy Unit Commendation Medal

  <bullet> Humanitarian Service Medal

  <bullet> Global War of Terror Service Medal

  <bullet> Southwest Asia Service Medal

  <bullet> National Defense Service Medal
Professional
  <bullet> Commander, Naval Air Forces Leadership Award, 2002
Academic
  <bullet> UC San Diego Distinguished Alumni Award, 2016
Athletic
  <bullet> U.S. Swimming Master's National Record Holder, 1500 m 
        freestyle, 2008

  <bullet> U.S. Naval Special Warfare Command Superfrog Half Iron Man 
        Triathlon Relay Course Record Holder, 2006

  <bullet> U.S. Naval Academy Record Holder, 500 yd, 1000 yd, 1650 yd, 
        400 m 800 m, 1500 m freestyle, 1985-1989

  <bullet> Bronze Medalist, National Sports Festival, 400 m freestyle, 
        1985

  <bullet> Junior National Swimming Champion, 500 yd freestyle, 1984

  <bullet> #1 National Prep School All American Swimmer, 500 yd 
        freestyle, 1984
Associations
  <bullet> U.S. Naval Institute, Lifetime Member, 1989-2017

  <bullet> U.S. Navy League, Lifetime Member, 1989-2017

  <bullet> U.S. Naval Weather Service, Lifetime Member, 1989-2017

  <bullet> U.S. Naval Academy Alumni Association, Lifetime Member, 
        1989-2017

  <bullet> UC San Diego Alumni Association, Member, 1989-2017

  <bullet> Acoustical Society of America, Member, 1997-2001

  <bullet> International Hydrographic Organization, Member, 2014-2017

  <bullet> Marine Technology Society, invited speaker

  <bullet> American Geophysical Union, invited speaker

  <bullet> American Meteorology Society, invited speaker

  <bullet> Oceanology International, invited speaker
Publications
Academic
  <bullet> Detection of sonar induced measurement uncertainties in 
        environmental sensing: a case study using the Toroidal Volume 
        Search Sonar, in Impact of Littoral Environmental Variability 
        of Acoustic Predictions in Environmental Sensing, pp. 571-577, 
        Springer, 2002, (C de Moustier, lead author)

  <bullet> Multi beam volume acoustic backscatter imagery and 
        reverberation measurements in the northeastern Gulf of Mexico, 
        J. Acoustic. Soc. Am., 2002 (with C. De Moustier)

  <bullet> Shallow water acoustic backscatter and reverberation 
        measurements using a 68 kHz cylindrical array, Ph.D. 
        Dissertation, Univ. Calif. San Diego, 2001

  <bullet> On optimal amplitude shading for arrays of irregularly 
        spaced or non-coplanar elements, IEEE J. Oceanic Eng., 25, 553-
        567, 2000 (with C, de Moustier)

  <bullet> An empirical orthogonal function analysis of remotely sensed 
        sea surface temperature variability and its relation to 
        interior oceanic processes off Baja California, Remote Sensing 
        of the Environment, 47(3), pp. 375-389, 1994.

  <bullet> Automated cloud screening of AVHRR imagery using split and 
        merge clustering, Remote Sensing of the Environment, 44(4), 
        1991
Professional
  <bullet> Naval Oceanography Information Warfare Strategy, U.S. Navy, 
        2017

  <bullet> Securing The Weather Gauge of the 21st Century, Navy Live, 
        2017

  <bullet> Naval Oceanography Electromagnetic Maneuver Warfare 
        Strategy, U.S. Navy, 2016

  <bullet> Exploring Our Past, Forging Our Future: Diving on the USS 
        Independence, The Sextant, Naval Historical and Heritage 
        Command, 2016

  <bullet> U.S. Navy Ocean Gliders: Unmanned Underwater Vehicles That 
        Are Improving Our Understanding of the World's Oceans, DOD 
        Live, 2016

  <bullet> Navy Meteorology and Oceanography Makes It Real During 
        RIMPAC 2016, DOD Live, 2016

  <bullet> Naval Oceanography Unmanned Systems Strategy, U.S. Navy, 
        2015

  <bullet> Charting the Invisible Terrain, U.S. Naval Institute 
        Proceedings, 2015

  <bullet> Keeping the Fleet Safe Through Inclusion, Diversity, and 
        Innovation, DOD Live, 2015

  <bullet> Honoring Our Veterans, USNA Alumni Magazine Shipmate, 2015

  <bullet> Department of the Navy and the Arctic, Statement to the 
        Joint Subcommittee Hearing on Foreign Affairs, U.S. House of 
        Representatives, Subcommittee on Europe, Eurasia, and Emerging 
        Threats and Subcommittee on the Western Hemisphere, November 
        17, 2015
Presentations: A select list of the hundreds of formal presentations 
        over my academic and professional career include:
Congressional
  <bullet> Oral Testimony to the U.S. House of Representatives Joint 
        Subcommittee Hearing on Charting the Arctic: Security, 
        Economic, and Resource Opportunities, November 2015
Academic
  <bullet> UC San Diego/Scripps Institution of Oceanography, U.S. Navy 
        actions to address sea level rise, 2014

  <bullet> University of Maine, U.S. Navy actions to address climate 
        change in the Arctic, 2010

  <bullet> Meetings of the Acoustical Society of America, Seattle WA, 
        1999, Bertin GE, 2000

Professional: Keynote and invitational addresses at major conferences/
meetings hosted by:

  <bullet> AFCEA Intelligence, Surveillance, and Reconnaissance 
        Conferences, 2014-2017

  <bullet> NDIA's Undersea Warfare Conferences, 2015-2017

  <bullet> AUSVI Conferences, 2014-2017

  <bullet> U.S. State Department's Our Oceans Conference, 2016

  <bullet> Marine Technology Society/IEEE Oceans Conferences, 2014-2016

  <bullet> Maury Project for Ocean Educators, sponsored by ONR, 2014-
        2016

  <bullet> National Ocean Sciences Bowl, hosted by NOAA and the Office 
        of Naval Research

  <bullet> ONR Program Meeting on International Cooperation and 
        Engagement on Polar Programs and Research presentations on U.S. 
        Navy Arctic research activities, 2015

  <bullet> Naval Studies Board presentations on unmanned systems 
        technology, operations, 2015

  <bullet> Defense Science Board presentations on unmanned systems 
        technology, operations, 2014-2016

  <bullet> Defense Science Board presentations on U.S. Navy actions to 
        address climate change, 2010-2014

  <bullet> National Research Council presentations on U.S. Navy actions 
        to address climate change, 2010-2014

    The Chairman. Thank you, Dr. Gallaudet, and well done 
getting your mother-in-law in there too.
    [Laughter.]
    The Chairman. This question is for all of you. I know each 
of you appreciates the importance of cooperation between the 
Executive Branch and Congress. Nevertheless, these confirmation 
hearings give us an opportunity to underscore that point.
    So the question is, if confirmed, will you pledge to work 
collaboratively with this Committee, and its members, and to 
provide thorough and timely responses to our requests for 
information?
    Ms. Buerkle. I do.
    Dr. Copan. I will.
    Mr. Elliott. Yes, sir.
    Admiral Gallaudet. Yes, Senator.
    The Chairman. Thank you.
    I want to ask Dr. Gallaudet, this Congress with strong 
bipartisan support from members of this Committee, particularly 
Senators Nelson and Schatz, passed my Weather Research and 
Forecasting Innovation Act, and it was signed into law by the 
President.
    The bill included a focus on data improvements to support 
seasonal and sub-seasonal forecasting of temperature and 
precipitation.
    The question is, if confirmed, will you commit to fully 
implementing this important piece of legislation so that 
Americans, including the farmers and ranchers in my state of 
South Dakota, will have the benefit of long-term forecasts when 
making important decisions such as when and what crops to 
plant?
    Admiral Gallaudet. Yes, Senator. As I indicated in my 
opening statement, that will be my top priority if confirmed.
    The Chairman. Good. Thank you.
    Dr. Copan, what do you see as NIST's most important 
contributions to promoting U.S. innovation and industrial 
competitiveness both in the recent past and going forward? And 
how do you plan to prioritize NIST's resources across its 
various research standards and services portfolios?
    Dr. Copan. Thank you, very much, Mr. Chairman.
    I believe that the contributions that NIST has made 
recently with the development of the cyber security framework 
for this Nation is an essential underpinning for both national 
security and economic security.
    Every day, we hear more examples of the risk that our 
infrastructure, our data, our systems, and our corporations 
face.
    If confirmed, I look forward to leading this organization 
to further develop and communicate the cybersecurity framework, 
as well as adapting tools to the changing competitive landscape 
for both economic reasons, as well as for national security 
reasons.
    NIST also has the mission to appropriately support U.S. 
commerce in all of its sectors. So this requires flexibility 
and access to capabilities, technologies, and talent as the 
organization must move in line with the requirements of our 
economy.
    In order to maintain a position of global leadership 
economically, we look at the future of biological sciences and 
what is necessary for biomedical advances to be supported. We 
also look at the future of spectrum utilization in this Nation 
and NIST plays a very critical role.
    Because NIST touches on so many aspects of the U.S. 
economy, those are certainly amongst the top. But I would also 
underscore the role of NIST in supporting advanced 
manufacturing leadership.
    Our Administration, indeed our Nation, is looking to 
strengthen its position globally with respect to manufacturing 
and job creation here, and NIST has an important role to play 
there.
    I also believe that NIST has a pivotal position for our 
Nation in looking at technology transfer and commercialization 
from the Federal sector into all aspects of our economy. And 
with my background in both intellectual property and tech 
transfer, I believe that that will be a special focus for NIST 
to enhance what goes on across the Federal sector.
    The Chairman. Good. Thank you.
    Mr. Elliott, as you may know, this Committee included 
several provisions in the FAST Act to enhance the information 
that is made available to emergency responders in the event of 
an accident or an incident.
    Could you speak to your work with emergency responders over 
the course of your career? Any ideas you have for ensuring that 
those responders have the right information when they need it?
    Mr. Elliott. Well, thank you for the question, Senator.
    I have had a long, strong belief that we can never do 
enough to help improve and enhance the capability of our 
emergency first responders. And there are two particular 
developments, sets of technologies that we were able to develop 
and employ while I was at CSX.
    The first I mentioned in our opening comments that actually 
going back more than 15 years ago, we provided computer-based 
technology at State Homeland Security fusion centers, emergency 
management centers that allowed folks at those centers to track 
in real time CSX trains--every CSX train--and to quickly 
identify all of the commodities within those trains.
    What that allowed both on the emergency management and the 
security side to have that real time situational awareness 
either if it was concern about a security incident or about a 
potential incident involving rail. The system also allowed 
those users to actually set up alerts.
    More recently, we have had concerns about shipments of 
petroleum crude oil that could actually allow the state to 
actually set up an alert when this train was beginning to enter 
their state. So we really believe in the necessary good of 
transparency and that technology.
    More recently, the rail industry as a whole started to 
promote technology that would provide emergency first 
responders on their handheld devices, their iPads, their 
laptops with the ability without having to seek information 
from the railroads to identify the contents of railroad tank 
cars.
    The CSX system was called Rail Respond. Today, the rail 
industry system is called AskRail, and is widely promoted 
throughout this country, and it does give emergency responders 
that information when they need it. Whether or not when they 
get to the scene of an emergency or as they are pulling out of 
the station, if they have information about railcar initials 
and numbers, they can find out.
    The system is even sophisticated enough that you can put in 
a locomotive number and give you the entire train contents.
    I am proud from the rail industry perspective that this was 
something that was done voluntarily. Basically, we were working 
on it before the FAST Act. The FAST Act will help us make sure 
that we complete that mission and complete our mission of 
providing good quality training, education, and technology 
tools to our emergency first responders.
    The Chairman. Good. Thank you.
    Ms. Buerkle, my time has expired, so I will submit a 
question for the record. My wife and I are expecting our third 
grandchild. You have 17. So the question could be, how are you 
going to be Chairman of the CPSC and manage 17 grandkids?
    [Laughter.]
    The Chairman. I found that my kids take full advantage of 
the babysitting services, so.
    I will submit a question for the record.
    Ms. Buerkle. Thank you, Senator.
    The Chairman. Senator Nelson.
    Senator Nelson. Mr. Chairman, I want to enter into the 
record something that would help us, a statement from ``The 
Washington Post,'' a piece on shrinking the National Weather 
Service staff, and how that is inimical to our interest with 
regard to predicting the weather.
    [The information referred to follows:]

                   The Washington Post--September 27

 The Energy 202: Trump's hiring freeze shrank National Weather Service 
                      staff before hurricanes hit

                            By Dino Grandoni

THE LIGHTBULB
    Ahead of what would turn out to be a potentially record-breaking 
hurricane season the National Weather Service had 216 vacant positions 
it could not fill due to a governmentwide hiring freeze imposed by the 
Trump administration, according to a recently released document.
    Some of those Weather Service vacancies listed in the document, 
obtained by the Sierra Club through a Freedom of Information Act and 
shared with The Washington Post, were in locations that would be hit by 
the major hurricanes that barreled through the Gulf of Mexico and 
Caribbean.
    Staffing levels at the federal government's weather bureau, 
responsible for tracking hurricanes and warning the public about 
hazardous weather, have fallen since 2010 when the agency employed more 
than 3,800 nonmanagerial and nonsupervisory employees. Staffing had 
declined so much that the Government Accountability Office wrote in May 
that employees were challenged in their ability ``to complete key 
tasks.''
    The Weather Service's head count finally stabilized in 2016, with 
the forecasting agency starting and ending the year with about 3,400 
on-the-ground workers.
    But the staffing dip resumed in 2017, falling from 3,425 in 
December to 3,368 in August, according to data from the National 
Weather Service Employees Organization, a union representing 
meteorologists and other NWS employees.
    ``There's no question that the hiring freeze had an effect,'' said 
Dan Sobien, NWSEO president ``But really it was the straw that broke 
the camel's back.''
    He added, ''The camel was already weighed down to the ground.''
    The National Oceanic and Atmospheric Administration, the Weather 
Service's parent agency, said the hiring freeze played a part in the 
recent decline in the agency's ranks ahead of the triplet of intense 
storms--Hurricanes Harvey, Irma and Maria,
    ``Yes, the hiring freeze was a contributing factor'' for renewing 
that decline, NOAA spokesman Christopher Vaccaro wrote in an e-mail.
    But NOAA said its forecasting ability was not hampered by the 
shrunken staff.
    ``As already demonstrated during Harvey, Irma, Jose and Maria, NOAA 
is prepared for the hurricane season and is operating at full tempo,'' 
Vaccaro said. ``Our forecasters at NOAA's National Hurricane Center, 
local Weather Service offices, and river forecast centers and elsewhere 
in the agency are fulfilling the agency's mission of protecting lives 
and property as they issue timely and accurate forecasts.''
    The Weather Service vacancies that could not be filled because of 
the hiring freeze, which ended for the agency in April, include two 
meteorology positions at the National Hurricane Center in Miami. Those 
posts remained unfilled as of mid-August, the agency said, right before 
Hurricane Harvey struck Houston.
    The freeze also prevented the Weather Service from hiring for two 
meteorology positions in Jacksonville, Fla., one meteorology position 
in Tampa and an electronics technician in Key West. NOAA said all those 
posts, each in cities hit by Hurricane Irma, have been fil1ed.
    Ahead of the storms, the Weather Service readied ``preselected 
backup offices'' to handle forecasting for offices in the path of 
hurricanes in case communication was severed, Vaccaro said. For 
example, the field office near San Antonio covered the duties of the 
Key West office when Irma hit. The Miami office stepped in for the San 
Juan office in Puerto Rico when Hurricane Maria struck.
    The Weather Service said that 248 positions remain vacant at the 
agency. Six of those vacancies are at offices in Florida.
    ``I continue to be deeply troubled by the number of unfilled 
positions at the National Weather Service and fatigued employees 
working overtime to compensate for these vacancies,'' Rep. Charlie 
Crist (D-Fla.) said in a statement Crist, who served at Florida's 
Republican governor from 2007 to 2011, added that he shared his 
concerns with the president earlier this year.
    The empty desks are not limited to low-level employees.
    The National Hurricane Center, a Weather Service division, has been 
led by an acting director since May. An acting career official is 
heading NOAA until President Trump nominates and the Senate confirms a 
permanent replacement. Trump has waited longer than any other president 
to fill that role.
    The union, however, contends there are actually 665 vacancies at 
the Weather Service as of July, far more than the agency claims, based 
on its own Freedom of Information response.
    In either case, the vacancies at the Weather Service were numerous 
enough, even before Trump was inaugurated, for the GAO to audit the 
agency's hiring practices.
    In May, it concluded that managers and employees ``have experienced 
stress, fatigue, and reduced morale'' because of the staff shortages. 
Because NOAA higher-ups make only ``limited information'' available on 
the status of hiring requests to those running Weather Service field 
offices, managers cannot ``effectively plan and distribute workloads,'' 
the internal government watchdog office found.
    ``People were literally getting sick from the workload,'' Sobien, 
the union president, maintained.
    GAO counted 455 open jobs as of September 2016 at the Weather 
Service, excluding headquarters positions, adding that worker data the 
agency provided ``did not provide an accurate reflection of 
vacancies.''
    In, July, the Senate Appropriations Committee wrote in a report 
that lawmakers are ``very concerned with the continued number of 
employee vacancies'' even though Congress has provided enough money to 
fill them.
    ``Morale is at an all-time low and these dedicated public servants 
are exhausted,'' said Sen. Bill Nelson (D-Fla.), who is not a member of 
the committee. ``The president's hiring freeze only further compounded 
the vacancies.''
    But if the new administration gets its way, the Weather Service's 
budget will not remain as flush. The White House has proposed cutting 
the agency's funding by 6 percent, which would include the loss of $62 
million being used to update weather models and enable the agency to 
predict changing weather further out.
    So far, the federal government has received positive marks from the 
public for its hurricane response. Seven in 10 call the overall 
response as ``excellent'' or ``good,'' according to a Post-ABC poll 
conducted Sept. 18-21.
    --The Cabinet secretary with a double-digit security team will now 
have a nearly $25,000 secure phone booth in his office. My colleague 
Brady Dennis reported that the Environmental Protection Agency signed a 
$24,570 contract with Acoustical Solutions for a ''privacy booth'' for 
head Scott Pruitt. The booth will be completed next month.
    ``They had a lot of modifications'' Steve Snider, an acoustic sales 
consultant with the company, told Dennis about the EPA's order. ``Their 
main goal was they wanted essentially a secure phone booth that 
couldn't be breached from a data point of view or from someone standing 
outside eavesdropping.''
    EPA spokeswoman Liz Bowman said it was a ``secured communication 
area in the administrator's office so secured calls can be received and 
made. . . Federal agencies need to have one of these so that secured 
communications, not subject to hacking from the outside, can be held.''
    None of Pruitt's predecessors in the agency have had a similar 
setup, Dennis noted.
    Here's how Sen. Brian Schatz (D-Hawaii) responded to the news:
    And from the nonprofit American Oversight:
    --More on Pruitt: Like fellow Cabinet secretary Tom Price, the EPA 
chiefs flying habits have fallen under scrutiny too. CBS News reports 
that Pruitt flew between Cincinnati and New York on an Air Force jet, 
passing on to taxpayers at least a $20,000 bill. ''He then flew to 
Italy for an international summit that didn't start until three days 
later, and he left that meeting a day early,'' the network's Julianna 
Goldman and Laura Strickler write. ``It's unclear why he was in a 
rush.''
    --Trump vs. California: The New York Times' Hiroko Tabuchi has a 
front-page story today detailing exactly where a potentially legal 
fight between the Trump administration and California might go down:

        [A] peculiar confluence of history, legal precedent and 
        regulatory defiance has given California unique authority to 
        write its own air pollution rules. And because 12 other states 
        now follow California's standards, the state finds itself in an 
        extraordinary position to stage a regulatory mutiny of sorts--
        with much of the country's car market in tow.

        At stake in the dispute between officials in Sacramento, the 
        state capital, and Washington is a measure that the Obama 
        administration estimated would eliminate as much as six billion 
        metric tons of greenhouse gas emissions and save consumers more 
        than $1 trillion at the pump over the lifetime of the cars 
        affected.

        For now, Scott Pruitt, the administrator of the E.P.A., has 
        said that he will not seek to revoke the Federal waiver that 
        allows California to set'' auto emissions standards . . . 
        Still, the auto industry has hardly conceded defeat.

    A Republican rebuke on renewable fuels: In yet another sign of a 
growing rift between Republican senators and the president, Sen. 
Charles E. Grassley (R-Iowa) went on the Senate floor Tuesday to rip 
into the Trump administration for weakening the renewable fuel 
standard.
    Background: Begun in 2005, the RFS requires refiners to blend 
ethanol and other biofuels into gasoline and other transportation fuels 
sold in the United States. In a notice on Tuesday, the EPA outlined a 
number of options to cut the amount of blending required for 2018 and 
2019.
    Traditionally, the RFS has divided Republicans from oil-producing 
states, who find the requirements burdensome for companies in their 
states, from GOP members representing corn-growing states like Iowa, 
which benefit from the standards.
    On the campaign trail in Iowa and elsewhere, Trump promised to 
support ethanol producers. As recently as June, Trump told Iowans, 
``we're saving your ethanol industries.''
    On Tuesday, Grassley accused Trump of going back on that promise.
    ``About a month ago, the president even called me to say he still 
supports renewable fuels and that he will keep his word on the 
Renewable Fuel Standard,'' Grassley said on the Senate floor. ``He said 
I was free to tell Iowans of his ongoing support. I've gladly done 
so.''
    ``So you can imagine my surprise today,'' he continued, ``when I 
see that the EPA has released a proposal, out of the blue, to reduce 
the volume requirements for biodiesel for 2018 and 2019 under the 
Renewable Fuel Standard. This action today has come out of nowhere.''
    He added, ``It's outrageous that the EPA would change course and 
propose a reduction in renewable fuel volumes in this way. This seems 
like a bait-and-switch from the EPA's prior proposal and from 
assurances from President Trump himself and Cabinet secretaries in my 
office.''
THE LATEST ON PUERTO RICO:
    --President Trump, who has been criticized for not paying enough 
attention to Puerto Rico following Maria, said there were challenges 
involved in getting food, water and other supplies to the battered 
island because of a ``verybig ocean'' between here and there. Philip 
Bump has the comments:
    ` ``It's very tough, because it's an island,'' Trump said during a 
meeting with members of the House. `In Texas, we can ship the trucks 
right out there.' And you know, we've gotten A-pluses on Texas and on 
Florida, and we will also on Puerto Rico. But the difference is, this 
is an island sitting in the middle of an ocean. And it's a big ocean; 
it's a very big ocean. And we're doing a really good job.' ''
    Later: ``Frankly we're doing--and it's the most difficult job 
because it's on the island--it's on an island in the middle of the 
ocean,'' he said. ``It's out in the ocean. You can't just drive your 
trucks there from other states.''
    Bump says: ``That's true. Instead, supplies must be transported by 
airplane or ship instead of by truck. But that's still not a great 
excuse for why the island is awaiting supplies.''
    --Facts on the ground: The island remains mostly without 
electricity. There are food and water shortages. The faltering 
Guajataca Dam, which has forced evacuations, has not been inspected 
since 2013.
    --Trump said his planned Oct. 3 visit is ``the earliest I can go 
because of the first responders, and we don't want to disrupt the 
relief efforts.''
    --Carmen Yulin Cruz, mayor of the capital City of San Juan, told 
ABC News about the unbearable heat the residents are facing. ``What's 
out there is total devastation. Total annihi1ation. People literally 
gasping for air. I personally have taken people out and put them in 
ambulances because their generator has run out,'' she said.
    Here's an interview the San Juan mayor did with CBS News:
    Here's footage from CNN of flooded streets and lines for gas in 
Puerto Rico:
    And images from Toa Baja, Puerto Rico from the New York Times' Luis 
Ferre-Sadurni:
    --Here's a breakdown on the numbers: FEMA and Federal partners said 
they have so far brought in 4 million meals, 6 million liters of water, 
70,000 tarps, and 15,000 rolls of roof sheeting with 7 million meals 
and 4 million liters of water on its way. It's still not enough.
    Further staggering data from the Department of Defense, per 
BuzzFeed News:

  <bullet> 1.5 million people are without drinking water; 44 percent of 
        the island's 3.4 million people

  <bullet> The local power grid faced damage to So percent of the 
        transmission system and 100 percent of the distribution system

  <bullet> Just 11 of the 69 hospitals have fuel or power

    And from the New York Times a debrief on the status of the 
hospitals on the island.

        The hospitals have been crippled by floods, damage and 
        shortages of diesel. The governor said that 20 of the island's 
        hospitals are in working order. The rest are not operational, 
        and health officials are now trying to determine whether it is 
        because they lack generators, fuel or have suffered structural 
        damage. All five of the hospitals in Arecibo, Puerto Rico's 
        largest city in terms of size, not population, are closed.

        Making matte1&middot;s worse, 911 still does not work, 
        officials said.

    --But Trump refused to ease one regulation on shippers. Following 
Harvey and Irma (which hit Texas and Florida, respectively), the Trump 
administration waived the, Jones Act--which requires all ships 
transporting goods between U.S. shores be owned and manned by U.S. 
citizens--for affected areas.
    The Department of Homeland Security, however, declined to grant an 
exemption for Puerto Rico, where the law has historically driven up the 
costs of goods, according to Jones Act opponents. The department argued 
that the issue wasn't that there weren't enough ships to bring in 
goods--it was that there aren't enough working ports on the island.
    The action drew a rebuke from Sen. John McCain (R-Ariz.), long an 
opponent of the Jones Act, writing in a letter to the administration 
that he is ``very concerned by the Department's decision:''
    --``Logistically challenging:'' During a news conference on 
Tuesday, FEMA administrator Brock Long said the United States is 
''dramatically increasing the federal footprint'' in Puerto Rico 
following the storm. But he noted it was a ``logistically challenging 
and very unique event that the United States has not seen in a very, 
very long time, if ever.''
    ``It's an island. We don't just drive trucks and resources onto an 
island,'' Long said. ``You have to prioritize who accesses the island 
and what you're sending.''
    Watch some of Long's remarks below:
    --Here's a scene-setter from The Post's Samantha Schmidt from 
Morovis when FEMA officials arrived on Monday:

        Manolo Gonzalez, who owns one of the only restaurants in the 
        village in San Lorenzo, near the river. asked FEMA officials 
        for fuel for his generator, so he could power his ice-maker. He 
        hoped to set up his restaurant as a place for local residents 
        to get ice--particularly his diabetic neighbors who are unable 
        to keep their insulin cold.

        Other members of the FEMA team helped replace the utility cable 
        stretching across the river with a stronger wire. But that wire 
        was among the only supplies they would be able to leave with 
        the town: They were unable to cross the river. They brought no 
        food or water and had only minimal medical supplies for 
        emergencies.

    --About that dam: Every single one of the 38 dams in Puerto Rico 
has been rated by the Army Corps of Engineers as having a ``high hazard 
potential,'' reports The Post's Steven Mufson. This particular 120-foot 
Guajataca Dam has not been inspected in four years, and the damage it 
endured after Maria could put tens of thousands of people in danger. 
One dam safety expert told Mufson that the time between inspections was 
surprising,
    ``Since this is clearly a high hazard dam (one for which loss of 
life is likely if the dam were to fail), it would be typical for an 
inspection of some type to be done once every one or two years,'' John 
W. France, vice president for the dams and hydropower technical 
practice of the engineering firm AECOM, told The Post in an e-mail.
    --It will likely take weeks for a formal aid request from lawmakers 
for the territory. Politico reported Tuesday that Senate Minority 
Leader Charles E. Schumer (D-N.Y.) wants an aid package for Puerto Rico 
and the U.S. Virgin Islands this week. But administration aides are not 
sure that timeline is realistic.
    ``The thing is, funding doesn't help them. Getting people and 
supplies there is what needs to happen,'' one administration aide told 
Politico. ``There's no crunch in the short term for cash.''
    --And a Republican warns of a potential ``Katrina-style event:'' 
Sen. Marco Rubio (R-Fla.) sounded off a dire pleas after his visit to 
the territory, saying a ``more aggressive'' federal government response 
was necessary to help with recovery.
    ``We need to lean into this a lot more than we traditionally would 
because Puerto Rico's government says their own capacity has been 
tested by two storms and a fiscal crisis,'' Rubio said at a news 
conference on Tuesday. In an interview with Politico, he urged a prompt 
government response. ``What I'm more concerned about in the next 48 to 
72 hours is ensuring that we don't have a Katrina-style event. I'm not 
claiming that's where we're heading. I'm saying I want to avoid that 
from being even a possibility,'' he said.
    Rubio also expressed concern over the state of area medical 
facilities.

        ``If you have a stroke or heart attack right now in some remote 
        part of Puerto Rico, you're probably going to die. There's no 
        cath labs or open heart surgery happening. I hate to sound 
        alarmist. But having lived through multiple storms and knowing 
        what it's like in overdeveloped communities 72 hours after 
        there's no food or fuel or electricity, imagine being isolated 
        like that for weeks,'' Rubio said.

        ``I hope I am overstating. I am deeply concerned about 
        everything outside of San Juan,'' he said.''We have a couple 
        million people in areas cut off from power and communications 
        for a week, [there are] individuals with refrigerated 
        medications that are spoiled now. We have diabetics who are not 
        getting insulin. We have a food crisis. We have senior citizens 
        who are being challenged.''

    Puerto Rico Gov. Ricardo Rossello tweeted his thanks to former 
Florida Gov. Jeb Bush and former President George H.W. Bush for their 
support:

    --As for the status of Maria itself, which was downgraded to a 
tropical storm on Tuesday afternoon: The storm is expected to slowly 
move away from the U.S. East Coast in the next day or so, the National 
Hurricane Center reports. With the latest advisory, the storm was 
located 145 miles east of Cape Hatteras, N.C. with 70 mph maximum 
sustained winds. Storm surge flooding is expected, ``especially along 
the sound side of the North Carolina Outer Banks,'' according to the 
hurricane center.
    The storm is expected to erode more than half of the sand dunes 
along North Carolina's coast, the Associated Press reports, and beaches 
in Maryland and Virginia ``a could fare even worse, with two-thirds 
seeing erosion and the ocean washing over the dunes on one-third of 
them.'' Officials estimated about 10,000 to 12,000 visitors evacuated 
North Carolina barrier islands of Hatteras and Ocracoke ahead of the 
storm.
                                 ______
                                 

    Zinke says a third of Interior's staff is disloyal to Trump and 
                        promises 'huge' changes

    ``I got 30 percent of the crew that's not loyal to the flag,'' 
Interior Secretary Ryan Zinke said in an address to the oil industry.

                    Darryl Fears and Juliet Pelerine

                                 ______
                                 

 Clinton pressed Trump to deploy hospital ship Comfort to Puerto Rico. 
                       Now it's preparing to go.

    The cry for the USNS Comfort appeared to stand in as a symbol for 
something broader.

                              Dan Lamothe

                                 ______
                                 
THERMOMETER
    --Would it surprise you to hear that this hurricane season broke a 
record? September has produced the most ACE--or Accumulated Cyclone 
Energy--on record in the Atlantic Ocean. ACE, Matthew Cappucci writes 
for The Post, is a measure of every hurricane's energy put together 
during its lifespan.
    Here's some more context:

        In a given year, ACE across the Atlantic Basin stacks up to an 
        average in the 90s. It's not terribly unusual for ACE to rise 
        into the triple digits, and the National Oceanic and 
        Atmospheric Administration classifies any season that tops 111 
        as ``above average.''

    And on Monday, meteorologist Phil Klotzbach from Colorado State 
University tweeted that the ACE in the Atlantic this month was so far 
at 155.4:
    And the hurricane activity could contribute to breaking a record 
for 2017 overall, Cappucci writes: ``Even with the forecast drop-off of 
cyclone activity over the next few weeks, we still may approach record 
territory.''

    The Chairman. Entered without objection.
    And I will add too. I asked UC to submit. There are nine 
letters of support for the nomination of Ann Marie Buerkle.
    Enter those as well without objection.
    [The letters referred to follow:]

                         American Home Furnishings Alliance
                                      High Point, NC, July 26, 2017
Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Thune:

    The American Home Furnishings Alliance (AHFA) is writing in support 
of the Trump Administration's announcement and intent to nominate Ann 
Marie Buerkle to be the Chairman of the Consumer Product Safety 
Commission and to be a Commissioner of the CPSC for a term of seven-
years beginning October 27, 2018.
    The AHFA believes her diverse background as a Congresswoman, 
Assistant Attorney General of New York, and as a registered nurse, 
provide a broad spectrum of experience and expertise that will allow 
her to approach her role of Chairman with balance and pragmatism.
            Respectfully,
                                            Andy S. Counts,
                                           Chief Executive Officer.
                                 ______
                                 
                      National Association of Manufacturers
                                      Washington, DC, July 27, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the National Association of Manufacturers, the largest 
manufacturing association in the United States representing 
manufacturers in every industrial sector and in all 50 states, I 
request that you and your colleagues confirm Ann Marie Buerkle, who 
currently serves as Acting Chairman of the U.S. Consumer Product Safety 
Commission (CPSC), to serve as the permanent Chairman. Throughout her 
service on the Commission, Acting Chairman Buerkle has exhibited an 
unwavering commitment to protecting consumers.
    The CPSC is an independent regulatory agency tasked with regulating 
thousands of consumer products. The Commission wields enormous power 
and significant regulatory authority over a large sector of the 
economy. Manufacturers of consumer products share the CPSC's commitment 
to protecting consumers, and the cooperative relationship between the 
CPSC and its stakeholders is unique in that the Commission and the 
private sector are partners in effectively promoting consumer 
protection. As permanent Chairman of the Commission, Ann Marie Buerkle 
will strengthen this relationship and enhance the CPSC's ability to 
better protect consumers.
    On behalf of our members and for the benefit of consumers, I urge 
you to quickly confirm Acting Chairman Buerkle to serve as permanent 
Chairman. Thank you for your consideration.
            Sincerely,
                                              Erik Glavich,
                               Director, Legal & Regulatory Policy.
                                 ______
                                 
                               Home Furnishings Association
                                      Roseville, CA, August 4, 2017

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington DC.

Dear Chairman Thune,

    The Home Furnishings Association supports the Trump 
Administration's announcement and intent to nominate Ann Marie Buerkle 
to be the permanent Chairman of the Consumer Product Safety Commission 
and the Administration's intent to begin her new seven-year term 
beginning October 27, 2017. In working with Commissioner and now-Acting 
Chairman Buerkle, she has broad experience that will allow her to 
operate CPSC in an effective manner.
            Sincerely,
                                           Sharron Bradley,
                                                               CEO,
                                          Home Furnishings Association.
                                 ______
                                 
                                        Safe Kids Worldwide
                                     Washington, DC, August 4, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We write in strong support of the nomination of Acting Chair Ann 
Marie Buerkle to be Chairman of United States Consumer Product 
Commission (CPSC) and respectfully urge the Committee to confirm her. 
We believe Congresswoman Buerkle possesses the skills and experience 
necessary to lead the CPSC.
    It should come as no surprise that at Safe Kids we place a special 
emphasis on the agency's indispensable role in both improving product 
safety and addressing emerging risks to children posed by new products. 
We believe it was important when Congress directed the CPSC to put 
special emphasis on child product safety. The CPSC is a vital part of 
the indispensable Federal umbrella that protects our kids and helps 
parents do the best they can to keep their kids safe.
    We look forward to working with the Chair to improve the 
effectiveness of this very effective agency. For one, we agree with 
many that the recall process needs to improve. We are encouraged that 
Acting Chairman Buerkle recently committed to working with all 
stakeholders to improve the process at a recall effectiveness workshop 
held by the CPSC in July. We worked hard on the passage of the Virginia 
Graeme Baker Pool & Spa Act, and hope to work with the agency to build 
on its success.
    Acting Chair Buerkle has the range of experiences necessary to lead 
the CPSC at this critical time. She truly understands the concerns of 
parents trying to keep their kids safe because she raised six of her 
own. In addition to her roles in public service as an Assistant State 
Attorney General and U.S. Congresswoman, Ms. Buerkle has served on the 
front lines of health care as a nurse, and many of our grass roots 
leaders around the U.S. have that role in common.
    We are grateful to Acting Chairman Buerkle for her commitment to 
preventing injury and keeping our children safe. She has demonstrated 
strong, inclusive leadership during her time as a Commissioner and now 
as Acting Chairman and we hope you will confirm her so she may continue 
with her efforts to move forward with her vision and goals for the 
CPSC.
            Sincerely,
                                             Torine Creppy,
                                                  Acting President,
                                                   Safe Kids Worldwide.
                                 ______
                                 
                   American of Home Appliance Manufacturers
                                 Washington, DC, September 25, 2017

Hon. John Thune,
United States Senate,
Chairman,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
United States Senate,
Ranking Member
Committee on Commerce, Science, and Transportation,
Washington, DC.

RE: Nomination of Ann Marie Buerkle--Chairman, Consumer Product Safety 
            Commission.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the Association for Home Appliance Manufacturers 
(AHAM), I write in strong support of the nomination of Ann Marie 
Buerkle to Chair the Consumer Product Safety Commission (the 
Commission). Currently, Ms. Buerkle serves as acting-Chair of the 
Commission, has restored agency transparency, and opened the lines of 
communication between all stakeholders and the Commission during her 
brief tenure as acting-Chair.
    AHAM believes that acting-Chair Buerkle brings the requisite level 
of expertise and appreciation of the intersection that exists between 
consumer health and safety and appropriate regulatory response. Serving 
in state and local governments, the U.S. Congress, and as a nurse gives 
acting-Chair Buerkle the capability to carry out the mission of the 
Commission in a fair and equitable manner.
    The experience that AHAM has had in working with the acting-Chair 
bears this out. Acting-Chair Buerkle was instrumental in allocating 
resources so that Commission staff were able to engage with the 
Underwriters Laboratories (UL) to evaluate safety standards for 
alternative refrigerants that have very low Global Warming Potential. 
In fact, she has been broadly supportive of work to proactively improve 
upon voluntary standards. In addition, she has shown support for 
engaging with AHAM on stopping the import of potentially dangerous 
counterfeit water filters for refrigerators. These are merely a few 
reasons AHAM strongly supports acting-Chair Buerkle's nomination to 
become the next Chair of the Commission and urge her quick 
confirmation.
    Chairman Thune and Ranking Member Nelson, thank you for considering 
the views of the home appliance industry as you evaluate acting-Chair 
Buerkle's nomination. We urge the Committee's strong support and that 
her nomination be submitted favorably to the U.S. Senate for 
confirmation.
            Sincerely,
                                         Joseph M. McGuire,
                                                 President and CEO.
                                 ______
                                 
                       Upholstered Furniture Action Council
                                 High Point, NC, September 26, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We wish to express our support for the confirmation of Ann Marie 
Buerkle, who currently serves as Acting Chairman of the U.S. Consumer 
Product Safety Commission (CPSC), to serve as the permanent Chairman.
    In her years of service on the Commission, Acting Chairman Buerkle 
has impressed our organization and our membership with her dedication 
to protecting consumers and her willingness to listen and consider all 
points of view in making thoughtful, well-reasoned, and data-driven 
decisions.
    The Upholstered Furniture Action Council (UFAC) was founded in 1978 
by manufacturers to develop and design construction for upholstered 
furniture to make the furniture more resistant to ignition from 
smoldering cigarettes, which has been the leading cause of upholstery 
fires in the home. Household fires from smoldering ignition have been 
reduced substantially since its inception. According to the latest 
figures there has been a 79.3 percent decline in the number of 
upholstered furniture fires from cigarette ignition. UFAC is proud of 
its work contributing, in part, to that dramatic decline.
    The complexity of furniture construction and the disparities in 
available fire-ignition data from fire departments around the country 
demand that Commissioners at the CPSC be fully engaged and willing to 
carefully parse and dissect the complex technical data used to inform 
policymaking. Acting Chairman Buerkle has consistently engaged with the 
furniture industry, consumer groups, firefighters, and others in 
continuing to promote decision-making that protects consumers and 
recognizes the complex nature of furniture design, construction, and 
performance.
    Acting Chairman Buerkle has demonstrated time and again her 
willingness to collaborate with all interested stakeholders to promote 
effective consumer protection. As permanent Chairman of the Commission, 
we believe that Ann Marie Buerkle will continue to raise the level of 
discourse using data-based, science-driven decision making that 
American consumers expect.
    On behalf of our members and for the benefit of consumers, we urge 
you to confirm Acting Chairman Buerkle to serve as permanent Chairman. 
Thank you for your consideration.
            Sincerely,
                                               Don Coleman,
                                                         President.
                                 ______
                                 
                        Retail Industry Leaders Association
                                  Arlington, VA, September 26, 2017

Hon. John R. Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Thank you for holding a hearing on the President's nominee to the 
chairmanship of the Consumer Product Safety Commission (CPSC), Ann 
Marie Buerkle. The Retail Industry Leaders Association (RlLA) fully 
supports Ms. Buerkle's confirmation as permanent Chairman of the CPSC.
    By way of background, RlLA is the trade association of the world's 
largest and most innovative retail companies. RILA members include more 
than 200 retailers, product manufacturers, and service suppliers, which 
together account for more than $1.5 trillion in annual sales, millions 
of American jobs and more than 100,000 stores, manufacturing facilities 
and distribution centers domestically and abroad.
    The CPSC has the critically important mission of protecting 
consumers and ensuring the safety of consumer products sold in the U.S. 
marketplace. RlLA members share the CPSC's commitment to safety and 
have worked cooperatively with the Commission to address consumer 
product safety issues in areas of import surveillance, incident data 
collection through retailer reporting programs, third-party product 
recalls, and consumer education efforts. Inherent to its safety 
mission, the CPSC wields significant power over a large sector of the 
U.S. economy, including product manufacturers, service providers, and 
retailers. It is important that the CPSC develop common sense solutions 
to address product safety issues. Ms. Buerkle, throughout her time at 
the CPSC, has been a tireless advocate for regulatory approaches that 
are science-based and data-driven with a priority on stakeholder 
collaboration. As permanent Chairman, she will further strengthen the 
agency's ability to develop comprehensive solutions that protect 
consumers.
    We strongly encourage the Senate to swiftly confirm Ms. Buerkle, 
and we look forward to a smooth confirmation process. Thank you for 
your consideration.
            Sincerely,
                                         Kathleen McGuigan,
                    Senior Vice President & Deputy General Counsel.
                                 ______
                                 
                              Polyurethane Foam Association
                                     Loudon, TN, September 26, 2017

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Bill Nelson,
Ranking Member
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The Polyurethane Foam Association (PFA) requests that you and your 
colleagues confirm Ann Marie Buerkle, who currently serves as Acting 
Chairman of the U.S. Consumer Product Safety Commission (CPSC), to 
serve as the permanent Chairman.
    PFA has a long track record of informed engagement in product 
safety issues, sponsoring research, participating in inter-lab studies, 
and working constructively with government agencies, NGOs and standard 
organizations. In our experience, Commissioner Buerkle stands out as 
one of the most knowledgeable CPSC commissioners. She has taken time to 
become familiar with the often technical details of product regulatory 
issues, and has demonstrated a commitment to hear all sides of these 
complex matters to achieve science-based solutions.
    PFA believes Commissioner Buerkle is equipped to provide excellent 
leadership of the agency.
    Please contact me if I can be of further support to her nomination.
            Sincerely,
                                               Bob Luedeka,
                                                Executive Director.
                                 ______
                                 
                                                 September 26, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The undersigned organizations request that you and your colleagues 
confirm Ann Marie Buerkle, who currently serves as Acting Chairman of 
the U.S. Consumer Product Safety Commission (CPSC), to serve as the 
permanent Chairman. Throughout her service on the Commission, Acting 
Chairman Buerkle has exhibited an unwavering commitment to protecting 
consumers.
    The CPSC is an independent regulatory agency tasked with regulating 
thousands of consumer products. The Commission wields enormous power 
and significant regulatory authority over a large sector of the 
economy. Our members share the CPSC's commitment to protecting 
consumers, and the cooperative relationship between the CPSC and its 
stakeholders is unique in that the Commission and the private sector 
are partners in effectively promoting consumer protection. As permanent 
Chairman of the Commission, Ann Marie Buerkle will strengthen this 
relationship and enhance the CPSC's ability to better protect 
consumers.
    On behalf of our members and for the benefit of consumers, we urge 
you to confirm Acting Chairman Buerkle to serve as permanent Chairman. 
Thank you for your consideration.
            Sincerely,

Air-Conditioning, Heating, and Refrigeration Institute
American Apparel & Footwear Association
American Chemistry Council
American Cleaning Institute
American Fiber Manufacturers Association
American Home Furnishings Alliance
American Pyrotechnics Association
American Supply Association
Architectural Woodwork Institute
The Art and Creative Materials Institute
Associated Builders and Contractors
Association of Home Appliance Manufacturers
Baby Carrier Industry Alliance
Bicycle Product Suppliers Association
Builders Hardware Manufacturers Association
Consumer Healthcare Products Association
Consumer Specialty Products Association
Cookware Manufacturers Association
Fashion Accessories Shippers Association
Fashion Jewelry & Accessories Trade Association
Footwear Distributors & Retailers of America
Gemini Shippers Association
Halloween Industry Association
Home Furnishings Association
INDA, Association of the Nonwoven Fabrics Industry
Information Technology Industry Council
Institute of Scrap Recycling Industries
International Light Transportation Association, Inc.
International Sleep Products Association
International Wood Products Association
IPC--Association Connecting Electronics Industries
Juvenile Products Manufacturers Association
Kitchen Cabinet Manufacturers Association
Lighter Association
Mississippi Manufacturers Association
National Association of Manufacturers
National Association of Printing Ink Manufacturers
National Candle Association
National Confectioners Association
National Council of Textile Organizations
National Glass Association
National Retail Federation
North Carolina Chamber
Off-Road Business Association
Outdoor Industry Association
Outdoor Power Equipment Institute
Plastic Shipping Container Institute
Plastics Industry Association
Polyurethane Foam Association
Portable Fuel Container Manufacturers Association
Portable Generators Manufacturers' Association
Power Tool Institute
Printing Industries of America
Recreational Off-Highway Vehicle Association
Specialty Equipment Market Association
Specialty Graphic Imaging Association
Specialty Vehicle Institute of America
Sports & Fitness Industry Association
Synthetic Turf Council
The Toy Association
Travel Goods Association
Upholstered Furniture Action Council
The Vinyl Institute
Window Covering Manufacturers Association
Wisconsin Manufacturers & Commerce
Writing Instrument Manufacturers Association

    The Chairman. Senator Nelson.
    Senator Nelson. Thank you.
    In my opening comments, I mentioned that one of the 
tragedies of a hurricane is the aftermath and the deaths of 11 
people just in Florida from carbon monoxide poisoning as a 
result of generators. No telling what we are going to see with 
the situation being where they are expecting maybe nine months 
without power in Puerto Rico.
    The deaths included children. You get into a closed room 
and you do not have a lot of minutes before you are overcome 
with a generator pumping out CO<INF>2</INF>.
    Now, last fall, the CPSC voted 4-to-1 to come forth with a 
new standard by a design which would eliminate a good portion 
of the carbon monoxide put out, therefore lengthening the 
number of time--in a report from the Committee--to 96 minutes 
in a closed room that you would have a chance to get out 
without being overcome.
    Ms. Buerkle, you were the one vote against that rule. Do 
you want to explain it?
    Ms. Buerkle. Yes. Thank you very much, Senator Nelson. 
Thank you for your question.
    As you pointed out in your opening statement, the portable 
generators have such a value because they save lives, and in 
the other end, they can kill people because of carbon monoxide 
poisoning.
    I voted against it because I think there is a 
jurisdictional issue with the EPA, as they control emissions. 
But I am very pleased to tell you this morning that the agency, 
since we began rulemaking, our agency is as engaged now as it 
has ever been on this issue.
    As we speak, Commissioner Kaye and Commissioner Adler are 
out visiting the manufacturers out in Wisconsin. Our staff has 
been out there. They have had tech to tech meetings. I have 
been out there. I was out there in June and I know that 
Commissioner Mohorovic was and Commissioner Robinson.
    The commissioners, this is the most, I would say, the issue 
that the agency is most highly engaged in.
    Senator Nelson. OK. Let me just cut through this because 
time is expiring.
    You are saying that you voted against it for the reason 
that you think that the EPA has the jurisdiction?
    Ms. Buerkle. I do, and the reason I am optimistic is 
because currently, as we speak, industry and the consumer 
groups and our staff have come together, and they have 
developed, what I believe, will be a more effective technology. 
Hopefully, it will be balloted.
    Senator Nelson. You are talking about a shutoff valve?
    Ms. Buerkle. I am talking about the shutoff valve.
    Senator Nelson. OK.
    Ms. Buerkle. That is correct.
    Senator Nelson. Now, let us get into that because your 
agency, the CPSC, is for consumer safety. The EPA looks at 
clean air.
    And I have the conversation going back and forth between 
you and the head of the EPA, Scott Pruitt. In your letter, 
pointing out that the industry trade association is developing 
a voluntary standard that would require portable generators to 
shut themselves off if the carbon monoxide gets too high.
    And I quote from your letter of August 16, 2017, ``The 
manufacturers believe that the shutoff approach will actually 
be more effective.'' And you go on to say, ``I hope the 
industry trade association will be able to finalize a standard 
quickly making it unnecessary for your agency to regulate.''
    A voluntary standard of a shutoff, a voluntary standard 
versus one that would reduce the amount of carbon dioxide as 
carbon monoxide as proffered by your agency of which you are 
going to be the Chairman. You take that approach?
    Ms. Buerkle. I am not sure I understand your question, but 
I can explain my thinking on this issue. I think, and our staff 
agrees--this is not my opinion. I am not a scientist, but our 
staff has been out to the manufacturers and the belief is that 
this shutoff technology, because it will absolutely cut off the 
CO<INF>2</INF>----
    Senator Nelson. I understand.
    Ms. Buerkle.--will be more effective.
    Senator Nelson. But that is a voluntary standard.
    Ms. Buerkle. Well, sir.
    Senator Nelson. So you want to leave it up to the EPA to do 
a voluntary standard instead of CPSC, your agency----
    Ms. Buerkle. Oh, no.
    Senator Nelson.--looking out for their safety?
    Ms. Buerkle. No, sir. Our agency would be doing the 
voluntary standard. Our staff participates in the voluntary 
standard process. With the shutoff technology, the EPA is out 
of the picture because there is no jurisdictional issue.
    The shutoff technology, our staff would be doing the 
voluntary standard work. And voluntary standards are what 
Congress has directed us to do. It is the opportunity where we 
have consensus building. And I am so encouraged because the 
industry, WCMA, has said to us, ``We think we can ballot this 
voluntary standard by the end of this year.'' That is far 
quicker than we could ever get a mandatory standard in place.
    Senator Nelson. I am certainly trying to give you the time 
to answer, but basically your answer is you want a voluntary 
standard that is proffered by the EPA instead of your agency as 
indicated in your letter, instead of the promising technology 
that would be a requirement.
    And I just point out to you, Ms. Buerkle, there are 11 
deaths already and that is just in my state. How many more 
deaths in the aftermath of this hurricane are we going to have 
to see before we finally get the regulatory process of the U.S. 
Government off its posterior and start doing something about 
protecting the safety, in fact, of the people, the consumers, 
who have a huge desire now to buy generators? That if we have 
another hurricane season like this year next year, how many 
more deaths?
    What other kinds of regulatory matters do you intend to 
coordinate with the EPA as you have indicated in this letter 
basically ceding your jurisdiction to the EPA? What other 
regulatory matters do you have in mind?
    Ms. Buerkle. Senator Nelson, just to clarify, the voluntary 
standards work, and the shutoff technology, and all the work 
that is being done at this present moment is being done by the 
Consumer Product Safety Commission.
    The issue arose regarding the jurisdictional issue when it 
came to the shutoff technology and whether or not we have 
jurisdiction over emissions.
    And so with this technology that we are taking about, the 
shutoff technology, which potentially has the ability to be 
even more effective than the low emission CO<INF>2</INF>, I 
think that if the CPSC has jurisdiction, we will control that 
voluntary standards process along with the other members of 
that group.
    Senator Nelson. Well, having said that, would you vote for 
a mandatory shutoff valve in the CPSC?
    Ms. Buerkle. I would have to see the proposed rule, but 
currently, there is no mandatory standard being proposed to the 
shutoff technology.
    I think that the most expeditious route is this voluntary 
standard that we can have a ballot out--well, I cannot--but 
WCMA and the industry and the voluntary standards committee can 
have a ballot out by the end of this year. That is far quicker, 
and sooner, and more efficient than we could ever promulgate a 
mandatory standard.
    Senator Nelson. So, a voluntary standard would mean that 
the manufacturers, which is what they want, as indicated by 
your letter to the EPA, they want a voluntary standard, which 
means that the manufacturers would not do it because it is 
voluntary. You are not requiring them to.
    So how many more deaths from generators in the aftermath of 
hurricanes are we going to have to see before the Consumer 
Product Safety Commission looking out for consumer safety 
finally gets around to saying, ``Enough,''?
    Ms. Buerkle. Senator, with all due respect, our agency 
could not be more engaged on this issue and our staff has been 
out there, as I mentioned, commissioners are out there. This is 
an issue that is front, first and foremost for the agency.
    We understand the hazard, but we believe, and it is not me, 
again, it is the staff, that if the shutoff technology can be 
potentially more effective. And so, it is certainly the most 
expedient way to proceed with this hazard in order to address 
it as quickly as we can rather than the mandatory standard.
    Senator Nelson. Ms. Buerkle, are you hiring a General 
Counsel that is the Vice President of the Portable Generator 
Manufacturers Association, one of the main opponents of the 
rule that was promulgated? Is that going to be your General 
Counsel?
    Ms. Buerkle. At this time, she is a candidate for the 
office of general counsel. She has not been approved by the 
Commission.
    Senator Nelson. What is your intent?
    Ms. Buerkle. Well, quite frankly, it is up to my colleagues 
to make the choice. The commissioners vote on any candidate 
that I might have for the general counsel position.
    Senator Nelson. Will you argue for her hiring?
    Ms. Buerkle. I am the one that suggested her name.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Senator Nelson.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Elliott, the Pipeline Safety Act of 2011 included 42 
mandates related to studies, rules, maps, and other regulatory 
proceedings at PHMSA. And to date, only 30 of those 42 mandates 
have been completed and a lot of deadlines have been missed.
    For example, PHMSA is late in issuing mandates regarding 
shutoff valves, leak detection, accident notification, among 
many others.
    If confirmed, what would you do to ensure that these 
mandates are completed?
    Mr. Elliott. Senator, thank you for the question.
    I fully understand the importance of all these 
congressional mandates. And at least in the discussions I have 
had early on with the PHMSA staff, I know they understand the 
importance of those congressional mandates as well.
    If I am confirmed, one of the top priorities will be to 
work with PHMSA staff and work with members of this Committee 
to fully understand which of those mandates are the most 
critical. So perhaps we can identify those and move those 
forward off the table to ensure that those that have the 
greatest impact to safety can be completed.
    Obviously, we have a lot of work ahead of us, but I am 
excited for the opportunity, if confirmed, to get in. I will 
learn more about the issues, work more with members of this 
Committee, and move forward in completing those mandates.
    Senator Fischer. I realize you are not in the position yet, 
but there are 12 mandates that are late.
    Do you think it is a staffing issue? Is it a case of not 
enough staff? Is it a case of putting the focus elsewhere?
    They all need to be done. I appreciate you wanting to 
prioritize certain ones, but they all have to be done and they 
are all late.
    Any other ideas?
    Mr. Elliott. Well, if confirmed, what I would really like 
to do is go in and see how each one of those mandates are being 
handled, whether or not there was an attempt to try and 
compress or bundle mandates together. Should we separate the 
important ones out and move those forward?
    I really need to get in and understand more of how each one 
of those uncompleted mandates are being handled, and again, 
learning more from members of this Committee about the 
importance of each one that you hold near and dear to your 
heart.
    Senator Fischer. OK. PHMSA has struggled to fill in and 
keep inspectors on pipelines.
    Senator Booker and I, with the support of our Subcommittee, 
but also the Full Committee, we passed the SAFE PIPES Act that 
requires more inspectors to make sure that we do have safe 
pipelines.
    Will you work to ensure that PHMSA has the staff necessary 
so that they can complete the inspection requirements that they 
are under?
    Mr. Elliott. Yes, I think it is well known that, first and 
foremost, PHMSA has some tremendously talented people out in 
the field. Many of the field inspectors are engineers and they 
compete with the issues in private industries.
    One of the frustrations is the process of hiring at the 
Government level. So we are going to look, if confirmed, to 
figure out how we can compress that timeline so people do not 
get frustrated in the process.
    Again, in kind of the brief discussions I have had with 
PHMSA, one thing that I came away with is just how unbelievably 
good they feel about the quality of the staff that they do 
have, both here at headquarters and in the field. If confirmed, 
I really look forward to getting to know those teams, both here 
and in the field more.
    And again, to your point, to figure out how we can 
aggressively recruit and fill any openings that we might have 
for these very, very important jobs.
    Senator Fischer. OK.
    Some of our stakeholders have raised concerns with the 
rulemaking process that we have at PHMSA and they argue that 
PHMSA has attempted to merge what could be several different 
rulemakings into one mega rule. The result has been that rules 
are delayed by years and the stakeholders are being left out of 
the process.
    What will you do to ensure that PHMSA has a more efficient 
and a more transparent rulemaking process?
    Mr. Elliott. And again, Senator, thank you for the 
question.
    First and foremost, if confirmed, my focus is going to be 
aggressively pursuing those mandates, those regulations that 
deliver the greatest safety, whether or not it is on pipeline 
distribution or surface transportation, rail, highway, air, 
water.
    I think similar to what I responded to your question about 
the mandates is that we have to basically peel back each 
individual regulation and find those that deliver the greatest 
safety measures to the public and to the transporting folks in 
the United States, and work hard to get those regulations in 
place.
    I think it is fair to say that when you look at the 
mandates, when you look at the regulations, there is probably a 
prioritization that can be done. But those that deliver the 
greatest safety benefits are the ones that, if confirmed, I 
hope to work hard to move forward.
    Senator Fischer. OK. Thank you.
    Mr. Elliott. Thank you, Senator.
    The Chairman. Thank you, Senator Fischer.
    Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Buerkle, let me address a little friendlier 
jurisdiction question to you.
    Last week, the Consumer Product Safety Commission set a 
major, new precedent by granting a petition to ban the use of 
an entire class of chemicals, organohalogen, which is a flame 
retardant. In taking the action, I believe the Commission is 
moving to regulate what the EPA is better equipped to review.
    With the passage of TSCA, and you are very familiar with 
that, and I was the author. In fact, all nine members of this 
committee, who are also on Environment and Public Works, 
supported it. A flame retardant chemical is one of the first 
ten priority substances to be evaluated by the EPA.
    So I would ask you the question, who do you think is better 
equipped to take the lead on the review of organohalogen flame 
retardants, the Commission or the EPA?
    Ms. Buerkle. Thank you, Senator Inhofe.
    My belief is that--and we partner with EPA on many 
different issues--but in this situation, given the resources 
and the amount of staff that the EPA has, I think they are in a 
better position to handle this issue that I did not disagree 
with because I do not think we should be in the business of 
banning classes of chemicals. We should be looking at chemicals 
individually. And I think in this instance, EPA certainly, from 
a resource perspective, certainly has the resources.
    Senator Inhofe. And a talent perspective because that was 
considered to be the first major environmental achievement in 
the last decade. We were all very proud and very much 
bipartisan, I might add.
    Ms. Buerkle. Thank you. And you should be.
    Senator Inhofe. Yes.
    Ms. Buerkle. It was quite an accomplishment.
    Senator Inhofe. Dr. Gallaudet, with your background as a 
naval officer, you know how important it is to have accurate 
weather predictions.
    I am sure that you are familiar with the Oklahoma 
University, the National Weather Center and the National Severe 
Storms Laboratory. We have a very strong presence and a lot of 
talent there.
    What are some of the ways that you would work to ensure 
that NOAA can continue to focus on this mission?
    But before answering that, are you familiar with what we 
are doing at Oklahoma University?
    Admiral Gallaudet. Yes, Senator. Very, very much. In my 
last job, my deputy commander was a graduate of Oklahoma.
    Senator Inhofe. I am aware of that, yes.
    [Laughter.]
    Admiral Gallaudet. Thank you for your question.
    What is terrific about the Weather Research and Forecasting 
Innovation Act is it calls out specifically improving our 
tornado warning, severe storm warning, hurricane warnings as 
well as forecasting.
    And so, I see a great opportunity to implement the 
provisions of that Act----
    Senator Inhofe. Good.
    Admiral Gallaudet.--specifically with respect to severe 
storm warnings.
    Senator Inhofe. Yes. We hear a lot of talk about the 
tragedy of the hurricanes recently, but we are used to 
tornadoes. What they have done now is just miraculous in their 
prediction capabilities there. I am very proud of them.
    Mr. Elliott, you have had a long career and have seen the 
day to day operations in moving hazardous material on 
railroads. And you have seen firsthand how the new technology, 
and new designs, and new materials contribute to improving the 
safety of transporting hazardous materials.
    How would you, as the PHMSA Administrator, encourage the 
development and use in the field of new technology designs and 
materials in support of their safety and mission?
    Mr. Elliott. Thank you for that question, Senator Inhofe.
    There is probably one great benefit of being a long-tenured 
railroad employee is that you have seen how much technology has 
really improved safety and efficiency in that industry.
    Senator Inhofe. Yes, in your discussion with us, we really 
do appreciate the fact that you have. I do not know of anyone 
who could have a better background than you have.
    Mr. Elliott. Well, thank you. I always made a point of 
every new employee that came to work in my group to talk to 
them, and one of the points I always made, I told them that I 
was envious of them.
    I wish I were younger so I could start my career all over 
again. Not because of my time on the railroad, but because of 
what I see will be the advancements over the next 5 to 10 to 15 
years in technology, automation, research, and development that 
will promote safety.
    So to your question, how would I, if I am confirmed, 
promote that as the Administrator of PHMSA? I think it is 
absolutely critical. Again, I will talk perhaps from the 
industry I know best, the railroad, but I really do believe it 
is a perfect storm of safety.
    I really do believe with some of the work that is being 
done now in some of the research labs that many of the causes 
of some of the major incidents that we see today--and it is not 
just the railroad, but the pipeline industry is following this 
too--we will be able to identify and allow for correction of 
defects and deficiencies long before they can ever turn into a 
catastrophic incident.
    Senator Inhofe. Yes.
    Mr. Elliott. I think one of the important roles of PHMSA 
working with our colleagues at the Federal Railroad 
Administration is to continually promote the advancements that 
research and development, that automation, that technology, 
that innovation so that we can see the results of all of that 
great work in the not too near distance future.
    Senator Inhofe. Well, that is good. Well, Mr. Elliott, I 
wish I were younger, again, but not necessarily to start a new 
career all over again.
    [Laughter.]
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Elliott. Thank you, Senator.
    The Chairman. Thank you, Senator Inhofe.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Senator Thune.
    Congratulations to all of you.
    Ms. Buerkle, I will start with some of your issues, since I 
have been really involved in consumer issues, as you know. One 
of the things that I have worked on with a family in Minnesota 
is the issue of the MALM dresser, the IKEA dresser that fell 
over on little Teddy McGee, 22-month-old, from Apple Valley. I 
have gotten to know his parents.
    As you know the story, June 2016 after three deaths like 
this and literally the dresser was just there. He pulled it 
down. IKEA stopped selling the dressers and issued a recall of 
29 million of them, the biggest in our Nation's history.
    Earlier this month, the CPSC issued a recall on another set 
of dressers over similar issues.
    What steps would you take to improve CPSC communications 
with consumers when we know originally a notice had gone out on 
this, but they did not know it? And so, how can we improve that 
situation?
    Ms. Buerkle. Thank you, Senator Klobuchar.
    Recall effectiveness has been a long, difficult issue to 
deal with and it is difficult to measure. We recently just had 
a workshop about this and how can we get to the consumer? How 
can we have them pay attention?
    We recently had a number of focus groups, the issue of the 
recall, the MALM dresser recall was brought up. Each and every 
one of those participants knew about the recall, but did not 
participate and did not return it.
    So how do we get the consumer to respond to all of the 
options that are being offered in a recall? That is a 
challenge, but the agency and the staff has done just a 
remarkable job. Having a workshop, there was a high level of 
engagement and we will proceed from there to begin to address 
how we can get the consumer more engaged.
    And certainly, technology is on our side. There are 
development of applications that can begin to give the consumer 
direct notice that a recall is occurring on a product that they 
might have.
    Senator Klobuchar. It just seems in today's world, there 
has to be a way to figure it out.
    In July 2016, the CPSC announced after their investigation, 
there were close to 100 incidents of hover board fires and that 
they were recalling 500,000 hover boards made by ten different 
manufacturers.
    As you know, they caused fires, caused deaths. In many 
cases, malfunctioning lithium ion battery packs were the cause 
of the overheating, and these are common, as we know, in 
children's toys.
    What steps is the CPSC taking to ensure low cost, imported 
lithium ion battery packs are safe for consumers?
    Ms. Buerkle. Thank you.
    The agency has made a priority of lithium ion batteries and 
we are using a multipronged approach. Our staff is very 
involved in the voluntary standards process. Staff is involved, 
both domestically and internationally, regarding education.
    Because this is a product that transcends--it was in hover 
boards. It has been in phones--and it transcends across product 
lines. So our staff is highly engaged.
    At midyear, we designated quite a large amount of funds, 
considering our budget, to deal with this issue and to pay 
close attention to it.
    Senator Klobuchar. Thank you.
    One thing that I will not ask about, but just for you to 
keep in your mind, is the swimming pool safety with the drains. 
That is a bill that we passed here and I worked with Senators 
Pryor and Stevens at the time, and we are really proud of that 
work.
    I know two years ago with the Consumer Product Safety 
Commission, we had not heard of any deaths since that passed, 
which was extraordinary given what we had been seeing before. 
And some of it was education efforts and the agency was really 
involved in that, and then some of it was, of course, the 
Taylor family from Minnesota and others who have really been 
out there on it. I think it is a good, positive result without 
costing that much money.
    Ms. Buerkle. Yes, and thank you for your support on that 
because that is one of our hallmark educational campaigns. That 
is probably one of the broadest campaigns we have.
    Thank you.
    Senator Klobuchar. Thank you. That is good to hear.
    Dr. Copan, I am the co-chair of the NextGen 9-1-1 Caucus in 
the Senate with Senator Burr and we know how important it is to 
get our first responders the information they need. As FirstNet 
is being deployed, NIST will play an important role in 
supporting the development of new communications.
    What actions will you take to help ensure FirstNet is able 
to provide reliable priority service to first responders?
    Dr. Copan. Thank you very much for that question, Senator.
    I believe, indeed, NIST's role there in understanding the 
allocation of spectrum and the supporting technologies for 
FirstNet is a high priority for the NIST organization.
    I look forward to being fully briefed on the situation, and 
will do whatever is necessary to ensure that appropriate steps 
are taken, and I look forward to working with you and this 
Committee.
    Senator Klobuchar. I am out of time, but Mr. Elliott, on 
the record, I will ask you some questions. Minnesota is at a 
very key point there of, as you know, materials coming in from 
North Dakota, Canada.
    Mr. Elliott. Yes.
    Senator Klobuchar. A lot of train travel, pipelines, and so 
put some questions on the record. We have had some rail safety 
issues and I have worked with the past agencies on this. So I 
appreciate hearing from you via writing or we will come and 
talk in my office.
    Mr. Elliott. Appreciate that.
    Senator Klobuchar. All right. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Next up, Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Thank you all. Welcome. And thank you for your willingness 
to serve.
    Let me start, Ms. Buerkle. I know that the CPSC is focused 
on particularly products that create an immediate physical risk 
of serious injury or death, and we have talked a little bit 
about them today.
    Have you thought about where your interests, though, need 
to be expanded, when we are talking about this new 
technological age? And I agree with you. I tell my nieces and 
nephews all the time, I wish I was part of their generation, 
because it is an exciting time.
    But with the Internet of things, with digital products, are 
you prepared or is your staff prepared to also start taking a 
look at and expanding into those product areas as well?
    Ms. Buerkle. Thank you for that question.
    And we are beginning our inquiry. Dr. Borlase, who is the 
head of our Hazard Identification Unit and he directs it, he 
presents on this topic. But understanding how it will change 
the way we look at products. It will change the way we do 
recalls. There are so many aspects of this.
    But yes, it is something that we are paying attention to 
and will look to invest some funds into it so we can be 
prepared. Again, 3-D technology another emerging hazard----
    Senator Cortez Masto. Right.
    Ms. Buerkle.--associated with the development of 
technologies.
    Senator Cortez Masto. Great. That is great to hear. Thank 
you.
    And then Admiral, pronounce your last name for me.
    Admiral Gallaudet. It is Gallaudet, Senator.
    Senator Cortez Masto. Gallaudet. Thank you very much.
    The National Weather Service plays an indispensable role in 
protecting people from both routine and severe weather events 
around the country. Every year, as we know, lives are saved 
thanks to timely and accurate forecasts provided by the skilled 
forecasters.
    As the Weather Service continues to evolve, it is critical 
that all decisions that may impact its ability to provide 
reliable forecasts be transparent, supported by evidence, and 
not result in the degradation of the current services.
    Last week, in response to an inquiry by my colleagues in 
the House, the National Weather Service publicly released a 
number of documents related to its operations and workforce 
analysis. And recently, I have spoken with one of my 
colleagues, Congressman Tonko, that many questions still remain 
that need to be answered.
    Will you commit to fully providing all of the materials 
requested so that we can all be certain that proposed actions 
are indeed supported by evidence and will not result in a 
degradation of current services and unnecessary impacts on the 
NWS workforce?
    Admiral Gallaudet. Senator, thank you for the question.
    And absolutely, we will be very transparent, if I am 
confirmed, in how we are running the Weather Service and 
evolving it, and executing their evolved program right now, 
which I think is terrific, under the larger umbrella of 
implementing the Weather Research and Forecasting Innovation 
Act.
    Senator Cortez Masto. And you will commit to fully 
providing all of the material to my colleagues in the House and 
continue to work with them?
    Admiral Gallaudet. We will provide information as required 
by the House and others who are interested in seeing the 
Weather Service do the best it can.
    Senator Cortez Masto. Thank you. I appreciate that.
    Mr. Elliott, as you likely know, the NTSB has studied and 
identified 148 rail safety incidents, many major disasters, 
which were preventable if the PTC technology were in place.
    Given the lack of implementation of these technologies, 
would you feel comfortable transporting nuclear waste through 
communities and across the country before we have even proved 
our safety technology?
    I raise this because a recent study had noted that 44 
states and over 300 congressional districts could see nuclear 
waste transported through their backyards, many of which do not 
have any waste in their communities.
    Mr. Elliott. Senator, thank you for the question.
    If confirmed, one of the items I am really interested in 
getting into is the result of the National Academy of Science's 
study on ECP brakes, understanding, too, that there is some 
interrelationship with our colleagues over at FRA.
    You bring up an interesting topic on spent nuclear fuel. 
Again, having a long tenure, I actually remember it has been 
12, 15 years when we had the West Valley move out of New York 
that was actually the test bed of moving spent nuclear fuel 
casks from the East Coast out to the West Coast repositories.
    If confirmed as PHMSA Administrator, I look forward to 
working with you and your staff to understand all of the 
concerns and issues, and looking at all of the recommended 
technology in moving these cask shipments when that day comes, 
and I do believe that it will come.
    Senator Cortez Masto. Well, we are doing everything to 
prevent it because my concern is just that; the technology is 
not there.
    And I also question, after some of the conversation today, 
where first responders and the training that is going to be 
necessary should there be, God forbid, some accident along the 
way. I think that is going to be part of your role as well, and 
that is why I asked the question.
    I do not think it is a foregone conclusion, but at the same 
time, I think we need to understand that there are so many 
communities that are involved and would be involved. And so, we 
really have to be smart about what we are doing here for the 
future.
    So I would look forward to working with you.
    Mr. Elliott. Thank you, Senator.
    Senator Cortez Masto. Thank you.
    I notice my time is just about up. So I would just submit 
the rest of my questions for the record as well.
    Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Mr. Elliott, aging, leaking natural gas distribution 
pipelines cost consumers billions of dollars, contribute to 
global warming, and pose a threat to public health, and safety, 
and the environment.
    Over the past decade, consumers nationwide have paid 
roughly $20 billion and Massachusetts may contribute $1.5 
billion to that problem, just in natural gas leaking out of 
old, aging pipelines. So that natural gas never is received by 
consumers, and yet, they are paying for it.
    So the work on actually repairing aging pipelines could 
create more than 300,000 good paying jobs, according to the AFL 
and the Blue-Green Alliance.
    The PIPES Act, that passed through this Committee and 
signed into law last year, included two provisions, which I 
authored, directing PHMSA to evaluate reporting requirements 
for leaks from natural gas distribution pipelines, as well as 
State level policies that may create incentives or barriers to 
repairing and replacing leaking natural gas pipelines.
    As a result of those requirements, number one, PHMSA 
concluded that it should harmonize its reporting requirements 
for lost and unaccounted-for natural gas with the Energy 
Information Administration.
    Will you commit to completing that harmonization swiftly, 
Mr. Elliott?
    Mr. Elliott. Well, Senator Markey, first of all, I would 
like to thank you and your staff. When we met last week, it was 
really my first exposure to the topic of lost and unaccounted-
for natural gas. So I do want to thank you for that education.
    Senator Markey. Well, thank you.
    Mr. Elliott. And I do know that report has been submitted 
to you and Congress.
    If I am confirmed, I look forward to more aggressively 
looking into this topic.
    Senator Markey. But will you commit to completing the 
harmonization swiftly?
    Mr. Elliott. If I am confirmed as PHMSA Administrator I 
will look into this with great haste. I look forward to working 
with you and your committee to better understand all of the 
issues.
    Senator Markey. No, I appreciate that. But we are already 
far down the track here and this harmonization is absolutely 
critical. So I wish ``yes'' was the answer.
    PHMSA also found that nearly half of states want an ability 
to accelerate repairs and replacement of pipelines to improve 
safety. PHMSA plans an additional study to determine if more 
requirements to repair all leaks would improve safety.
    Will you commit to completing that study in a timely 
fashion?
    Mr. Elliott. Again, Senator, I look forward to being 
confirmed so that I can get in and understand all of the issues 
with these concerns, and then take the right steps to promote 
the safety of these issues.
    Senator Markey. I appreciate that, but it is a mega-issue. 
This is $20 billion every 10 years that is just lost to 
consumers. There are not many issues that you can actually put 
that kind of a price tag on. So I, again, I wish that ``yes'' 
was the answer.
    PHMSA has long refused to provide my staff or the minority 
with redacted copies of pipeline oil spill response plans when 
there is a spill. In fact, during the Santa Barbara pipeline 
spill, PHMSA withheld unredacted spill response plans from 
Congress even as a more complete version of the plan was posted 
online by news outlets, not to Congress.
    In response last year, Chairman Thune and Ranking Member 
Nelson sent PHMSA a letter requesting that the Chair and 
Ranking Member have equal access to information about pipeline 
infrastructure. And I thank both Chairman Thune and Ranking 
Member Nelson for working with me on this important issue.
    It is imperative that Congress has the ability to review 
these documents so that we can conduct proper oversight of 
these programs.
    Will you commit to honoring the request made by Chairman 
Thune and Ranking Member Nelson regarding congressional access 
to pipeline oil spill response plans?
    Mr. Elliott. Again, let me say. I appreciated the education 
that I got last week on this topic.
    If confirmed, it is important that I be able, then, to get 
in and understand all of the issues that have created the fact 
that you are getting redacted copies of the plan. I do not know 
all the issues that have prohibited----
    Senator Markey. Do you think that Congress should have 
access to those documents?
    Mr. Elliott. I am very interested in learning all of the 
elements behind why Congress has not been able to receive what 
they have requested.
    Senator Markey. Well, again, there is a bipartisan 
agreement on this committee that this committee is entitled to 
the documents in an agency over which this committee has 
oversight and responsibility.
    So I do not think that should be an issue that has to be 
studied. I think that is just part of the normal oversight 
responsibilities and the need for an agency to give us those 
documents.
    So, again, it is my hope that ``yes' becomes your answer in 
the agency because that is critical for us to be able to do our 
job, and we cannot do it without the information from the 
agency over which we are given responsibility.
    Thank you, Mr. Chairman.
    Mr. Elliott. Thank you.
    The Chairman. Thank you, Senator Markey.
    Senator Wicker. Mr. Elliott, my question to you is going to 
deal with toxic inhalation hazard materials on railcars.
    As I understand it, the Department of Transportation 
promulgated a rule that established enhanced safety standards 
for tank cars and a phase-in period for getting these tank cars 
in compliance.
    In April of this year, the American Association of 
Railroads came out with its own schedule for tank car phase-
outs which is said to be more stringent and actually quicker 
than the DOT regulation.
    Now, you come to us from the rail industry. I understand 
that. But have you looked into this? Is this something you are 
familiar with? And do you have an opinion as to whether a 
private association of railroads can promulgate a requirement 
that supersedes the regulation of the Department?
    Mr. Elliott. Senator Wicker, thank you for this important 
question.
    In my experience, I am aware of the role of the tank car 
committee, and the history, and the impact of its recent 
actions.
    If I am confirmed, I will be approaching this 
recommendation, this issue and the recommendations made by the 
Committee including the phase-in of new tank cars from a much 
different perspective as PHMSA Administrator as I would have 
from a railroad perspective.
    I believe that PHMSA has a duty to consider all views when 
making decisions that affect both railroad and the shipping 
community, I think, which is your point.
    I am not prepared today at this hearing to say where I 
would come down on recommending the DOT provide a new 
requirement for phasing in new tank cars--TIHPI tank cars--the 
enhanced DOT-105 tank car that is used today to move those 
commodities. But I promise to evaluate this matter fairly, 
impartially, and comprehensively consistent with my ethical 
agreement.
    I understand it is an important topic. I think it is one 
that needs to be addressed and it needs to be addressed 
thoughtfully.
    Senator Wicker. But at this point, you do not have an 
opinion as to whether a committee of a private association can 
promulgate a rule that supersedes the Department of 
Transportation regulation. You do not have an opinion on it?
    Mr. Elliott. Again, if confirmed, I think it is important 
that I evaluate all the contemporary views and perspectives on 
the role of the tank car committee before I make any kind of 
conclusion.
    Senator Wicker. All right.
    Well, Chairman Buerkle, let me ask you about mandatory 
standards versus industry voluntary standards. And particularly 
with regard to power sports, which is a very important industry 
in my State of Mississippi and more specifically, recreational 
off-highway vehicles.
    There is a difference of opinion, and I think it is among 
democrats, between democrats and republicans on the Commission 
as to whether to keep going with a mandatory rule in this 
regard or whether to work toward voluntary standards. So give 
us thoughts about that.
    Where are we particularly when it comes to the recreational 
off-highway vehicle issue?
    Ms. Buerkle. Thank you, Senator Wicker.
    The recreational off-highway vehicle, that situation really 
could be the poster child for voluntary standards versus 
mandatory standards.
    That was a situation where we started out with a mandatory 
standard, but staff, our staff along with consumer groups, 
along with industry, sat down to figure out a way and a 
methodology of testing for lateral stability and accident 
protection to make sure we could get a consensus standard. And 
a voluntary standard was achieved and our staff felt that it 
did address the hazard.
    That, to me, is the quintessential safety way to go and the 
process that we should be following, and not the least of which 
Congress directed us to pursue voluntary standards when they 
will adequately address a hazard, and whether there will be 
compliance.
    I think in the four years I have been at the Consumer 
Product Safety Commission, I have not seen any evidence that 
industry does not want to follow or will not follow the 
voluntary standards. That is a process where they are engaged 
and involved. And collectively we can come up with a way, a 
path forward, for safety.
    And so, when we can, voluntary standards, I think, are the 
way to go.
    Senator Wicker. In those situations, when there is a 
consensus achieved, who are the parties, typically, of that 
consensus?
    Ms. Buerkle. Well, the consensus is the voluntary standards 
organization and within that group, there will be consumer 
groups. There will be our staff. We have voted as a Commission 
to give our staff voting rights, leadership rights, so they can 
participate more vigorously.
    Senator Wicker. So consumer groups would be part of this 
consensus as well?
    Ms. Buerkle. Yes, as well as industry.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Ms. Buerkle. Thank you, Senator Wicker.
    The Chairman. Thank you, Senator Wicker.
    Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman.
    Mr. Elliott, thank you for meeting with me prior to this 
hearing. I wanted to just cover a couple of things that we 
spoke about at that meeting starting with some FAST Act 
provisions to improve oil train safety that I worked with this 
committee to include.
    After trains carrying hazardous materials derailed in 
Wisconsin, I worked with the Commerce Committee to include 
reforms that improve safety, transparency, and communication 
between railroads, and local first responders, and the 
communities that they serve as a part of the FAST Act.
    We passed that bill at the end of 2015 and I got to work 
urging the previous administration to act quickly to implement 
my reforms. Unfortunately, a number of those initiatives are 
still awaiting action by PHMSA.
    If confirmed, will you commit to implementing, without 
further delay, FAST Act requirements for real time train 
information?
    Second, rulemaking for oil spill response plans?
    Number three, the hazardous materials by rail liability 
study?
    Mr. Elliott. Senator Baldwin, nice to see you again, and 
thank you for the question.
    As we discussed, the importance of transparency to 
emergency responders is something that I have believed in for a 
long time.
    If I am confirmed, I will work quickly with the staff at 
PHMSA to understand why these requests, these mandates have not 
been completed.
    I understand that they are looking at a lot of issues, but 
those that promote the safety of the public and the emergency 
responders really need to be the ones that PHMSA really takes 
and moves forward as quickly as possible.
    And I hope that I can continue to work with you and your 
staff on these issues. Not only the transparency to the 
emergency responders, but also the insurance issues, and other 
FAST Act requirements.
    Senator Baldwin. Thank you.
    I also want to raise another issue we talked about last 
week. Earlier this year, I called on the Department of 
Transportation to investigate three barrel refurbishing plants 
owned by Greif in the State of Wisconsin.
    I did so after a whistleblower brought to my attention 
allegations of hazardous material transportation violations, as 
well as other practices that put workers, and the communities 
in which these businesses reside, at risk.
    PHMSA has investigated and is working to bring the company 
into compliance. But I bring this to your attention so that you 
will know that it is a very high priority for me and for 
residents in my state.
    If confirmed, can I count on you to enforce, and where 
necessary, recommend strengthening hazardous material 
transportation laws and regulations, and aggressively pursue 
investigation into the company's operations?
    Mr. Elliott. Senator Baldwin, thank you for the question, 
and I appreciated our conversation about the container 
lifecycle management company, that is the LCM.
    I do know, and after our discussion, that PHMSA has issued 
an NOV against. And I appreciate the comments from your staff 
about the thoroughness of the investigation that the PHMSA 
staff did.
    Again, if confirmed, I think the role of PHMSA to 
aggressively investigate and pursue the appropriate recourses 
of companies such as this is one of the paramount 
responsibilities of the agency.
    Again, if confirmed, I look forward to understanding more 
about how PHMSA can do a better job of addressing incidents 
like that that might happen.
    But more importantly, I think it is important for us to 
focus on how we can keep these types of incidents from 
manufacturers, or companies such as Greif, to basically ever 
keep them from happening in the first place. And that is, I 
think, a more laudable kind of goal for PHMSA, but it is 
certainly one that I want to pursue.
    And again, I very much appreciated your comments about the 
impact to your state because of this company.
    Senator Baldwin. Yes, thank you.
    Mr. Gallaudet, is it day or debt?
    Admiral Gallaudet. You can pick it, ma'am.
    Senator Baldwin. How do you do it?
    Admiral Gallaudet. Gallaudet.
    Senator Baldwin. Gallaudet. In 2013, I successfully worked 
to reopen the process at NOAA that allowed states to nominate 
their nationally significant marine areas for Federal 
protection as National Marine Sanctuaries.
    Wisconsin has nominated an area of Lake Michigan. The 
proposal has tremendous local support and bipartisan support 
from Wisconsin's congressional delegation and Governor Walker.
    Do you support the mission of NOAA's Marine Sanctuaries 
program? And if confirmed, would you ensure that the pending 
designation process for Wisconsin marine sanctuary moves 
forward without delay?
    Admiral Gallaudet. Thank you, Senator.
    To answer your first question, yes. I wholeheartedly 
support the Marine Sanctuaries program at NOAA. It does great 
things. I grew up in a coastal state in California, and so, I 
look forward to engaging and leading that program forward, if 
confirmed.
    And second, I have been aware of Wisconsin's Marine 
Sanctuary proposal and I know a little bit about that, and I am 
almost certain there really are no concerns at NOAA. And so, if 
confirmed, I look forward to moving that forward as quickly as 
I can.
    The Chairman. Thank you, Senator Baldwin.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    And thank you all for your willingness to serve.
    Admiral Gallaudet, the Seafood Import Monitoring Program is 
a program overseen by NOAA. As you know, it established 
reporting and recordkeeping requirements for certain kinds of 
fish, but the program only applies to 13 species.
    I am concerned that by enforcing regulations on only one 
part of the world's seafood supply, the market is really placed 
at-risk as a result of fraudulent and illegal activity by 
leaving space for wrongdoing and perpetrators of seafood fraud 
and human trafficking--human trafficking is a tremendous threat 
around the world--to continue illegal activities by harvesting 
fish outside the rules designated group.
    The rule put out by NOAA during the Obama Administration 
that implements the Program explains there is room to 
eventually expand the program to include all species, but it 
does not provide the timeframe for expanding it or include 
accountability measures to ensure species outside of the 
priority list that are not fraudulent or illegal.
    Seafood fraud, human trafficking, both tremendously 
important. Would you agree?
    Admiral Gallaudet. Yes, Senator.
    Senator Blumenthal. And do you believe that additional 
resources are necessary to help with enforcement efforts?
    Admiral Gallaudet. Senator, I have not really done a cost 
benefit analysis and seen what kind of resources are needed or 
allocated. But as I mentioned in my opening statement, reducing 
our seafood trade deficit is a top priority of Secretary Ross 
and I would like to move that forward as quickly as possible. 
So seafood fraud is an important element of that.
    And so I would like to study that issue, if confirmed, and 
really work to accelerate----
    Senator Blumenthal. I would like you to study it before you 
are confirmed for me to vote for you. I need to know what your 
views are on that issue.
    Admiral Gallaudet. Yes, Senator.
    Senator Blumenthal. So could you get back to me? I would 
appreciate it.
    Admiral Gallaudet. Yes, and I will, sir.
    Senator Blumenthal. Thank you.
    Commissioner Buerkle, thank you for visiting Connecticut 
not long ago; great to have you there and hope to continue 
working together.
    I would like to ask about the CPSC's crumb rubber study. 
This issue has aroused great interest and contention, and I am 
very concerned about the potential risks of exposure to crumb 
rubber used in playgrounds in Connecticut and elsewhere.
    The CPSC is part of a multi-agency Federal research action 
plan on recycled tire crumb rubber used on playing fields and 
playgrounds. I think I got that right.
    The important point is I would like for your commitment 
that the CPSC will continue to fully fund and support this 
research.
    Ms. Buerkle. Thank you, Senator Blumenthal.
    And I agree with you. There is so much uncertainty out 
there about the crumb rubber. Our agency is part of, and 
working with the EPA and CDC to move forward this 
intergovernmental study.
    Senator Blumenthal. And you are committed to fully funding 
the research necessary to get to the bottom of these questions.
    Correct?
    Ms. Buerkle. Within the framework of our agency, the 
tension always is between acute hazards and chronic hazards. 
And in a situation where we have to make a choice, sometimes 
funding can move around to address----
    Senator Blumenthal. Well, I am going to take that as a yes.
    Ms. Buerkle. If I can, sir, yes.
    Senator Blumenthal. Well, you can and I really hope that 
you will because applying science to this issue is important 
for all sides. And I hope that the findings and conclusions 
will be available, also, as soon as possible.
    Let me move on to portable generators. I understand your 
point that there is possibly a jurisdictional question as to 
the EPA and the emission levels. I disagree that there is 
actually a jurisdictional issue. I think your agency has 
authority to set emissions levels, but put that issue aside.
    Would you agree with me that portable generators ought to 
be sold with extension cords that permit them to be used 
outside homes and also CO<INF>2</INF> detectors that enable 
people using them to know whether or not CO<INF>2</INF> levels 
are unsafe?
    Ms. Buerkle. Thank you, Senator.
    And I am in receipt of a copy of your letter that went to 
WPGMA where you lay out all of the concerns that you have.
    I do believe that the voluntary standards committee is 
looking at the length of cords currently and so, I do not have 
knowledge where that issue is at, but I do know that it is 
under consideration given the fact that if the cord is not long 
enough it cannot.
    Senator Blumenthal. Should'nt the sales of detectors and 
cords with the portable generators be mandated as a matter of 
product safety in light of the deaths and injuries that have 
occurred already, and are likely to occur in even greater and 
unacceptable numbers in Puerto Rico and the Virgin Islands 
because they are without electric power right now?
    Ms. Buerkle. Thank you, Senator.
    I think that the most promising way to address those issues 
is what is on the table right now; a voluntary standard that 
will have shutoff technology, a CO<INF>2</INF> sensor. And when 
the CO<INF>2</INF> level gets to a certain level, that 
generator will shutoff.
    Senator Blumenthal. When will that happen?
    Ms. Buerkle. I am very hopeful, and I will encourage 
industry, to the best of my ability, to circulate a ballot on 
that by the end of this fiscal year or by the end of this 
calendar year.
    Senator Blumenthal. But they have no expectation about when 
it will actually be available.
    Correct?
    Ms. Buerkle. Well, I think that is another topic to be 
discussed with the industry, with all of the participants in 
that voluntary standard.
    Senator Blumenthal. Well, let me just--my time has 
expired--so let me just cut right through it.
    People are dying as a result of these generators through no 
fault of their own. They are unaware of the danger. They have 
no means of detecting it because they have no sensors that will 
shut off the machines. They have no detectors that will alert 
them as to the dangers. And so, even more people are likely to 
die in the meantime.
    I would respectfully request that you address this issue 
with the urgency that I think is required here.
    So thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    I just want to come back to this issue of voluntary 
standards one more time, just for the record, to clarify it.
    It is my understanding that with respect to mandatory 
versus voluntary standards, Congress actually directs CPSC to 
first pursue a voluntary standard and pursue a mandatory 
standard only if there is a problem with the voluntary process.
    Is that correct?
    Ms. Buerkle. Yes, Senator Thune.
    Some of our mandatory standards are required by our 
Consumer Product Safety Improvement Act, Consumer Product 
Safety Act. They require us, whether it is on ATVs or bicycle 
helmets, we are required to promulgate a mandatory standard.
    But in most of the other products that we have jurisdiction 
over, Congress has directed us, if we can address the hazard 
and there will be substantial compliance with that voluntary 
standard, then that is the course that Congress has directed us 
to take.
    The Chairman. When you have a voluntary standard in place, 
are those standards enforceable?
    Ms. Buerkle. The consensus process that is the voluntary 
standard, by the very nature of what it is, where you get buy-
in from the industry, along with the consumer groups, along 
with our staff, I think is far more conducive to compliance 
because there is buy-in. There is recognition that this is 
technology that we can achieve, and it is a way for everyone to 
move forward to effect safety.
    So what we find is that there is substantial compliance 
otherwise our staff would come to us and say, ``There is a 
problem here.''
    The Chairman. OK. All right. I think that is everything we 
have.
    We want to move as quickly as we can to expedite the 
process for these nominees. So I would ask members of the 
Committee to submit their questions, if they have questions, 
for the record by Friday, this Friday, the 29th. And ask the 
nominees, if possible, to get your responses back as quickly as 
you can, preferably by October 2 because we hope to mark up a 
number of these nominees at our next mark up.
    So with that, if there is nothing else, this hearing is 
adjourned.
    Thank you.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Prepared Statement of Hon. Michael F. Bennet, U.S. Senator from 
     Colorado, on behalf of Dr. Walter Copan, Nominee to be Under 
           Secretary of Commerce for Standards and Technology
    Chairman Thune, Ranking Member Nelson: thank you for inviting me to 
share a few words on behalf of my fellow Coloradan, Dr. Walter Copan, 
who will serve our country with distinction as director of the National 
Institute of Standards and Technology.
    Dr. Copan has the same pioneering spirit that has driven 
generations of Coloradans and Americans to innovate. He is a 
distinguished Ph.D. chemist and expert in technology transfer. As 
president and CEO of the Colorado-based IP Engineering Group 
Corporation, he helps intellectual property owners maximize the value 
of their innovations. He has previously served our Nation in roles at 
Brookhaven National Laboratory and Colorado's own National Renewable 
Energy Laboratory, and continues to serve our community as a board 
member of Rocky Mountain Innovation Partners, providing guidance and 
support to Colorado's entrepreneurs.
    With origins dating back as far as the Articles of Confederation, 
NIST serves a critical role in our economic competitiveness and 
national security. For instance, as recent hurricanes and extreme 
weather in the southeastern United States makes clear, climate change 
is continuing to affect our safety, livelihoods, and our broader 
economy. NIST's Disaster and Failure Studies Program provides important 
information that will help us rebuild, setting standards, codes, and 
practices necessary to develop resilient infrastructure to mitigate 
damage to at-risk coastal communities. In addition, NIST's leadership 
in establishing a cybersecurity framework for government and businesses 
is critical to ensuring our personal information is protected from 
hackers and terrorists that seek to exploit our information and 
security.
    I congratulate Dr. Copan on his nomination, thank him for 
willingness to serve, and look forward to his leadership at NIST.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim Inhofe to 
                         Hon. Ann Marie Buerkle
    Question. The Consumer Product Safety Commission (CPSC) set a major 
new precedent by voting to grant a petition to ban the use of an entire 
class of chemical--organohalogen flame retardants. At this time, the 
CPSC is planning to issue proposed guidance urging consumers and 
businesses to avoid the use of a broad range of flame retardant 
chemicals. The CPSC voted to take this action despite the fact that the 
agency's own technical staff recommended against this and despite the 
fact the Commission has launched an extensive review process to further 
evaluate these products.
    Furthermore, the CPSC voted to take this action despite the fact 
that the Commission has not fully considered the impact of this action 
on fire safety with hundreds if not thousands of products being 
impacted--some of which have been the subject of product recalls from 
the CPSC due to fire hazards. Furthermore, it is my understanding that 
this action runs counter and may be in conflict with the decisions and 
ongoing work by U.S. EPA under the new Lautenberg Chemical Safety act 
which Congress overwhelmingly supported and was signed into law by 
President Obama just last year.
    Can you please clarify this issue for us and what actions you are 
planning to take on this issue to avoid duplicating and conflicting 
with other government agencies and ensure the CPSC operates within its 
appropriate jurisdiction?
    Answer. On September 20, 2017, the Commission majority voted to 
grant Petition HP 15-1, Requesting Rulemaking on Certain Products 
Containing Organohalogen Flame Retardants and directed staff to convene 
a Chronic Hazard Advisory Panel (CHAP) to assess and issue a report on 
the risks to consumers' health and safety from the use of additive, 
non-polymeric organohalogen flame retardants, as a class of chemicals 
in: (1) durable infant or toddler products, children's toys, child care 
articles or other children's products (other than children's car 
seats); (2) upholstered furniture sold for use in residences; (3) 
mattresses and mattress pads; and (4) plastic casing surrounding 
electronics. The Commission majority also directed staff to publish in 
the Federal Register a Guidance Document on Hazardous Additive, Non-
Polymeric Organohalogen Flame Retardants in Certain Consumer Products.
    My preference would have been to vote to defer the petition until 
the Commission had the benefit of the CHAP's analysis. I believe it 
made more sense to defer the petition and convene a CHAP than launch 
rulemaking in spite of the data gaps identified by our staff. If this 
approach had been approved, it would have allowed us to hear from the 
independent scientific experts before deciding whether we should 
overrule our own staff toxicologists and commit to the unprecedented 
regulation of a large and disparate class of chemicals.
    I look forward to working with the Senate on this important issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Hon. Ann Marie Buerkle
    Question 1. In your oral testimony to the Committee, you stated 
that the CPSC is currently working with the Portable Generator 
Manufacturers Association (PGMA) and stakeholders on a voluntary 
standard that would require shut-off switches for all new portable 
generators. Please provide a detailed explanation of this voluntary 
standard, along with a proposed timeline for adoption.
    Answer. There already is a voluntary standard applicable to 
portable generators, called ANSI/PGMA G300-2015. The current version 
was adopted in 2015 (attached at Tab A). It establishes many different 
safety requirements, particularly in the realm of electrical safety. 
There is also a mandatory CPSC standard which establishes each portable 
generator to be prominently marked with a specified DANGER label. 16 
C.F.R. Sec. 1407.
    The PGMA is now working on a revision of the G300 standard that 
would add new requirements aimed specifically at the carbon monoxide 
(CO) hazard. The concept of the revised voluntary standard is 
relatively simple. It would establish requirements for (1) sensing CO 
buildup in an enclosed or partially enclosed space; and (2) shutting 
off the generator if local CO concentrations reach dangerous levels.
    On March 17, 2016 the PGMA held a technical summit at which time 
they committed to ``create a performance-based standard that addresses 
the CO hazard as its top priority, for possible inclusion in the ANSI/
PGMA G300 standard.'' PGMA also held technical summits on April 3, 2017 
(hosted at CPSC); June 2, 2017 (webinar); July 13, 2017 and August 16, 
2017 (webinar). CPSC staff has attended and is an active participant in 
PGMA's steering committee in providing feedback during development of 
the ANSI/PGMA G300 standard. To address the CO hazard associated with 
the misuse of portable generators in enclosed spaces, the current draft 
of the standard requires the portable generator to shut off once a CO 
sensor measures a certain concentration. The PGMA has committed to 
balloting the standard by the end of the calendar year.
    To avoid nuisance shutoffs (for example, shutoffs when the portable 
generator is being properly used outdoors), the revised voluntary 
standard would establish two different CO levels for shutoff. One level 
is a short-term (essentially instantaneous) peak, and the other is an 
average level over a few minutes.
    The revised voluntary standard would also establish requirements 
for alerts to the user, for the reliability and durability of the CO 
sensor, and for end-of-life of the CO sensor. These requirements help 
to ensure that if a generator shuts down, the user will understand why, 
and that the generator will not operate if the CO sensor is no longer 
detecting dangerous CO levels reliably.
    Staff, as well as four of the five Commissioners, have traveled to 
Wisconsin and met with several of the manufacturers who are working on 
this technology for the voluntary standard. In addition, staff has 
traveled to South Carolina to meet another manufacturer who has 
developed a low CO engine and a different type of shutoff technology. 
CPSC staff and Commissioners are highly engaged in this issue and are 
optimistic regarding these new developments.\1\
---------------------------------------------------------------------------
    \1\ The records provided in response to this request are retained 
in the Committee's files.

    Question 2. In a February 1, 2016, statement on the Commission's 
adoption of the final rule to amend 16 C.F.R. Part 1031 to allow staff 
to participate as voting members of voluntary standards organizations, 
you noted that you proposed a successful amendment to the ballot 
package requiring ``the Executive Director to provide an early report 
to the Commission regarding the voting and leadership activities 
allowed by the final rule.'' With regard to the proposed PGMA portable 
generator voluntary standard, have you requested that the Executive 
Director and/or Commission staff provide other Commissioners with 
frequent updates on staff activities before that standards committee? 
If so, please detail all requests.
    Answer. The CPSC staff is involved with over 70 voluntary 
standards. Congress, recognizing the strength and enormous value of the 
standard development organizations and consensus standards, has 
expressed a strong preference for developing safety standards through 
the voluntary standards process rather than through rulemaking. 15 
U.S.C. Sec. 2058(a), (b), (f)(3), . The effect of these provisions is 
to preclude CPSC from adopting a mandatory standard for a particular 
product risk if a voluntary standard adequately reduces the risk and 
there is substantial compliance with the voluntary standard. Therefore, 
taking part in the voluntary standards process is one of CPSC staff's 
most important roles.
    The package to amend 16 C.F.R. Part 1031 came before the Commission 
in September 2013. In February 2016, the Commission voted unanimously 
to approve a final rule allowing greater participation by CPSC staff in 
the voluntary standard committees. Specifically, the Commission 
authorized the Executive Director to permit CPSC staff to vote on 
standards and/or assume leadership roles on a case-by-case basis. Staff 
must apply for permission to the Executive Director, and she makes a 
determination regarding whether to allow staff either the leadership or 
voting rights.
    My amendment requires the CPSC Executive Director to provide a 
report to the Commission concerning the activities of the staff that 
are authorized by the amendments to part 1031. That report must be 
submitted no later than 14 months after the Executive Director first 
authorized any staff member to vote or to assume a leadership position 
in a voluntary standard committee. The motion I offered was unanimously 
supported by the Commission.
    To date, the Executive Director has authorized several CPSC staff 
members to vote on various voluntary standards. Similarly, she has 
approved several staff requests to assume leadership positions on 
voluntary standard subcommittees or task groups.
    On November 1, 2016, the Executive Director approved staff requests 
to vote on two voluntary standards related to portable generators, 
namely ANSI/PGMA G300 and UL 2201.
    CPSC staff provides the Commission with frequent updates on staff 
activities on all voluntary standards. On a weekly/bi-weekly basis, the 
Office of Hazard Identification and Reduction provides an activities 
report to all Commission offices with updates on voluntary standards 
activities. In addition, each Commissioner has weekly or bi-weekly 
meetings with the Director of the Office of Hazard Identification and 
Reduction, who oversees voluntary standard activities. In addition 
several Commissioners have sent their own personal staff to observe 
voluntary standards meetings, including voluntary standard activities 
involving portable generators. CPSC staff also responds to requests 
from Commission offices for briefings on voluntary standards activities 
as they come up. Staff planning to attend voluntary standard meetings 
are required to provide public notice ahead of time through the 
Commission's public calendar.
    The Commissioners meet on a weekly or bi-weekly basis with the 
Executive Director and with other senior staff, and they are routinely 
briefed on staff activities, including those relating to portable 
generators. Four of the five Commissioners have traveled outside of 
Maryland to meet with portable generator manufacturers and see 
demonstrations of prototype generators featuring the shut-off 
technology. Most if not all of the Commissioners have met regularly 
with representatives of PGMA, PGMA member companies, or other portable 
generator manufacturers at CPSC headquarters or at CPSC's research 
laboratory. CPSC staff hosted a day-long public meeting relating to CO 
emissions from portable generators and shutoff technology in April 
2017. In addition, most or all of the Commissioners have sent staff to 
the public meetings convened by PGMA to discuss the CO shutoff 
technology and revision of the G-300 standard. Finally, CPSC staff 
documents all voluntary standards work on portable generators twice a 
year in the publicly available Voluntary Standards Activity Report 
(VSTAR).

    Question 3. Please explain why your August 16, 2017, letter to 
Administrator Scott Pruitt is not included in the docket for the 
mandatory portable generator standard Notice of Proposed Rulemaking 
(NPRM) (CPSC Docket No. CPSC-2006-0057).
    Answer. A copy of my letter to Administrator Pruitt was forwarded 
to each of the Commissioners and the General Counsel. I will make sure 
that a copy of the letter is included in the rulemaking docket.

    Question 4. Please provide a copy of all documents and 
correspondence (including e-mails, memoranda, white papers, meeting 
presentations, notes, and phone logs) between you, your office staff, 
and CPSC staff working at your direction and PGMA and any individual 
portable generator manufacturer regarding the portable generator NPRM 
and the proposed PGMA portable generator voluntary standard.
    Answer. Tab B contains copies of documents and correspondence 
between Commissioner Buerkle or her personal staff and PGMA or any of 
its member companies. The time range for this search was from 
Commissioner Buerkle's arrival at the Commission in [July?] 2013 to 
present. Business confidential documents and attachments are included 
at the end of Tab B under a separate divider page.
    Tab C contains copies of documents and correspondence between CPSC 
career staff and PGMA or any of its member companies. The time range 
for this search was from the date Commissioner Buerkle became Acting 
Chairman (February 9, 2017) to present.\2\
---------------------------------------------------------------------------
    \2\ The records provided in response to this request are retained 
in the Committee's files.

    Question 5. Please provide a copy of all documents and 
correspondence (including e-mails, memoranda, white papers, meeting 
presentations, notes, and phone logs) between you, your office staff, 
and CPSC staff working at your direction and the Environmental 
Protection Agency, the Office of Management and Budget, the Executive 
Office of the President, and any other Federal or state agency 
regarding the portable generator NPRM and regarding the proposed PGMA 
portable generator voluntary standard.
    Answer. Tab D contains a copy of a letter to me from Administrator 
Pruitt of the Environmental Protection Agency (EPA) regarding portable 
generators and my response. These are the only documents and 
correspondence that are responsive to your request. Neither I nor my 
staff have had any contacts with the Office of Management and Budget, 
the Executive Office of the President or any other Federal or state 
agency concerning these matters. I have not asked the CPSC staff to 
contact EPA or any other Executive Branch agency concerning these 
matters, and they have not reported any such contacts from other 
agencies.\3\
---------------------------------------------------------------------------
    \3\ The records provided in response to this request are retained 
in the Committee's files.

    Question 6. Please identify and provide a copy of all records 
detailing all travel by you, your staff, and CPSC staff working at your 
direction to PGMA, any PGMA member, and any other portable generator 
manufacturer to discuss either the portable generator NPRM or the 
proposed PGMA portable generator voluntary standard.
    Answer. Tab E contains a copy of all records detailing travel by me 
and my staff with respect to CPSC's proposed portable generator 
standard or the proposed PGMA portable generator voluntary standard.
    Tab F contains a copy of all records detailing travel by CPSC 
career staff with respect to CPSC's proposed portable generator 
standard or the proposed PGMA portable generator voluntary standard.\4\
---------------------------------------------------------------------------
    \4\ The records provided in response to this request are retained 
in the Committee's files.

    Question 7. Please provide a copy of all documents and 
correspondence from February 7, 2017 to the present (including e-mails, 
memoranda, white papers, meeting presentations, notes, and phone logs) 
between you and your office staff and CPSC staff directing them to take 
or withhold any action on the portable generator NPRM or the proposed 
PGMA portable generator voluntary standard.
    Answer. There has been no direction to withhold any action on the 
portable generator NPRM from my office. The Commission directed staff 
to publish the NPRM. It appeared in the Federal Register at 81 Fed. 
Reg. 83556 (Nov. 21, 2016). CPSC staff, as planned and approved by the 
Commission in the FY17 operating plan, have been working on the post-
NPR rulemaking activities reviewing public comments as well as 
participating in the voluntary standards process.

    Question 8. Please provide a copy of all documents and 
correspondence (including e-mails, memoranda, white papers, meeting 
presentations, notes, and phone logs) between you and your office staff 
and Patricia Hanz regarding her potential hiring as CPSC General 
Counsel.
    Answer. Tab G contains a copy of all documents between me or my 
office staff and Patricia Hanz regarding her potential hiring as CPSC 
General Counsel.\5\
---------------------------------------------------------------------------
    \5\ The records provided in response to this request are retained 
in the Committee's files.
---------------------------------------------------------------------------
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Hon. Ann Marie Buerkle
    Question 1. Portable Generators: What specific assurances have you 
sought from portable generator manufacturers to make sure their 
products do not lead to anymore unnecessary deaths in the wake of all 
the recent natural disasters?
    Answer. I have urged portable generator manufacturers to introduce 
carbon monoxide shut-off technology as quickly as they can. I have 
personally seen prototype generators that do shut off rapidly in these 
dangerous situations, and I am confident the manufacturers are 
committed to addressing the hazard.
    In addition, I have asked for and received assurances that the 
voluntary standard requiring shutoff technology will be complete and 
ready for balloting no later than the end of this calendar year. I 
expect PGMA to follow through on that commitment.
    CPSC staff will continue their robust participation in voluntary 
standards development with PGMA. Staff will also continue their review 
of the comments submitted on the Notice of Proposed Rulemaking for 
Portable Generators, as well as other data analysis and technical work 
related to both voluntary standard development and CPSC's Notice of 
Proposed Rulemaking.
    In anticipation of power outages often resulting from hurricanes 
and leading to increased generator sales, CPSC has been proactive and 
strongly committed to transmitting life-saving safety information to 
residents living in affected areas.
    CPSC positioned thousands of CO safety publications with CPSC 
investigators to distribute at FEMA disaster centers. Additionally, 
CPSC participated in FEMA's daily teleconference with other Federal 
agencies and is working closely with our state and local public safety 
counterparts in affected states.
    The agency has been promoting our hurricane safety messages through 
traditional and social media platforms, which include using our social 
media accounts and website to disseminate CO safety information to a 
wide audience. In addition, we reached out to hundreds of media 
outlets.
    Our agency has also been working with major retail industry 
leaders. We have engaged with retailers to share and re-tweet our 
public safety messages and have also provided them with copies of our 
public safety literature to be distributed to consumers who come in to 
buy a portable generator.

    Question 2. Portable Generators: Do you agree that all portable 
generators should include extension cords no shorter than 25' so they 
can actually be used outside, as instructed?
    Answer. I agree that consumers should be warned as we recommend, to 
place generators OUTDOORS ONLY, preferably at least 20 feet away from a 
residence. I am concerned that depending on the needs of the consumer 
to power certain appliances, 25 feet may not be long enough. We need to 
educate consumers on the safe placement of the portable generator and 
provide guidance to select the correct length and gauge of extension 
cords.
    I believe that all portable generators should be capable of being 
used safely outdoors and at a safe distance from homes. I support any 
and all steps that manufacturers and retailers can take to make sure 
that generator purchasers have all the equipment they need to operate a 
generator safely. Unfortunately, there is no data that suggests a 
longer cord would be instrumental in saving lives. I believe that staff 
would have included such a requirement in the proposed mandatory 
standard if it could be justified on safety grounds. Educating the 
consumer regarding the danger of placing a generator too close to their 
dwelling is an important component of portable generator safety, but 
ultimately it will be the successful development of the shutoff 
technology that will save lives.

    Question 3. Portable Generators: In the absence of an effective 
voluntary or mandatory safety standard for portable generators that 
reduces consumer injury or death, do you agree that the purchase of 
portable generators should include CO alarms?
    Answer. Carbon monoxide is called the ``Invisible Killer'' because 
it's a colorless, odorless, poisonous gas. More than 150 people in the 
Unites States die every year from accidental non-fire related CO 
poisoning associated with consumer products. I believe every home 
should install battery-operated CO alarms or CO alarms with battery 
backup outside sleeping areas.
    CPSC strongly supports the use of CO alarms. The Agency has 
invested in educational campaigns not only with smoke detectors but 
also with CO alarms. We recommend that all dwellings be equipped with 
them. If in place before an emergency, they can prevent some CO-related 
deaths or injuries. Unfortunately, most of the problems we see with 
portable generators occur when they are purchased under exigent 
circumstances. We have found that very few consumers who purchase 
generators in a difficult time take the trouble to obtain and install 
CO alarms if they have not already done so. CPSC believes that nearly 
all CO poisoning victims are harmed because they do not understand the 
risks, despite the very prominent warnings that are required on the 
generator and its packaging (CPSC's mandatory ``danger'' label, 16 
C.F.R. part 1407, warns of the hazard in stark terms).
    The revised PGMA standard would include a CO detector on the 
generator and the deployment of shut-off technology would stop the 
generator engine if there is a buildup of local CO concentrations.

    Question 4. Portable Generators: When do you expect a new voluntary 
standard for portable generators to be completed?
    Answer. I expect PGMA to issue a proposed standard for canvas no 
later than the end of this calendar year.

    Question 5. Portable Generators: What data do you have that the new 
proposed voluntary standard will be effective at reducing consumer risk 
of injury or death?
    Answer. In essence, we currently have two forms of preliminary 
data. The first is modeling data. CPSC staff worked with the National 
Institute for Standards and Technology (NIST) to develop a modeling 
program whereby CO concentrations in a home can be accurately predicted 
if a portable generator is located in various inappropriate locations 
(such as in a basement, a garage, or shed). CPSC staff used the NIST 
model to predict that the CPSC-proposed mandatory standard would save 
approximately 41 percent of the CO-related deaths that would occur in 
the absence of such a standard. See 81 Fed. Reg. at 83570. PGMA used 
the same model to show that a portable generator meeting the 
performance requirements of the revised voluntary standard would save a 
much higher percentage of lives than the CPSC proposal (more than 95 
percent).
    The second form of data we have is performance data from portable 
generators equipped with prototype shut-off systems. These data 
typically include real-world measurements of CO concentrations in 
various locations throughout a home or garage when a generator is 
placed in an inappropriate location.
    CPSC staff is working with the PGMA voluntary standard committee to 
establish the standard. Only when the standard is finalized will CPSC 
staff be able to assess its effectiveness. The PGMA has stated they are 
planning to address all of the deaths associated with enclosed or 
partially enclosed use of portable generators.

    Question 6. Portable Generators: What is your position on the 
Sensenbrenner and Duffy appropriations rider (Amendment #208 of H.R. 
3354), which seeks to limit CPSC's right to finalize a safety standard 
on portable generators?
    Answer. I have been very supportive of the collaborative approach 
that happens in the voluntary standard process. One such success has 
been the work in the voluntary standards area of Recreational off 
Highway vehicles (ROVs). I am confident CPSC staff can work with PGMA 
to solve this portable generator problem by developing a voluntary 
standard that will be effective in reducing deaths and injuries 
associated with the use of portable generators in enclosed or semi-
enclosed spaces. I take no position on the appropriations rider. I do 
not believe it would interfere with the CPSC's planned activities 
regarding portable generators in Fiscal Year 2018.

    Question 7. Flame Retardants: The Consumer Product Safety 
Commission recently voted to grant a Petition requesting the CPSC 
initiate rulemaking to ban toxic flame retardants in children's 
products, upholstered furniture, electronic casings, and mattresses. 
Did this vote ban flame retardants?
    Answer. No, the vote did not ban flame retardants. The Commission 
voted to grant the petition; this begins the rulemaking process. The 
Commission's recent vote did not ban any flame retardants. The petition 
before us applied to a large class of flame retardants called 
organohalogens, and it sought a ban of all non-polymeric, additive 
organohalogen flame retardants (OFRs) in four specific categories of 
consumer products. The Commission voted (1) to grant the petition and 
commence a rulemaking to ban these chemicals; (2) to convene a Chronic 
Hazard Advisory Panel (CHAP) to provide advice to the Commission on the 
same chemicals; and (3) to issue guidance concerning these chemicals to 
the public, including manufacturers, retailers and consumers. The 
guidance requests manufacturers to discontinue use of these chemicals 
in the four types of products voluntarily.

    Question 8. Flame Retardants: What parties did you hear from that 
most informed your vote?
    Answer. My vote was most influenced by the CPSC staff, who 
recommended against granting the petition. CPSC career scientists 
recommended against the class-wide approach that a majority of the 
Commission approved. Staff indicated that there were limited data on 
OFRs that show varying toxicity and exposure potential among individual 
OFR compounds. These varying properties of individual OFR compounds 
indicate that OFRs, in fact, represent several subclasses of chemicals 
that should be examined separately. Due to the varying toxicological 
properties among OFR subclasses (and even within those subclasses) and 
because of the many data gaps relating to toxicity, staff advised that 
insufficient data exists to assess OFRs as a class under FHSA, and one 
could not conclude that they all would be ``hazardous substances''. In 
addition, staff advised that although there were studies demonstrating 
human exposure to OFRs, most studies cited by the petitioners could not 
be linked to specific products. Staff cited that the mere presence of a 
chemical, including those that may be considered toxic under the FHSA, 
in a person's blood or urine is not enough to demonstrate that an 
adverse health effect or disease may occur because levels may indicate 
exposures that are too low to cause these effects in humans. The 
petitioner asked the Commission to conclude that OFRs, where limited or 
no data are available, possess the same toxicity and exposure 
potentials as OFRs for which data exists.
    Staff also cited ongoing market and regulatory changes affecting 
the use of OFRs in the four product categories and the staff's 
intention to continue the ongoing FR work in the operations plan to 
assess the presence of and the exposure to OFRs along with the 
voluntary standard organizations and other Federal agencies.

    Question 9. Flame Retardants: What was your reason for voting 
against allowing scientists to study an immensely consequential issue 
to the health of all Americans, and especially children?
    Answer. My objection was to granting the petition, which commences 
the rulemaking process, without having the data needed to move forward 
as advised by CPSC staff. I had no objection to study of the issue. 
Indeed, I proposed an amendment that would have allowed a vote on 
convening a Chronic Hazard Advisory Panel (CHAP) prior to the vote on 
disposition of the petition. I believed that it made more sense to 
defer the petition and convene a CHAP than to launch rulemaking in 
spite of the data gaps identified by our staff. If this approach had 
been approved, it would have allowed us to hear from the independent 
scientific experts before deciding whether we should overrule our own 
staff toxicologists and commit to the unprecedented regulation of a 
large and disparate class of chemicals.

    Question 10. Early this year, President Trump issued an Executive 
Order that for every one new regulation issued, at least two prior 
regulations be identified for elimination. Your colleague Commissioner 
Kaye was Chairman at the time, and he said the following in a 
statement: ``This Executive Order does not apply to independent 
agencies, including the Consumer Product Safety Commission. While we 
have looked to follow in spirit EOs that advance sound public policy 
and do not conflict with our critical public health and safety mission, 
this EO clearly fails on both accounts. To voluntarily follow it would 
lead to poor public policy decisions by ignoring the many necessary 
benefits provided by consumer protections that save lives and protect 
all of America's families. It would also be counter to our safety 
mission, as it would cruelly and unfairly have us pit vulnerable 
populations against each other when it comes to making safety 
decisions.'' Is the CPSC under any obligation to follow Executive 
Orders?
    Answer. CPSC is an independent agency, and while not legally 
required to comply with executive orders, has historically tried to 
meet the spirit of such orders, within the framework of our governing 
statutes. Many Executive Orders distinguish between Executive agencies 
and independent agencies, and they merely encourage independent 
agencies to do what they require Executive agencies to do. There are 
some Executive Orders, particularly those dealing with budgetary 
matters, that make no distinction between Executive agencies and 
independent agencies or that expressly apply to independent agencies. 
In these rarer cases, CPSC would treat the order as obligatory unless a 
statute requires otherwise.

    Question 11. What factors will guide you, as Chair, in determining 
whether to follow an Executive Order?
    Answer. I believe we should attempt to follow Executive Orders to 
the extent they are not inconsistent with the statutes applicable to 
us. In the case of the ``one in, two out'' Executive Order, I 
understand it would apply only if CPSC adopts a ``major'' regulation, 
which has occurred only a couple of times in CPSC's 44 year history. 
For the same reason, it is unlikely that our statutes would permit the 
outright repeal of two major regulations. I will be guided by the 
intent and spirit of any executive order, but always in balance with 
our safety mission, of keeping the consumer safe from unreasonable risk 
of injury and harm.

    Question 12. Civil Penalty Votes: Please provide information on all 
civil penalty votes since you joined the Commission in July 2013, as 
compiled by the Office of the Secretary. This information should 
include how each Commissioner voted.
    Answer. Tab H contains a Record of Commission Action (RCA) for each 
civil penalty vote since I joined the Commission. These documents 
reflect how each Commissioner voted on each penalty settlement. In some 
cases, a Commissioner may vote to approve a different penalty amount 
than the settlement reached by the Office of the General Counsel.

    Question 13. Please provide information on all votes, other than 
civil penalty votes, since you joined the Commission in July 2013, as 
compiled by the Office of the Secretary. This information should 
include how each Commissioner voted.
    Answer. Tab I contains a Record of Commission Action (RCA) on all 
public votes taken by the Commission since my arrival. Some votes, such 
as those to refer a penalty case to the U.S. Department of Justice, are 
not immediately made public.
    Tab J contains an RCA on all non-public votes. These are marked 
``For Official Use Only'' and should be treated as confidential.\6\
---------------------------------------------------------------------------
    \6\ The records provided in response to this request are retained 
in the Committee's files.

    Question 14. Civil Penalties: What do you view is the purpose of 
civil penalties?
    Answer. In my view, civil penalties serve three main purposes: (1) 
to punish unlawful behavior; (2) to deter further unlawful behavior by 
the company paying a penalty; and (3) to deter unlawful behavior by 
other firms.

    Question 15. Civil Penalties: Why do you think Congress gave the 
CPSC this authority?
    Answer. Congress refused to give CPSC authority to impose civil 
penalties. Instead, CPSC was given authority to compromise civil 
penalties. I believe Congress wanted CPSC to have a range of different 
solutions for firms that violate CPSC statutes and regulations, 
particularly for recalcitrant companies who fail to learn from their 
mistakes.

    Question 16. Civil Penalties: If civil penalties represent just a 
drop in the bucket for companies, what is their purpose?
    Answer. In addition to the financial toll, I believe there is a 
stigma associated with paying any civil penalty that most companies 
strive to avoid. I also believe that small penalties can be 
appropriate, and that if a firm continues to act unlawfully, higher 
penalties would be warranted.

    Question 17. Civil Penalties: Should paying civil penalties just be 
the cost of doing business?
    Answer. Absolutely not.

    Question 18. Transparency: Do you commit to help increase 
transparency at CPSC and make publicly available and searchable all 
votes that take place at the Commission?
    Answer. Yes, where legally appropriate. There are certain actions, 
such as referral of a case for prosecution by the U.S. Department of 
Justice, where the Commission's vote is considered to be For Official 
Use Only (see the response to Question 5 and Tab J).
    CPSC may be among the most transparent agency in the Federal 
government. Our transparency is enhanced by an open meetings policy, 
whenever CPSC staff meet with outside parties on matters of substantial 
interest, the meeting must be announced in our public calendar and 
allows any member of the public to attend.
    CPSC has a liberal FOIA policy, when the disclosure is not 
prohibited by law or is not against public interest.
    When rulemaking occurs under section 9, the public has an 
opportunity to make an oral presentation.
    The CPSC also maintains a Publicly Available Data Base, which is a 
user friendly product safety database where the consumer is able to 
report and read about an hazards or risks associated with consumer 
products.
    The CPSC is required to establish an agenda at least 30 days before 
the beginning of each Fiscal Year. The Priorities Hearing is an 
opportunity for the submission of comments either in writing or via an 
oral presentation by the public.
    I have encouraged the transparency and engagement since I have been 
at the Agency. I believe that our best efforts to keep the consumer 
safe, pursuant to our mission, results from an open and transparent 
environment and where we engage with all of the stakeholders.

    Question 19. Transparency: Will you work to make sure live and 
archived webcasts for all public hearings and workshops are made 
available on CPSC's website?
    Answer. Yes, absolutely to public hearings. Workshops can be 
somewhat more challenging, as we have found that those with multiple 
breakout sessions do not lend themselves to live video webcast. I 
commit to the extent practical to continue to webcast all public 
meetings the Commission has. I want to hear from the public and all of 
the stakeholders.

    Question 20. As Permanent Chair, you will have a hand in making a 
number of key appointments within the agency. This is an important 
responsibility. Based on who you appoint, you will be able to guard 
against the CPSC becoming a ``captured agency'' and protect the 
agency's independence. What is your philosophy in making appointments?
    Answer. My philosophy on making appointments reflects my sense of 
responsibility and steadfastness to carry out our agency's mission of 
keep consumers safe from unreasonable risk of injury or harm. We are 
public servants. We work for the American people and therefore, 
accountable to them. I believe anyone who has the privilege to serve in 
this capacity makes a commitment to our fellow citizens to carry out 
our important safety mission.
    Carrying out this important charge requires dedication and fidelity 
to this mission. As Chairman I believe it is critical to lead by 
example. Those who have the honor to serve in leadership shape the 
culture of the agency or organization in which they work. Qualities 
such commitment to excellence, a sense of humility and a strong sense 
of purpose contribute to a climate that promotes a sense of duty to 
carry out the important mission of the Consumer Product Safety 
Commission.
    Those who serve in these appointments share in the opportunity to 
foster an open and transparent government. I believe that we can best 
achieve our mission of safety, through collaboration and engagement 
where stakeholders from diverse perspectives are welcome and encouraged 
to participate in their government.

    Question 21. What are your personal hiring criteria?
    Answer. On February 9th I was honored to become Acting Chairman of 
the CPSC. In the spirit of bi-partisanship, I worked with my 
predecessor's political appointees towards favorable employment 
transitions. In fact, in the case of my predecessor's Executive 
Director, I have appreciated the opportunity to have her remain at the 
Agency until a mutually agreed upon end date. She has been an 
invaluable to me, the mission of CPSC and a well-respected leader at 
the agency.
    My hiring criteria includes finding the best possible talent to 
fill my political appointments. It is essential that candidates 
understand and are committed to the critical safety mission of safety 
at the CPSC. Individuals with a superior level of integrity and 
dedication to public service are key qualities. In addition to the 
requisite qualification of each specific job description, candidates 
need proven leadership abilities, strong communication and 
interpersonal skills as well collaborative problem-solving skills.

    Question 22. In what way would a candidate's industry experience be 
relevant to you?
    Answer. I do not regard industry experience as a prerequisite for 
candidates. Indeed, none of my personal staff come from industry. 
Nevertheless, I think that industry experience would be a plus for a 
candidates because it would bring a different perspective on regulatory 
matters. Indeed, some of the career staff who have come to the Agency 
from the private sector, bring with them an important perspective.

    Question 23. How do you intend to protect the CPSC from becoming a 
``captured agency''?
    Answer. I recognize the risk of agency capture, although I think 
CPSC is far from succumbing. I intend to maintain and strengthen my 
contacts with all CPSC stakeholders, including consumers and their 
representatives, independent safety consultants, academics, medical 
professionals, state and local officials and Congress. I believe that 
the structure of our Commission makes agency capture more difficult 
than it may be at some agencies. I prize the constructive input I 
receive from my colleagues on a daily basis. I value the letters of 
support from various consumer groups and will continue to work to 
strengthen those relationships.

    Question 24. Recall Effectiveness: On Tuesday, July 25, 2017, you 
hosted a ``Recall Effectiveness Workshop.'' What did you learn from 
this workshop?
    Answer. There were many interesting ideas for enhancing recall 
effectiveness raised at the workshop. In my view, the single most 
important point relates to the significance of direct contact with 
consumers. This factor is so important that I believe CPSC should work 
on identifying and implementing approaches to increase direct contact 
as a top priority.

    Question 25. Recall Effectiveness: How do your views on recall 
effectiveness diverge from the industry?
    Answer. I have found that industry does not have monolithic views 
on recall effectiveness, nor do the views of industry all conflict with 
those of consumers and their representatives. Retailers often have 
different views than manufacturers. There are certainly some 
propositions advanced by industry representatives as to which I am not 
yet convinced. For example, some companies have urged CPSC to adopt a 
``tiered'' recall system, with greater attention to recalls involving 
greater risks. In principle, I agree that the degree of risk should 
play a major role in our decisions. I also agree that ``recall 
fatigue'' can result from an endless stream of undifferentiated 
recalls. Nevertheless, I believe that a tiered system may be difficult 
to implement without undercutting our highly successful ``Fast Track'' 
recall system. Therefore, I have asked our Compliance staff to get more 
information about the success of tiered recall systems at other 
agencies.

    Question 26. Recall Effectiveness: Do you believe that the CPSC has 
been successful at achieving acceptable recall return and repair rates 
on children's products?
    Answer. I am not satisfied with CPSC's recall effectiveness; 
however, I believe that the return rate is often a misleading indicator 
of recall effectiveness. I would like to see greater emphasis on the 
reduction of incidents and injuries. Many people who become aware of a 
CPSC recall do not bother to take advantage of the available remedy. 
Often, they simply discard the product. This is particularly true when 
the product was inexpensive to begin with or if it has seen 
considerable use. In these cases, the safety purpose of the recall has 
been achieved, even though the recall return rate may be low.

    Question 27. Recall Effectiveness: As Chairman, what tools would 
you like to see used to assure a robust response to recall 
announcements--both from the agency and the recalling company?
    Answer. I would like to see new technologies aimed at increasing 
direct notice of recall to the consumer. These might include the 
development of cellphone applications that recognize when a consumer 
product has been recalled and provide direct notice to the owner.

    Question 28. Furniture Tip-Over: The vast majority of recalled IKEA 
dressers are still in people's homes, posing potential risks to 
consumers. What will you do to improve this recall?
    Answer. We are currently negotiating with IKEA to improve certain 
aspects of the recall communications. We also intend to re-announce the 
recall to update the hazard information.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to Hon. Ann Marie Buerkle
    Question 1. Protecting Children in Hot Cars: Obviously I don't have 
to tell you we have seen far too many unfortunate and often preventable 
deaths and injuries of children in overheated cars, like an innocent 
Las Vegas three year-old who died in July on a day with temperatures 
reaching as high as 114 degrees. Many of the tragic reports are of 
parents leaving children strapped into their car seats, windows up, in 
often times triple-digit temperatures that are very common in my state 
of Nevada. Please provide me an update on what can be done universally 
about this horrifying concern, and specifically what you and the CPSC 
are doing to address this problem.
    Answer. CPSC does not have jurisdiction of motor vehicle issues, 
which are within the purview of the National Highway Traffic Safety 
Administration.

    Question 2. Protecting Industry from Regulations: In your 
questionnaire, you note the challenge of ``finding a balance between 
reasonableness and safety when considering regulations and protecting 
the consumer'', as well as referencing protecting industries from 
``unfair and costly regulations.''
    I was hoping you could elaborate on this sentiment. And please 
confirm for me that there are higher priorities than simply cost-
benefit ratios when we're talking about protecting our children and 
families.
    Answer. Most of the standards and safety work done at this Agency 
is through the voluntary standards process. Our staff participates in 
over 70 voluntary standard committees. The cost benefit analysis is 
only required to conduct rulemaking under section 7 and 9 of the CPSA, 
not the voluntary standards process. In our history, there have been 
very few mandatory standards promulgated.
    In 2008, Congress passed the Consumer Product Safety Improvement 
Act (2008) that provided additional protections for children. Included 
in the CPSIA are provisions addressing lead, phthalates, toy safety, 
durable nursery products, third party testing and certification. When 
we are promulgating a standard that is related to a durable nursery 
product, no cost benefit analysis is required. Congress, recognizing 
the need to prioritize children's safety, removed that requirement in 
CPSIA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Dr. Walter G. Copan
    Question 1. NIST scientists are integral to improving the tools and 
instruments used to measure greenhouse gases, which contribute to our 
warming planet and the strength of the storms we have seen this 
hurricane season. Meanwhile, the administration is seeking to cut this 
program by 40 percent. Accurate measurements grow our understanding of 
climate change and weather so that policy makers and citizens can make 
informed decisions to protect life and property. It is critical that 
scientists are allowed to do their jobs without political interference.
    If confirmed, will you commit to protecting NIST scientists from 
political interference and censorship?
    Answer. Yes. I fully support open science, free from political 
interference. If confirmed, I will remain committed to the ability of 
NIST researchers to communicate freely about their work, without 
censorship. I was also very pleased to learn that NIST and the 
Department of Commerce have strong policies in place, which explicitly 
allow scientists to ``speak to the media and the public about their 
official work freely, and openly discuss scientific and technical 
ideas, approaches, findings and conclusions based on their official 
work.''

    Question 2. NIST researchers perform investigations after disasters 
like Hurricane Irma and Hurricane Maria to improve building codes and 
standards for other infrastructure. It is clear to me that climate 
change is making these storms more intense.
    Should factors like climate change modeling and other longer-term 
weather predictions be incorporated into our research to improve 
resilience to natural disasters?
    Answer. NIST works closely with other Federal agencies in disaster 
preparedness and resilience, and with public and private sector 
stakeholders to improve building codes and standards for a more robust 
and resilient infrastructure. The collaborative approach NIST utilizes 
allows NIST to take full advantage of modeling and other longer-term 
predictive tools relevant to the next generation of standards and 
guidelines for hazard mitigation and recovery. If confirmed, I look 
forward to working with this Committee and being briefed on the efforts 
to integrate the NIST research efforts with complementary modeling and 
prediction tools, as well as to ensure that the processes used by NIST 
consistently considers such tools.

    Question 3. If enacted, over the next decade, the president's 
budget would produce a forty-year low for Federal research and 
development dollars. The FY 2018 request alone cuts more than fifteen 
percent from federally funded basic research.
    Given your experience with commercialization in both government 
labs and the private sector, what role do you believe government should 
play in the innovation ecosystem?
    Answer. The government has a series of roles that are critical to 
the effective functioning of the Nation's innovation ecosystem. These 
begin with Federal sponsorship and funding of the majority of U.S. 
basic research, providing the seed-corn of innovation. The U.S. 
corporate sector has progressively stepped back from basic research, 
and is increasingly reliant on a pipeline of valuable discoveries 
arising from federally funded research at universities, Federal labs, 
and research organizations. The development and demonstration of the 
potential value of these discoveries through early-stage applied 
research is another key area where Federal funding plays an essential 
role. Without such research in areas that industry does not have a 
strong incentive to invest in, there is often insufficient data 
available for companies, entrepreneurs, and investors to commit the 
necessary resources for advancing discoveries through the development 
cycle toward commercialization. Government support for intellectual 
property protection, for the effective communication of the discoveries 
and developments to both scientific and business communities, and for 
effective interfaces between public and private sector interests, 
including consortia for applied R&D, sponsored research programs 
including cooperative research and development agreements (CRADAs), as 
well as for SBIR/STTR investments to stimulate entrepreneurial 
development, are also essential elements. For certain types of 
developments arising from applied R&D, such as cybersecurity tools or 
defense-related applications, the government is also an important 
customer. If confirmed, I look forward to working with this Committee 
on these and related innovation ecosystem matters, toward assuring 
increasingly effective technology transfer and public--private sector 
collaboration capabilities to enhance U.S. national security and 
economic competitiveness.

    Question 4. Federal investments to improve manufacturing innovation 
are widely supported among industry as a way to promote American 
competitiveness. NIST manages the Manufacturing USA program, a network 
of public-private institutes across the country working to advance 
manufacturing in fields critical for national security, health, and 
commerce. Would you look favorably on awarding another institute if the 
funds were available?
    Answer. Yes. If confirmed, I look forward to being fully briefed on 
the status of the Manufacturing USA Institutes and also of their 
transitions toward self-sustaining funding models. I support the 
Federal role of creating a collaboration space for industry-led applied 
academic research on the most important opportunities facing U.S. 
manufacturers. If confirmed, I will work with this Committee and NIST 
leadership to provide an assessment of the status of these programs, 
and to adapt them for greatest impact moving forward, subject to 
funding.

    Question 5. Since 2002, NIST research has helped to improve the 
security of our Nation's voting systems.
    Given the increased threat of interference with this critical 
infrastructure, what role should NIST play moving forward in 
safeguarding the integrity of our voting systems?
    Answer. Our American democracy relies on the integrity of the 
voting system, and freedom from interference or tampering by others who 
would seek to undermine this institution. NIST has done excellent work 
to provide rigorous standards for our States, and for assuring national 
quality and reliability of election results, in a manner consistent 
with its non-regulatory function. If confirmed, I look forward to being 
fully briefed on this subject and to working with this Committee, 
stakeholders, and NIST leadership to address any further matters 
required to strengthen support for voting systems deployed across the 
Nation.

    Question 6. What are the critical areas of research for NIST in 
this endeavor?
    Answer. If confirmed, I look forward to being briefed on the 
details of the NIST research in support of the security of the Nation's 
voting systems as designated by the 2002 Help America Vote Act, 
including the development of voluntary voting system guidelines, and to 
eliminate any threats to voting integrity in a landscape of evolving 
risks and emerging technologies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Dr. Walter G. Copan
    Question 1. Manufacturing Extension Partnership: Manufacturing is a 
critical industry to the state of Michigan and to our national economy. 
If we want to grow our auto and defense sectors, we have to do more to 
support the small manufacturers supply chain that serves as their 
bedrock. NIST's Manufacturing Extension Partnership is the one Federal 
program that provides technical assistance to the Nation's small 
manufacturing community, including many defense, auto, transportation 
and electronics suppliers. However, President Trump's Fiscal Year 2018 
budget request tries to shut down this successful and critical program.
    Can you commit to growing the Manufacturing Extension Partnership 
over your tenure to improve the competitiveness of these small 
manufacturing companies?
    Answer. The NIST Manufacturing Extension Partnership (MEP) plays a 
critical role in driving innovation and enabling small and medium sized 
businesses to grow and thrive in a global economy. The MEP has had 
substantial positive effects on company advancement and manufacturing 
employment in every State of the Union, and in Puerto Rico. The 
Administration's FY 2018 budget prioritizes rebuilding the military, 
making critical investments in the Nation's security, and providing 
savings and efficiencies needed to keep the Nation on a responsible 
fiscal path. If confirmed, I look forward to developing a more complete 
understanding the status of the MEP program and to implement the 
planned transition to non-federal funding. I will work closely with 
this Committee and with the leadership of NIST and MEP stakeholders, to 
ensure that appropriate actions are taken for the future of the MEP.

    Question 2. NIST Cybersecurity Framework: The NIST Cybersecurity 
Framework has become the singular reference point for organizations 
seeking to manage cybersecurity risks. According to many industry 
experts, the next step in the evolution of the framework should be a 
metrics-driven effort to determine which elements of the framework are 
most effective in addressing cybersecurity risks. The private sector is 
making progress in this area. For example, The Open Group, an 
international consortium that includes companies such as HP, IBM, 
Oracle, and Accenture, have partnered with the FAIR Institute to 
develop a methodology that helps organizations focus their security 
resources on the most important and critical assets. I would offer this 
is the essence of security and an approach that warrants additional 
consideration across our critical infrastructure sectors. I am told 
NIST will address the measurement issue in the forthcoming update to 
the Framework for Improving Critical Infrastructure Cybersecurity.
    Based on your experience, what are the principal challenges we face 
in developing the quantifiable metrics necessary to identify the most 
effective and cost-efficient cybersecurity controls?
    Answer. If confirmed, I look forward to being briefed on the status 
as well as any remaining challenges in the NIST efforts to develop 
quantitative metrics for cybersecurity controls, and I also look 
forward to working with you, with this Committee, and stakeholders for 
their effective use.

    Question 3. NIST Cybersecurity Framework: How do you counter the 
argument that the development of cybersecurity performance metrics will 
ultimately lead to additional regulation and compliance requirements?
    Answer. The effectiveness of NIST, as this Committee and our Nation 
have come to appreciate, is rooted in its science-based non-regulatory 
role. Through collaboration with industry, appropriate authorities and 
standards bodies, NIST successfully translates its findings into 
meaningful and technologically-sound standards. NIST develops metrics 
in all fields important to the U.S. economy and our Nation. If 
confirmed, I look forward to working with you, this Committee, and 
stakeholders to ensure the integrity of the NIST mission and function.
    Historically, NIST has prided itself on creating standards 
frameworks and serving in an advisory capacity for cybersecurity best 
practices. However, in March, our Republican colleagues in the House 
introduced a bill that would direct NIST to perform several new duties 
to promote and audit the compliance of Federal agencies with current 
cybersecurity requirements. The stated rationale is that DHS has failed 
to perform this function and we need a new mechanism to ensure 
cybersecurity progress is being measured and tested.

    Question 4. NIST Cybersecurity Framework: What are your thoughts on 
NIST assuming audit responsibilities?
    Answer. The mission of NIST is centered upon promoting U.S. 
innovation and industrial competitiveness by advancing measurement 
science, standards, and technology. An audit role for NIST is outside 
the organization's charter, and would convey a regulatory function that 
may undermine NIST's role and independence. If confirmed, I look 
forward to being briefed on this matter, and to work with this 
Committee based on the findings to identify alternate solutions to the 
problems Congress is working to address.

    Question 5. NIST Cybersecurity Framework: Does NIST, as currently 
resourced, have the expertise and personnel to perform this function?
    Answer. If confirmed, I look forward to being briefed on this 
matter. The NIST organization addresses the needs of every sector of 
the U.S. economy, and its resources are spread very thinly, to the 
point of being under-resourced in key areas, as reported by the 
Visiting Committee on Advanced Technology (VCAT) that regularly reviews 
the NIST organization and key elements of its function.

    Question 6. Science Funding: From advanced nanomaterials to 
advanced manufacturing techniques, the National Institute of Standards 
and Technology invests in a range of basic and applied research that is 
critical to our Nation's safety and prosperity. I am a firm believer 
that scientific research and innovation are the foundation of a strong 
economy, and am proud to have worked on the bipartisan the American 
Innovation and Competitiveness Act, which passed the Senate with a 4 
percent increase for NIST and NSF.
    Given existing budgetary constraints, what research areas will you 
prioritize at NIST? How will you balance short-term versus long-term 
funding?
    Answer. In the current budget environment, we are all asked to make 
difficult decisions. I will do everything in my power to ensure that 
NIST is able to maintain and to adapt its core capabilities in 
measurement sciences so that NIST can continue to effectively and 
efficiently meet its mission and provide the measurement capabilities 
necessary in the most important technological areas facing our country. 
Drawing on my experience of working with the private sector, I will 
work to strengthen existing partnerships with industry and to build new 
ones so NIST programs have a sharp focus and continue to provide 
excellent value to industry and taxpayers, as well as to responsibly 
serve and advise Congress. If confirmed, I will review the portfolio of 
core research areas with NIST leadership and stakeholders, to assure 
appropriate priorities are applied in its program areas including 
cybersecurity, biological sciences and healthcare applications, quantum 
computing, communications technologies and spectrum utilization, 
cryptography, forensic sciences, building systems standards, disaster 
resilience, advanced manufacturing, and quality. Maintaining a robust 
and high impact R&D program at NIST that meets the needs of our Nation 
must also be balanced appropriately with the need for facilities are 
that are safe, secure, and fully functional for the 21st Century. I'm 
pleased that funds have been appropriated in the past, as well as in 
the currently proposed FY 2018 budget for NIST facilities development, 
and maintenance. I am also aware that there is significantly more to be 
done, based on many years of deferred maintenance and delayed 
investment at NIST due to budget limitations. If confirmed, I look 
forward to working with this Committee, appropriators, NIST leadership, 
and stakeholders to prioritize and address these requirements.

    Question 7. Manufacturing USA: Detroit is home to the Lightweight 
Innovations for Tomorrow (LIFT), which is one of the original 
institutes of NIST's National Network for Manufacturing Institutes 
(NNMI)--or as it's called today, the Manufacturing USA program. This 
public-private partnership, founded by the University of Michigan, is 
focused on the applied development for lightweight metal alloy 
production and manufacturing technologies for defense and commercial 
transportation applications. Michigan State University is also a key 
partner in the Institute for Advanced Page Composites Manufacturing 
Innovation (IACMI), another outpost of Manufacturing USA, which is 
focused on accelerating development of manufacturing technologies for 
low-cost energy-efficient manufacturing of composites for vehicles, 
wind turbines, and compressed gas storage.
    This work that is critical to our manufacturing sector and to our 
international competitiveness. What do you see as the future of 
Manufacturing USA? How can Congress and the Administration work 
together to reach the goal of 45 institutes?
    Answer. I have seen that the Manufacturing USA program and 
institutes across the Nation have delivered substantial value to 
America's manufacturing base, employment, and the economy. If 
confirmed, I also look forward to being fully briefed on the status of 
the Manufacturing USA Institutes and of the plans and initiatives for 
the future. I support the Federal role of creating a collaboration 
space for industry-led applied academic research on the most important 
opportunities facing U.S. manufacturers. This Administration and 
Congress have similar stated goals to strengthen U.S. manufacturing, 
jobs, and competitiveness. If confirmed, I will work with this 
Committee to provide an assessment of the status of these programs, and 
to adapt them for greatest impact moving forward, subject to funding.

    Question 8. Commercialization: On your questionnaire, you listed 
past experiences where you worked on the commercialization of 
technology and other research, and as you know, bridging the ``Valley 
of Death'' between scientific discovery and application is critical to 
moving science forward and ensuring our economic competitiveness.
    Can you tell me what role NIST will play in the commercialization 
of new technology and discoveries if you are confirmed?
    Answer. On behalf of the Department of Commerce, NIST has a unique 
role in promoting and reporting on the overall strength of Federal 
efforts in technology transfer, including:

  <bullet> Promulgation of technology transfer regulations, including 
        the Bayh Dole Act and the Stevenson Wydler Act;

  <bullet> Coordination of the Interagency Working Group for Technology 
        Transfer, consisting of eleven agencies across the Federal 
        government;

  <bullet> Delivering annual reports to the President, OMB, and 
        Congress on utilization of technology transfer by DOC and 
        across all Federal agencies; and

  <bullet> The NIST statutory role to provide support to the Federal 
        Laboratory Consortium for Technology Transfer.

    The NIST Lab to Market program has also played a role in enhancing 
interagency coordination and efforts to enhance the commercialization 
of the results of our Nation's roughly $140 billion investment in R&D. 
If confirmed, I will work with NIST, with these and other stakeholders 
across the Federal government, and with industry, academia, the 
investment community and others to assess the performance of the 
Federal technology transfer efforts, and to identify, prioritize and 
address opportunities to substantially enhance the return on investment 
from Federal research to benefit U.S. innovation, our economy and 
global competitiveness.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                          Dr. Walter G. Copan
    Question 1. President Trump's FY 2018 budget proposed the 
elimination of the Hollings Manufacturing Extension Partnership (MEP) 
program, requesting $6 million in funding for the program's ``orderly 
wind down.'' According to NIST, MEP served more than 25,000 small and 
medium-sized manufacturers (SMMs) in FY 2016, and a survey of MEP 
clients found that companies reported $9.3 billion in new and retained 
sales, $1.4 billion in cost savings, $3.4 billion in new client 
investment, and the creation and retention of 86,602 jobs in FY 2016. 
In 2017, Congress increased the Federal cost share to 50 percent of the 
capital and annual operating and maintenance funds for each MEP Center 
in its fourth and subsequent years of operation; the limitation on the 
number of years a center may receive funding was eliminated in 1998.
    What do state government officials say about their ability and 
willingness to replace the Federal share of funding? If state 
governments and user fees did not replace Federal funding, what 
services would most likely be scaled back or eliminated? What network 
activities supported by the NIST MEP Center program might be lost? What 
would be the impact on the centers and SMMs?
    Answer. The NIST Manufacturing Extension Partnership (MEP) has 
helped to drive innovation and enable small and medium sized businesses 
to grow and thrive in a global economy. Small business drives American 
innovation and employment, and a significant portion of my career has 
involved supporting the success of entrepreneurs and SMMs. The 
Administration's FY 2018 budget prioritizes rebuilding the military, 
making critical investments in the Nation's security, and providing 
savings and efficiencies needed to keep the Nation on a responsible 
fiscal path. If confirmed, I look forward to developing a more complete 
understanding the status of the MEP program, and to implement the 
planned transition to non-federal funding. I will work closely with 
this Committee and with the leadership of NIST and MEP stakeholders, 
including State governments, to ensure that appropriate actions are 
taken for the future of the MEP.

    Question 2. If Congress continues funding for MEP at or near its FY 
2017 level, what are the key challenges faced by America's SMMs that 
MEP can help them overcome? What are the key management challenges 
faced by NIST in the administration of the MEP program?
    Answer. Small and medium sized companies face a vast array of 
challenges, ranging from access to leadership talent and management 
training, technology, and intellectual property issues, to securing 
financing, skilled workforce, lean manufacturing expertise, supply 
chain, sales, marketing, distribution, and quality systems. NIST, the 
MEP, and Manufacturing USA provide a strong core expertise in most of 
these dimensions needed by businesses, with particular emphasis on 
advanced manufacturing techniques, management systems, and quality 
measures. I am aware of many companies, small, medium and large in 
size, that have benefited from the expertise offered through the NIST 
programs and network of expertise. I look forward to being briefed on 
the status of the MEP program, any management challenges faced, and the 
plans going forward. If confirmed, I will work with this Committee, 
NIST leadership and stakeholders to continue moving forward in 
supporting the SMMs of America, in a manner consistent with the mission 
of NIST, and subject to funding allocation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Dr. Walter G. Copan
    Question 1. MEP Program Support:

  <bullet> As you know, NIST's Manufacturing Extension Partnership 
        (MEP) works with small and mid-sized U.S. manufacturers to help 
        them create and retain jobs, increase profits, and save time 
        and money.

  <bullet> In my home state, the Nevada Industry Excellence (NVIE), a 
        NIST MEP affiliate, has helped bolster Nevada's industrial 
        manufacturers to achieve their goals of enhanced productivity 
        and improved global competitiveness.

  <bullet> It was recently announced earlier this September that the 
        Nevada Industry Excellence will receive one of 12 awards 
        through the U.S. Commerce Department's National Institute of 
        Standards and Technology to support Manufacturing Extension 
        Partnership pilot projects.

  <bullet> The $1 million funding-opportunity award--one of only two 
        awarded in the western U.S.--will support the further 
        development of NVIE staff and programs.

  <bullet> While this award is helpful, according to NIST regional 
        reporting Nevada is leading the American west in manufacturing 
        since the Great Recession at a growth rate of 6.6 percent.

  <bullet> Can manufacturers and Nevadans count on the Commerce 
        Department and NIST continued commitment to the MEP program?

    Answer. The NIST Manufacturing Extension Partnership (MEP) helped 
to drive innovation and enable small and medium sized businesses to 
grow and thrive in a global economy. The Administration's FY 2018 
budget prioritizes rebuilding the military, making critical investments 
in the Nation's security, and providing savings and efficiencies needed 
to keep the Nation on a responsible fiscal path. If confirmed, I look 
forward to developing a more complete understanding the status of the 
MEP program, and to implement the planned transition to non-federal 
funding. I will work closely with this Committee and with the 
leadership of NIST and MEP stakeholders, including those in Nevada, to 
ensure that appropriate actions are taken for the future of the MEP.

    Question 2. Smart Communities Data and Cybersecurity:

  <bullet> I have recently introduced legislation, the Moving FIRST 
        Act, which would expand a Federal competition to create more 
        ``smart'' communities, where innovative technologies will save 
        lives, address the specific local challenges, including in 
        rural America, and utilizes a public and private sector 
        collaboration to improve citizen's quality of life.

  <bullet> I am aware that ``since its founding, NIST has supported 
        safety, interoperability, and resilience of the Nation's core 
        infrastructure, including power, transport, water and waste, 
        and telecommunications.'' (https://www.nist.gov/topics/
        infrastructure)

  <bullet> Can you talk to me about where you see the benefit of 
        collecting and analyzing the kind and amount of data that smart 
        communities produce?

    Answer. I look forward to being more fully briefed on this 
legislation, and to work together with you, NIST leadership, and 
stakeholders in establishing the appropriate roles for NIST to play, 
upon the legislation's passage. The NIST mandate to provide the 
scientifically-based measurements that America needs is a key to our 
quality of life by supporting the technologies and systems to be 
designed and implemented in our ``smart communities.''

    Question 3. Smart Communities Data and Cybersecurity: Do you 
envision a specific way that NIST can help with the transportation 
future we are headed into?
    Answer. Yes. If confirmed, I look forward to being fully briefed on 
the status of the NIST work in relation to future transportation modes, 
systems, and their underpinning technologies. For many decades, NIST 
has worked closely with America's transportation sectors in delivering 
measurements science and reference materials in support of standards. 
For example, as we look to the future of autonomous vehicles and 
systems, NIST will contribute to the development of cybersecurity, 
systems integrity, and interoperability standards in collaboration with 
industry and other stakeholders.

    Question 4. Cybersecurity and Innovations:

  <bullet> Can you lay out for me where we may need to strengthen our 
        resolve, or NIST can be helpful in working to ensure the 
        cybersecurity of our personal information online, our use of 
        innovations like drones or autonomous vehicles, and the overall 
        Internet of things?

  <bullet> These technologies hold bright futures, but only in a safe 
        manor.

    Answer. If confirmed, I look forward to being fully briefed on the 
status of the NIST work and goals related to cybersecurity programs and 
standards, unmanned aerial vehicles (UAVs), ground-based autonomous 
vehicle systems, the Internet of Things, and related innovations. The 
reach of the Internet through connected devices and systems continues 
to expand. While this expansion creates new efficiencies in many 
dimensions affecting the lives and livelihoods of Americans, it also 
creates new risks and vulnerabilities that must be addressed and 
mitigated. In addition to the role of NIST in developing measurements 
and standards, I believe NIST must take on an expanded, proactive role 
of relevant, accessible, and timely communications with Congress, 
stakeholders, and the public to build awareness and instill a sense of 
urgency to implement solutions for the security of personal information 
and assets. NIST cannot take on this communications challenge alone, 
but must do so in collaboration with its wide network of public and 
private sector stakeholders, and subject to funding appropriations.

    Question 5. Cybersecurity and Innovations:

  <bullet> And along those lines, please describe how you are focusing 
        on how you can help small businesses with their cyber security 
        needs.

  <bullet> Given what kind of job creators they are, they unfortunately 
        don't have the resources or expertise to be as safe as 
        possible.

    Answer. If confirmed, I look forward to being fully briefed on the 
initiatives of NIST in support of small businesses and their 
cybersecurity requirements. I will champion these programs on behalf of 
NIST for small business, and will seek to adapt them together with NIST 
leadership for greatest impact moving forward, subject to funding. 
Small business drives American innovation and employment, and a 
significant portion of my career has involved supporting the success of 
entrepreneurs as well as small and medium sized businesses (SMMs). 
Statistics show that when SMMs are the victims of a cyberattack, the 
majority are unable to recover. These attacks result in substantial 
losses of business value and of employment in our Nation. The NIST 
Cybersecurity Framework (CSF) is designed for organizations large and 
small, and yet many small businesses have inadequate protections in 
place to prevent cyberattacks and related losses. There is much yet to 
be done in support of small business cybersecurity. If confirmed, I 
will work diligently to ensure NIST outreach and assistance to the SMM 
sector with collaborators, subject to funding availability.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                            Howard R. Elliot
    Question. Mr. Elliott, the Transportation Security Administration 
is the lead agency in pipeline security. However, PHMSA maintains an 
important security role related to the movement of hazardous materials, 
including through pipelines. What do you see as the key security issues 
you will face at PHMSA, and how will you address them? Additionally, 
will you work closely with other Federal agencies to address pipeline 
and hazardous material security, including the TSA?
    Answer. PHMSA has a responsibility to balance the safety and 
security of hazardous materials across all modes of transportation. If 
confirmed, I will work to promote interagency and industry 
collaboration and information sharing.
    There are two key security issues to note in particular. The first 
is cyber-security where control systems are vulnerable to cyber-attack 
from inside and outside the control system network. A person who is 
knowledgeable in process equipment, networks, operating systems, 
software applications, and other technologies could gain access to a 
control system and cause harm to transportation infrastructure. The 
second concern is those who plan and commit criminal activities. If 
confirmed, I will evaluate current efforts to combat cyber attacks as 
well as physical attacks on pipeline or transportation infrastructure, 
and will recommend any other action that is effective and prudent.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                            Howard R. Elliot
PHMSA Role in IMO Polar Code
    The International Maritime Organization (IMO) is the United Nations 
specialized agency with responsibility for the safety and security of 
shipping and the prevention of marine pollution by ships.
    In 2014 and 2015, the IMO adopted the International Code for Ships 
Operating in Polar Waters (Polar Code) and added its requirements to 
two existing IMO Conventions--SOLAS, and the International Convention 
for the Prevention of Pollution from Ships (MARPOL)--in consideration 
of hazards and conditions unique to polar waters, and an expected 
increase in traffic in Arctic and Antarctic waters.
    The associated risks with operating in polar waters that were taken 
into account during the development of the Polar Code include: 
operations in ice and low temperatures, high latitude and remoteness 
from resources, limited charting, and the pristine environment. In 
order to account for these risks, the Polar Code includes add-on 
technical requirements that apply in addition to the existing 
international safety and maritime pollution regulations.
    The Polar Code, developed by the International Maritime 
Organization, brings together maritime regulations from multiple 
international conventions to support safe and environmentally-friendly 
shipping in the Arctic and Antarctic waters. With more and more ships 
navigating in polar waters, the Polar Code aims to address 
international concern about the protection of the polar environment and 
the safety of seafarers and passengers with the introduction of new 
regulations that all ships operating in these harsh and challenging 
waters must comply.
    Question 1. The Polar Code came into force on Jan. 1, 2017, and 
countries have until the end of the year to bring their regulations in 
line. Given that PHMSA plays a vital role in the safe transportation of 
energy and other hazardous materials, if confirmed, will you engage to 
ensure the views of PHMSA are taken into account on the implementation 
of the Polar Code?
    Answer. Yes. PHMSA will take this opportunity to build on 
successful partnerships with the U.S. Coast Guard, Department of the 
Interior, and other Federal and state agencies. If confirmed, I will 
ensure that PHMSA's views are provided.

    Question 2. Will you engage to determine the proper role of PHMSA 
with the U.S. delegation for any future discussions on the Polar Code 
to ensure regulation to safe Arctic transportation of hazardous 
materials?
    Answer. Yes. If confirmed, I will work with Department leadership 
to engage relevant parties on this issue.

    Question 3. If confirmed, will you engage to determine the proper 
role of PHMSA in the Arctic Regulators Forum that is presently led by 
DOI's Bureau of Safety and Environmental Enforcement?
    Answer. Yes. If confirmed, I will work with DOT's leadership to 
ensure that PHMSA's perspective on safety is represented at this forum.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                            Howard R. Elliot
    Mr. Elliott--one of my greatest responsibilities in the Senate is 
to protect and secure Nevadans. That includes fighting against the 
proposed Yucca Mountain Waste Repository. This project poses a serious 
threat to Nevadans and anyone else along the proposed waste 
transportation routes.
    That's why, in August, I asked Mr. Batory--the nominee for the 
Federal Rail Administration--whether it was possible there could be a 
rail accident with an ensuing radiological release?
    And he told me this--``I do not believe anyone, no matter how 
expert, can say with 100 percent certainty that an accident could never 
occur. Accidents are often caused by human beings. While technology, 
including modern trains with computerized controls and elaborately 
engineered special containers, goes a long way to prevent accidents, 
humans make mistakes and miscalculations that can result in accidents 
ranging from minor to tragic.''
    Question. Given that an accident is possible and that it could 
result in radiological release--can you tell me what the health and 
safety impact of that radiological release could be, especially if it 
occurs near a large city like Las Vegas?
    Answer. Radioactive waste accounts for a very small proportion of 
all hazardous materials shipped each year, and is one of the most 
highly regulated commodities transported. Overall, I believe the odds 
of such an accident are very small.
    Transportation containers for shipping radioactive waste are 
designed with rigorous safety standards to protect the public from 
releases in the unlikely event of an accident. The designs must meet 
stringent design, fabrication, use, and maintenance requirements to 
demonstrate the ability to endure worst-case accident conditions, 
including high-speed crashes and fire accidents without leaking or 
release of its contents.
    I also believe in rigorous inspections of equipment used in the 
transport of radiological materials and in training protocols for crews 
handling such materials.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim Inhofe to 
                            Howard R. Elliot
    Question 1. As the PHMSA Administrator, you have significant 
responsibility regarding the safety of the transport of hazardous 
materials throughout the Nation. With the extended DOT-117compliance 
dates, and in consideration of the shipper's responsibility for 
selecting tank car specifications for Class 3 Flammable Liquid 
shipments, would you support a progressive shipper compliance schedule? 
If so, can this be accomplished by the PHMSA Rulemaking process or 
other means?
    Answer. The FAST Act mandates a revised phase-out schedule for tank 
cars that do not meet the DOT 117 standard. However, if confirmed, I 
will work with shippers, car owners, and tank car manufacturers to 
identify opportunities that encourage more rapid shifts to DOT 117 tank 
cars.

    Question 2. Both the executive and legislative branches have shown 
support for the emerging LNG export industry, recognizing its 
importance to our economy and to national security by offering reliable 
energy choices to our allies. Would you be willing to ensure that PHMSA 
evaluates its current regulations to take advantage of proven industry 
best practices and risk based approaches that can improve the safety 
and efficiency of the emerging LNG export industry?
    Answer. If confirmed, I will work collaboratively with stakeholders 
to advance the work already underway that supports the safe development 
of the LNG industry, including the adoption of relevant safety 
standards.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Howard R. Elliott
    Question 1. Last year, the Senate passed a bill that would give the 
Ranking Member the same access to unredacted oil spill response plans. 
This can be a critical oversight tool, as these plans have been 
severely flawed in the past. Will you commit to providing me the same 
access to these plans as the Chairman?
    Answer. If confirmed, it would be my intention to share information 
with both the Chairman and Ranking Member of the committee unless there 
was a compelling reason or prohibition against doing so. In the case of 
the oil spill response plans, I would have to inquire about the reasons 
for the redactions made in the past.

    Question 2. PHMSA has been tasked with many pipeline safety 
regulations and requirements. However, many of these are yet to be 
completed despite being required since 2011, when the Pipeline Safety 
Act was passed. Further, the DOT Inspector General previously found 
that PHMSA provides insufficient guidance, oversight, and coordination, 
which hinders its ability to fully implement mandates. What steps will 
you take to ensure these Congressional requirements are completed in a 
timely manner?
    Answer. I appreciate the importance of addressing Congressional 
requirements. I will focus on addressing these mandates in as timely a 
manner as possible. If confirmed, I commit to keeping this Committee 
updated on the progress being made.

    Question 3. Whenever there is a pipeline incident, we hear about 
the amount of time it took the operator to respond and shut down the 
flow through the affected pipeline. What steps should we take to ensure 
a faster response time?
    Answer. If confirmed, I will continue to emphasize PHMSA's priority 
of accident prevention. The prompt and timely response with appropriate 
resources to pipeline releases is essential to providing safety to the 
public and safeguarding the environment, and PHMSA should always be 
attuned to ways in which response times can be made faster.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                           Howard R. Elliott
    Question 1. The 2011 Pipeline Safety Act included 42 new mandates 
for PHMSA, of which 27 have been completed. These mandates are critical 
to the safety of nation's 2.6 million mile pipeline transportation 
network.
    I am concerned with the serious safety concerns surrounding PHMSA's 
inability to get moving on its pending rulemakings.
    Do you agree that the agency's lack of rulemaking poses serious 
safety concerns?
    Answer. PHMSA's regulatory structure underpins what is arguably the 
safest, most efficient energy transportation system in the world. 
However, PHMSA and the industry must not rest on that record and must 
do everything reasonable to further enhance safety performance. If 
confirmed, I will use the agency's strong oversight tools, including 
inspections and information sharing, in an effort to improve safety 
performance in the industry.

    Question 2. If you are confirmed, what will you do to ensure that 
the agency moves ahead with the completion of these outstanding 
mandates?
    Answer. If confirmed, I will focus on addressing these actions in 
as timely a manner as possible. I commit to keeping this Committee 
updated on the progress being made.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Howard R. Elliott
    Question 1. Great Lakes as Unusually Sensitive Area: In the PIPES 
Act of 2016, I worked hard to include text designating the Great Lakes 
as an ``Unusually Sensitive Area'' making pipelines in the region 
subject to higher standards for operating safely. In the past few 
weeks, we have learned of damage to the protective coatings that 
prevent corrosion to the Line 5 pipeline running along the bottom of 
the Straits of Mackinac where Lake Huron and Lake Michigan meet. The 
fact that some of this damage was inflicted during maintenance tasks is 
even more concerning.
    How will you work with me to ensure that this 64 year old pipeline 
is safe to be operating in an area where an incident could impact the 
drinking water of 40 million people along with the sensitive and unique 
freshwater ecosystems of the Great Lakes?
    Answer. Thank you for sharing your concerns. If confirmed, PHMSA 
will continue to monitor and oversee the pipeline operator's activities 
to help ensure the integrity of the pipeline. It is my understanding 
that PHMSA plans to conduct a comprehensive inspection of the pipeline 
system during the next Fiscal Year.

    Question 2. PHMSA Response Plans: Response plans reviewed by PHMSA 
are critical to ensuring we are prepared and ready for any incident 
that may occur. The Straits of Mackinac pose a unique challenge to 
being prepared for an incident because of the cold winters and harsh 
conditions creating ice cover over the Great Lakes. In the 2015 SAFE 
PIPES Act, I introduced provisions that would require PHMSA to make 
sure response plans address ice cover and the challenges it poses to 
spill response. The Coast Guard has stated in the past that it does not 
have the technology or capacity to address worst-case spills under 
solid ice in the Great Lakes. I have been working with the Coast Guard 
and others to pursue technology and build the necessary capacity to be 
able to respond no matter the circumstances.
    How will you work with Coast Guard, EPA, other Federal and state 
agencies, and additional entities to coordinate on response plans and 
ensure that they address spill response even under harshest conditions 
including solid ice cover?
    Answer. If confirmed, I will continue to promote coordination among 
our Federal and state agencies to fulfill PHMSA's responsibilities in 
prevention and response.

    Question 3. PHMSA Response Plans: Would reviews of PHMSA approved 
response plans by the agencies in charge of response (specifically EPA 
and Coast Guard) help in your efforts to coordinate between agencies?
    Answer. If confirmed, I will continue to promote coordination among 
our Federal and state partners to fulfill PHMSA's responsibilities. 
Sharing information across agencies fosters consistency at all levels 
of prevention and response. It is my understanding that PHMSA already 
collaborates with its partners in this area, and it would be my 
intention to see that such collaboration continues.

    Question 4. Emergency Order Authority: The PIPES Act of 2016, also, 
established an emergency order authority for PHMSA to impose 
``restrictions, prohibitions, and safety measures'' without prior 
warning when a condition and/or a practice pose an imminent hazard. 
Given the increasingly concerning discoveries coming from inspections 
of the Line 5 pipeline at the Straits of Mackinac throughout this 
summer, I want to be certain that this authority will be used if 
needed.
    Under what circumstances can you envision using this authority? And 
what degree of ``imminent hazard'' would it take for you to exercise 
this authority?
    Answer. It is my understanding that emergency order authority is 
one of several enforcement tools available to PHMSA. I am supportive of 
appropriate use of the emergency order authority provided by Congress 
to address imminent hazards. If confirmed, I would not hesitate to 
exercise this authority if circumstances warranted it.

    Question 5. Emergency Order Authority: Do you feel that PHMSA needs 
any further tools or any further clarity in its current authorities to 
be able to address an imminent threat posed by a pipeline or other 
infrastructure that would be under your jurisdiction?
    Answer. PHMSA's current authorities provide a broad array of tools 
to address emerging and identified threats to pipeline integrity and 
safety. If confirmed, I will work to make sure PHMSA continues to carry 
out a balanced yet comprehensive approach to safety oversight. At this 
time, I do not anticipate the need for further tools, but I would 
certainly recommend additional authorities if I believed they were 
necessary to carry out PHMSA's mission.

    Question 6. Potential for Technology: At the hearing, the potential 
for technology to improve safety was raised during some of the 
questions from my colleagues.
    In what ways do you see the potential for up and coming 
technologies to improve safety for oil and natural gas pipelines?
    Answer. I strongly support the advancement and use of new 
technologies to improve transportation safety. One example of 
industry's use of technology involves using robots to inspect pipelines 
inaccessible to conventional inspection methods. I would encourage 
PHMSA's continued collaboration and engagement with industry on many 
projects that can advance safety through new technology.

    Question 7. Potential for Technology: In what ways do you see the 
potential for up and coming technologies to improve response plans and 
response abilities for incidents along oil and natural gas pipelines?
    Answer. I strongly support the advancement and use of new 
technologies to improve transportation safety. There are likely more 
ways that technology can improve response plan activities. If 
confirmed, I will continue to promote the use of technology in this 
critical area.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                           Howard R. Elliott
    Question 1. There is ongoing debate about the publics' and local 
governments' need to know about safety risks from hazardous materials 
shipped by rail and pipeline through residential communities. Due to 
concerns about security and corporate proprietary data, key information 
about railcar shipments and pipeline emergency response plans is not 
widely disclosed. Do you believe current PHMSA policies strike an 
appropriate balance between protecting operator information and the 
public's need to know?
    Answer. I strongly support information sharing consistent with 
maintaining proper security of information that could be used by 
terrorists or criminals to compromise safety and with the protection of 
industry's proprietary information. If confirmed, I hope to build on 
the information sharing successes I experienced during my career in 
working with communities. I look forward to advancing collaboration 
with the industry to adopt innovations that provide accurate real-time 
information to communities and responders.

    Question 2. Transportation of crude oil, industrial chemicals, and 
other hazardous liquids presents different safety risks across 
different transportation modes. Do you think these considerations are 
properly factored into safety standards for the different 
transportation modes?
    Answer. The Hazardous Materials Regulations (HMR) are structured to 
factor in the different risks posed by the material as well as by the 
mode of transportation. While the structure addresses these 
differences, it is important to note that risks can change, for 
instance in the growth of petroleum products shipped by rail. If 
confirmed, I will ensure that PHMSA is proactive in considering changes 
in the risk profile as it carries out its safety mission.

    Question 3. The boom in domestic oil and natural gas production 
from shale has been driving a rapid expansion of the U.S. pipeline 
network. Much of this expansion is in relatively more populated areas 
than in the past. Do you think this expansion poses new pipeline safety 
concerns--and if so--are they being appropriately addressed by Federal 
policies and PHMSA regulations?
    Answer. I understand that PHMSA has broad authority to address 
safety for pipelines, including new infrastructure. New pipeline 
systems are constructed using sound safety principles and are then 
integrated into PHMSA's existing safety oversight program. Thus, if 
properly inspected and maintained, they should not pose undue 
additional concerns to the public. If confirmed, I will promote 
continued assessment to identify any risk that this increase in 
infrastructure may present and guide appropriate actions.

    Question 4. Likewise, as a result of the U.S. shale gas boom, the 
American Chemistry Council is expecting a substantial increase in U.S.-
based chemical production and shipments, as inexpensive supplies of 
natural gas are now available as an energy source and feedstock for 
chemical plants. Based on your experience in moving hazardous materials 
by rail, do you share this expectation of an increase in shipments from 
chemical plants, and if so, what is your sense as to whether the 
Federal regulatory framework is properly positioned? Do you feel this 
development warrants any shift in priorities or direction by PHMSA in 
the years to come?
    Answer. I have no reason to doubt the industry's expectation. 
History has shown the need for PHMSA to continually assess the 
industry's direction to determine needed adjustments that will maintain 
safety through the existing regulatory framework governing the 
transportation of hazardous materials. If confirmed, I look forward to 
learning more about PHMSA's current priorities and how the agency can 
promote innovation that improves safety.

    Question 5. Federal funding for PHMSA has increased substantially 
over the last ten years, in particular for its pipeline safety program. 
Nonetheless, pipeline and other surface transportation of oil and 
natural gas products continues to grow as well. Do you think PHMSA will 
have adequate resources to fulfill its mission in the near term and in 
the long term? Why or why not?
    Answer. I understand and appreciate the significant investment 
Congress has made that allows PHMSA to address growing and aging 
infrastructure. It is my understanding that the current budget allows 
PHMSA to meet its safety mission. I will be reticent about requesting 
further resources if it does not.

    Question 6. As the overseer of hazardous materials transportation 
at CSX Railroad, can you share your experiences as to where you found 
PHMSA to be effective as well as ineffective in promoting 
transportation safety? For example, can you identify regulations you 
found to be effective in preventing accidents and those you found to be 
ineffective and burdensome? How effective are PHMSA fines and penalties 
in deterring accidents? Do you have an overall philosophy as to whether 
the ``carrot'' or ``stick'' approach is best for promoting safe 
transportation?
    Answer. In my experience, PHMSA has been very effective in 
promoting transportation safety because it collaborates with 
stakeholders to find solutions that consider the complexity of the 
transportation system. For example, the rail routing requirements for 
high hazard materials and departmental collaboration with industry to 
develop a single analysis tool exemplifies effective accident 
prevention efforts.
    My overall enforcement philosophy blends both the ``carrot'' and 
the ``stick.'' PHMSA recognizes companies that make substantial 
investments in tangible safety improvement and should continue to 
incentivize these efforts. At the same time, PHMSA identifies and takes 
the necessary actions against companies that choose not to focus on 
safety or who put the public at risk. Fines and penalties are some of 
the oversight tools available to PHMSA.

    Question 7. The recent hurricanes in the Gulf of Mexico, Florida, 
and the Caribbean had a dramatic impact on the transportation networks 
in those regions. Are there any lessons to be learned from the effects 
of--or response to--these incidents that may pertain to transportation 
safety? Did the design and operating standards for infrastructure and 
vehicles effectively prevent safety incidents? Did rules for fuel truck 
drivers, for instance, appropriately balance safety and emergency 
response?
    Answer. From what I know of the response efforts, PHMSA's 
collaborative approach to the preparedness, response, and recovery of 
the transportation network during significant events seems to be 
effective. If confirmed, disaster response, including to the recent 
hurricanes, will be among the first issues I plan to assess. There will 
always be lessons learned on how agencies can improve, and I expect 
that once the near-term activities of recent events are concluded, an 
after-action review will be conducted.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Howard R. Elliott
    Question 1. Rail Transport of Nuclear Waste: While I appreciate our 
brief conversation during your hearing, please provide me specifics to 
these similar questions.
    Are we ready for the rail movement of additional large qualities of 
hazardous materials, including the proper fail safe tank cars?
    Answer. PHMSA and industry continue to assess and better understand 
rail risk. If confirmed, I will support efforts to foster construction 
enhancements, technology and innovation that, if applied to railroad 
tank cars or other areas of the transportation system, can advance 
safety.

    Question 2. Rail Transport of Nuclear Waste: Are the first 
responders who need training on how to respond in a position to 
properly react to the potential of derailment of nuclear waste?
    Answer. I am aware that the Railroad Emergency Services 
Preparedness, Operational Needs, and Safety Evaluation (RESPONSE) 
Subcommittee under the Federal Emergency Management Agency's National 
Advisory Council (NAC), of which PHMSA is co-chair, is looking into 
this issue.

    Question 3. Rail Transport of Nuclear Waste: In your experience, 
are train crews trained and protected with the proper equipment to 
react to an incident involving a derailment of nuclear waste?
    Answer. The Hazardous Materials Regulations include several 
requirements that help ensure train crews and other transport workers 
are properly trained to carry out their responsibilities and have the 
necessary information to take the appropriate precautions that protect 
themselves and the public, should an incident occur. I am a believer in 
proper training and support these provisions

    Question 4. Rail Transport of Nuclear Waste: How about autonomous 
trucks, what can you say to their ability to perhaps haul hazmat like 
nuclear waste in the future?
    Answer. The hazardous materials safety system in this country and 
across the globe continues to evolve, and, of course, autonomous 
vehicle technology, while advancing rapidly, is still not ready for 
wide use on our roads. The ability to transport hazardous materials 
with these vehicles requires careful consideration. If confirmed, I 
will work with the Administration and the Department's leadership as 
they develop an autonomous vehicle policy.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                         RDML Timothy Gallaudet
    Question. There have been calls for increased flexibility in the 
Magnuson-Stevens Act to better allow fishermen to reach the full 
fishing potential of the stock without impacting sustainability of the 
species. Director Oliver and others have indicated that there is the 
possibility for additional flexibilities in annual catch limits, stock 
rebuilding plans and accountability measures to enforce annual catch 
limits. In what parts of the law does NOAA have the greatest need for 
increased flexibility, and are there any specific stocks or fisheries 
that require additional flexibility? Do you commit to working with this 
Committee as we work to amend and reauthorize the Magnuson-Stevens Act?
    Answer. A strength of the MSA is that is utilizes a bottom up 
approach where fishermen and stakeholders provide input into a regional 
management approach that is flexible to determine what approach will be 
most effective for their fishery. The parts of MSA which has the 
greatest need for increased flexibility are those which affect fish 
stocks for which there is limited data and where commercial and 
recreational user groups have fundamentally different goals and 
objectives. Another emerging challenge is for those species that are 
migrating due to changing environmental factors.
    Examples include the Red Snapper fishery in the Gulf of Mexico and 
the Black Sea Bass fishery in the Atlantic.
    We also need to improve the regulatory process by which the MSA 
interacts with other environmental statues, such as NEPA, ESA and MMPA. 
I look forward to working with you to find more efficient mechanisms to 
meet the mandates of these statutes.
    If confirmed, I will commit to working with the Committee on 
developing the most effective legislative approach to increase 
flexibility in fishery management, a goal that Secretary Ross also 
supports.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         RDML Timothy Gallaudet
    Question 1. You recognize that NOAA's marine observations, mapping, 
and ocean exploration activities can expand the Nation's blue economy. 
How important is developing and utilizing unmanned systems to improving 
NOAA's technical capacity?
    Answer. NOAA has already experimented with unmanned systems for 
ocean sensing, and it will be important for NOAA to use them more in 
the future to increase its technical capacity at a reduced cost 
compared to manned systems.

    Question 2. Given your experience, in what ways can you use your 
role at NOAA to leverage the collaboration between the Navy and other 
partners to advance the use of unmanned maritime systems? How do you 
see the role of unmanned systems to meet mission requirements and 
provide cost effective solutions to taxpayers?
    Answer. NOAA has begun exchanging personnel and information with 
the Navy to advance its use of unmanned systems. If confirmed, I would 
continue this collaboration and seek to leverage the Navy's expertise, 
training, education, and equipment to continue the advancement of 
unmanned systems at NOAA. The role of unmanned systems at NOAA, as with 
the Navy and other Federal Agencies, will grow in applications of ocean 
observation and mapping, as well as atmospheric sensing.

    Question 3. Does the Administration support marine aquaculture? How 
do you think NOAA can better support growth for the aquaculture 
industry?
    Answer. The President and Secretary Ross have both publicly 
expressed their support of increasing aquaculture in the U.S.
    NOAA can support the growth of aquaculture in the U.S. by providing 
data and predictions of ocean conditions to best develop and operate 
aquaculture facilities.
    NOAA can also leverage its experience with Regional Fisheries 
Councils to assist with permitting, development, and management. We 
also need to support research to ensure we act prudently to leverage 
regional scientific and outreach capabilities. We must also streamline 
regulatory processes related to aquaculture. NMFS has recently entered 
into a MOU with six other Federal agencies related to permitting 
offshore aquaculture facilities in the Gulf of Mexico. By supporting 
our sustainable wild-stock harvests and expanding aquaculture 
production, we can make inroads into the seafood supply deficit.

    Question 4. My bill, S. 1520, the Modernizing Recreational 
Fisheries Management Act aims to improve fisheries management under the 
Magnuson-Stevens Act for saltwater recreational fisheries. In your 
testimony, you expressed a keen interest in ``advancing fisheries 
management under the Magnuson-Stevens Act.''
    Do you agree that commercial and recreational fishing are 
fundamentally different enterprises, requiring different approaches to 
management? If so, how would you work to improve saltwater recreational 
fishery management?
    Answer. I agree that commercial and recreational fishing are 
fundamentally different, but both share the common need for science-
based management for sustainable access. Different management 
approaches are not only useful for these different types of fishing, 
but also for different regions and different fish stocks. Saltwater 
recreational fishery management can be improved with better data 
collection and models used for stock assessments. NOAA is already 
moving in this direction by adding additional flexibility for fishery 
managers, such as determining rebuilding timelines, as NOAA revised the 
National Standard 1 Guidelines. Increasing flexibility in the tools 
used for fishery management would also help, and I echo Secretary 
Ross's support for including provisions to do this in any future 
legislation that seeks to improve upon the MSA.

    Question 5. You rightly note in your testimony that NOAA impacts 
``hundreds of billions of dollars of activity and infrastructure.'' 
After the expansion of the Panama Canal, our port infrastructure needs 
to respond to the larger container ships to take advantage of the new 
trade efficiencies.
    However, in recent years, ports in my state have been hampered by 
the lack of timely responses from NOAA, particularly NMFS, in dealing 
with Section 7 Endangered Species Act permits. Other agencies are ready 
to allow the permitting process to proceed, but NOAA continues to hold 
up the process. If confirmed in your role at NOAA, will you work to 
make sure that our ports can promptly receive the permits they need to 
expand?
    Answer. If confirmed, I am eager to explore opportunities to 
improve permitting through the Administration's efforts under Executive 
Order 13807 to have ``One Federal Decision.'' Furthermore, I am 
interested in increasing the efficiency of section 7 consultation 
process, which ensures actions taken by agencies do not threatened 
endangered species. These efforts could facilitate the need development 
of our Nation's Maritime Transportation System, and therefore is 
consistent with the Administration's economic agenda.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                         RDML Timothy Gallaudet
Hydrographic Surveying
    There is a significant backlog of hydrographic charting nationwide, 
which can adversely affect maritime commerce and increase the risk of 
marine casualties. This is a huge problem in Alaska where some areas 
off our coast have chart data collected back in the 1800s when Russia 
still owned the territory. There is potential to address this backlog 
through contracting with the private sector, but there is a need for 
leadership to make this happen. Chairman Thune and I commissioned a GAO 
report that recommended that NOAA needs better data and a strategy for 
expanding private sector data collection for hydrographic surveying. 
Secretary Ross responded to this report with a statement of actions to 
be taken by NOAA, with associated dates for execution of the actions.
    Question 1. If confirmed, will you work with me to aggressively 
reduce this charting backlog using both public and private assets to 
achieve this goal? Will you track and execute the action items 
committed to by NOAA as outlined in the statement of actions in 
response to the GAO report on private sector involvement in 
hydrographic surveying?
    Answer. If confirmed, I will work with you to reduce this charting 
backlog using both public and private assets, and I will track and 
execute the action items committed to NOAA as outlined in the statement 
of actions in response to the GAO report on private sector involvement 
in hydrographic surveying. This would support development of our 
Nation's Maritime Transportation System, and therefore is consistent 
with the Administration's economic agenda.
Alaska Based Staffing
    For Alaska, NOAA's missions--managing our Nation's fisheries, 
charting our waters, and providing accurate weather forecasting--are of 
significant importance.
    Yet, much of the NOAA staffing and infrastructure for Alaska is 
located elsewhere. For example, by law one of the survey vessels is 
homeported in Ketchikan, but it actually resides in Oregon. And, the 
Alaska Fisheries Science Center is located in Washington State.
    Question 2. If confirmed, will you work with me to ensure NOAA 
personnel and assets are deployed in a manner that makes sense for both 
completing the mission and the taxpayers?
    Answer. If confirmed, I will work with you to ensure NOAA personnel 
and assets are deployed in states and territories in a manner that 
makes sense for both completing the mission and the taxpayers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Todd Young to 
                         RDML Timothy Gallaudet
    Question. Admiral Gallaudet, NOAA is beginning to reap the benefits 
of the investments in our country's next generation of weather 
satellites. Some of these satellites, such as the GOES-R satellite, 
recently provided amplifying imagery and data as Hurricanes Harvey, 
Irma, and Maria bore down on the Texas, Florida, and Puerto Rico. For 
longer-term weather forecasting, NOAA and NASA are constructing the 
Joint Polar Satellite System (JPSS) and the Polar Follow On system 
(PFO), a combined set of four satellites slated for use in the polar 
orbit.
    With respect to the Polar Follow On program, the acquisition plan 
in the FY17 budget request stretches out the need dates for JPSS 3 and 
JPSS 4. On paper, such budgetary shifts can save money in the near 
term. However, delaying procurement of the third and fourth satellites 
could prevent the government from realizing cost savings that come from 
economies of scale. Programs that are stretched out can result in 
increased total costs, as the price of components increase over time. 
Will you pledge to work with NOAA leadership to review the acquisition 
strategy for the Polar Follow On program to ensure Americans are 
getting the most bang for our government buck?
    Answer. If confirmed, I will pledge to work with NOAA leadership to 
review the acquisition strategy for the Polar Follow On program to 
ensure Americans are getting the most bang for our government buck.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         RDML Timothy Gallaudet
    Question 1. By flying into and above storms, hurricane hunter 
aircraft collect critical data for NOAA's forecasts. Although these 
aircraft are vital to NOAA's forecasting capabilities, they are growing 
old and there is no backup capability.
    That is why I worked with colleagues in the Senate and the House to 
pass a law to require a backup for the hurricane hunters. There have 
already been multiple emergency repairs this season. Earlier this week, 
we learned that the main cabin door on the Gulfstream started leaking 
at 45 thousand feet, and the aircraft had to make an emergency landing 
for the second time in eight days. As a result, the Gulfstream was 
scheduled to be down for three days in the middle of hurricane season.
    Despite all this, NOAA has still not come up with the statutorily 
required backup plan. Will you commit to providing this plan before the 
end of the hurricane season?
    Answer. If I am confirmed, I will ensure NOAA will complete and 
provide Congress a plan to back up their Hurricane Hunter aircraft as 
required by the Weather Research and Forecasting Innovation Act of 2017 
(Public Law: 115-25), and implementing its provisions would be one of 
my top priorities at NOAA.

    Question 2. When a hurricane like Irma strikes, we need satellite 
data to accurately predict the hurricane track, effects, and intensity 
and to conduct search and rescue efforts. However, several of our 
satellite systems are aging and must be replaced. The administration's 
budget would severely cut funding for many of our satellite systems, 
including the Polar Follow-On program.
    What will you do as Assistant Secretary of Commerce for Oceans and 
Atmosphere to ensure that we maintain a fully operational weather 
satellite system for future generations?
    Answer. If I am confirmed, I would conduct the following actions to 
ensure NOAA maintains a fully funded weather satellite system:

  <bullet> First, I would examine NOAA's Planning, Programming, 
        Budgeting, and Execution (PPBE) Processes to ensure every penny 
        NOAA programs for satellites is effectively and efficiently 
        used. VADM Lautenbacher did this with considerable success.

  <bullet> I would also consider new public-private partnerships for 
        acquiring satellite data for a lesser cost. I believe NOAA 
        needs to conduct rigorous business case analyses for all of its 
        data sources to evaluate the optimum combination of government, 
        academic, and private sector sources.

  <bullet> I would continue current partnerships to share satellite 
        data, such as those with DOD, NASA, and partners in Europe, and 
        identify new partners, including commercial satellite data 
        providers, if possible.

  <bullet> Lastly, I would work with the Commerce Department, Congress, 
        and the Office of Management and Budget to follow 
        recommendations from the Government Accounting Office to 
        request sufficient funding for NOAA satellite systems during 
        future budget submissions.

    Question 3. To save lives and property, we must have good forecasts 
so that people can take action to protect themselves. This is the core 
function of the National Weather Service. As of July, however, the 
National Weather Service had over six hundred vacant positions, out of 
a workforce of over four thousand.
    Will you commit to addressing the employment vacancies and 
exempting weather service public safety employees from any hiring delay 
or freeze?
    Answer. If I am confirmed, I will take into account the recent NOAA 
Workforce Analysis to create, hire, train, and retain the modern 
workforce that can most effectively accomplish the NWS mission to 
protect lives and property and enhance the national economy.

    Question 4. As we have seen repeatedly this season, hurricanes have 
the potential to wreak devastation. This potential is magnified when we 
have inaccurate or badly communicated forecasts. The more accurate and 
trustworthy the forecast is, the more lives, property, and precious 
preparation time we save. While the forecasting record so far for this 
season has been generally good, we need to continue to improve our 
forecasting capabilities.
    The goal of NOAA's Hurricane Forecast Improvement Program is to do 
just that. In recent years, unfortunately, the budget for this program 
has been cut. This is why I fought to include a provision in the 
Weather Research and Forecasting Innovation Act, signed by the 
president in April, that protects and formally establishes the 
Hurricane Forecast Improvement Program.
    Do you promise to ensure the Hurricane Forecast Improvement Program 
gets the resources it needs to complete its important mission?
    Answer. If I am confirmed, I will make the Hurricane Forecasting 
Improvement Program a top funding priority, along with implementing the 
other provisions of the Weather Research and Forecasting Innovation Act 
of 2017.

    Question 5. Florida is ground zero for climate change. For example, 
the rate of sea level rise in Southeast Florida is triple the global 
average of 3 millimeters a year. It is clear that climate change poses 
a grave threat.
    Given the vital role NOAA plays in monitoring, planning for, and 
responding to climate change, can you give us a clear commitment that, 
if confirmed, you will support the continuation of NOAA's climate 
research and monitoring programs?
    Answer. If I am confirmed, I will continue NOAA's Climate Research 
and Monitoring Programs to the furthest extent allowable when balanced 
against other priorities of the agency.

    Question 6. Additionally, will you protect department scientists 
from political interference, intimidation, and censorship?
    Answer. If I am confirmed, I will protect NOAA scientists, ensuring 
they comply with NOAA's Scientific Integrity Policy, which promotes 
transparency, objectivity, and reproducibility of NOAA research. I saw 
the value of scientific integrity when I earned my PhD, and in the Navy 
where integrity and honesty were central tenets to my service as a 
Naval officer.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         RDML Timothy Gallaudet
    Question 1. The Trump Administration's budget would cut funding to 
NOAA by 16 percent, including $250 million in coastal research 
programs.
    The President would cut the entire $73 million budget for the 33 
Sea Grant programs in states across the country. In Connecticut, the 
work of Sea Grant and NOAA is vital to the fishing industry, shipping, 
navigation, and storm preparedness and response.
    Other cuts to NOAA include programs that are developing advanced 
modeling to make weather and storm forecasts more accurate and 
reliable. This would slow the transition of such advanced forecasting 
models into real-life warning systems--directly affecting families and 
business owners who must prepare for severe storms.
    Do you join me in my concern regarding cuts to coastal research 
programs that prepare communities for rising seas and worsening storms?
    Answer. I agree that the NOAA coastal research programs are 
important, and I would continue to manage and improve performance in 
these programs should Congress appropriate funds for them.

    Question 2. Given cuts to these critical programs, how can you 
ensure that coastal states, like Connecticut, will have proper warning 
and be prepared for future storms?
    Answer. If I am confirmed, I would seek to ensure that coastal 
states, like Connecticut, will have proper warning and be prepared for 
future storms by prioritizing funding for implementing the Weather 
Research and Forecasting Innovation Act of 2017. Its provisions will 
ensure all states have the best weather forecasts and storm warnings in 
the world.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                         RDML Timothy Gallaudet
    Question 1. The Gulf of Maine is the fastest warming body of water 
in the United States and fishermen are already seeing the effects of 
climate change. Lobster populations are moving north while southern 
species like Black Sea Bass are appearing in greater numbers off the 
coast of Massachusetts. Under the Magnuson-Stevens Act, what tools do 
the Regional Councils and State Commissions have to adapt to climate 
change? What are Councils and Commissions already doing to adjust for 
these changes?
    Answer. The Regional Fisheries Management Councils and State 
Commissions have a variety of tools under the Magnuson-Stevens Act 
(MSA) to adapt to changes in fish stocks, whether those changes are 
related to climate, overfishing, or other factors. These include annual 
catch limits, catch shares, individual fish quotas, season lengths, as 
well as permitting and regulations for different fishing equipment. The 
Councils and Commissions have successfully used these in their fishery 
management plans, which are informed by their Scientific and 
Statistical Committees. These tools have allowed most of our Nation's 
fisheries to rebound from the declines in the 1980s and 1990s.
    I acknowledge that movement of fish species north has challenged 
fisheries management in the Northeast, and if confirmed, I would 
continue the three efforts underway at NOAA that will address this:

  1.  Improving data collection and modeling by using advanced sensing 
        and processing capabilities; this will improve stock 
        assessments and ensure the Councils and Commissions develop the 
        most effective fishery management plans.

  2.  Exploring all flexibilities afforded by the Magnuson-Stevens Act 
        to provide access to migrating fish stocks, including 
        mechanisms that would allow for fishermen in the mid-Atlantic 
        to transfer allocation to interested fishermen in the 
        Northeast.

  3.  Working with the Commerce Department and Congress to include 
        provisions in a reauthorization of the MSA to make fishery 
        management by the Councils and Commissions more flexible, and 
        increase access for as many as possible, while still preventing 
        overfishing and stock depletion.

    Question 2. In 2013, the Obama administration released the National 
Ocean Policy Implementation Plan to improve coordination between 
government, industry, and local stakeholders, better manage resources, 
improve gathering and communication of scientific information, to 
increase the resilience of our oceans, and promote the blue economy. 
The Northeast Ocean Plan has been signed and implementation has begun. 
Will you continue to support the Northeast efforts to manage their 
plan?
    Answer. If I am confirmed, I will continue to support the Northeast 
efforts to manage their oceans. I share your interest in fostering 
regional partnerships and look forward to working with you to expand 
blue economic development and resiliency.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                         RDML Timothy Gallaudet
    Question 1. Importance of Data to NOAA: The most recent extreme 
weather events have only served to underscore the importance of 
environmental observations from buoys in the ocean to sensors on the 
ground to planes flying literally through the storm to satellites 
viewing from above. Of concern is the fact that the President's budget 
cut funding for critical satellite programs like the Polar Follow-On 
and the next generation of polar-orbiting satellites. These satellites 
are crucial to providing the data needed for weather forecasts, natural 
disaster warnings and response, predictions for water supplies, 
electricity demands, and more. You have said that your priorities 
include atmospheric sensing and ocean observations to which the NOAA 
satellites are critical, and you have shared that it is a priority of 
yours to work with NESDIS and the National Weather Service leadership 
to ``focus on the NOAA satellite program''.
    How do you plan to leverage the NOAA satellite program and deal 
with the various delays while still providing the critical data and 
observation that we need for forecasts, warnings, and predictions as 
our satellite fleet ages?
    Answer. If I am confirmed, I would take the following actions 
regarding NOAA satellite programs:

  <bullet> First, I would examine NOAA's Planning, Programming, 
        Budgeting, and Execution (PPBE) Processes to ensure every penny 
        NOAA programs for satellites is effectively and efficiently 
        used. VADM Lautenbacher did this with considerable success.

  <bullet> I would also consider new public-private partnerships for 
        acquiring satellite data for a lesser cost. I believe NOAA 
        needs to conduct rigorous business case analyses for all of its 
        data sources to evaluate the optimum combination of government, 
        academic, and private sector sources.

  <bullet> I will continue current partnerships to share satellite 
        data, such as those with DOD, NASA, and counterparts in Europe, 
        and identify new partners if possible.

  <bullet> Lastly, I would work with the Commerce Department, Congress, 
        and the Office of Management and Budget to consider 
        recommendations from the Government Accountability Office to 
        request sufficient funding for NOAA satellite systems during 
        future budget submissions.

    Question 2. Preserving Natural Marine Resources: National Marine 
Sanctuaries are a critically important marine protected areas not just 
for natural resources, conservation, and biodiversity, but also for the 
coastal communities located on the nearby shores. The Thunder Bay 
National Marine Sanctuary is a tremendous source of income, jobs, 
economic activity, and pride for Alpena, Michigan and the surrounding 
communities. In 2005, before Thunder Bay's expansion, the Sanctuary 
generated $100 million in sales, $39.1 million in personal income, and 
1,704 jobs. In your questionnaire, you prioritize striking a balance 
between economic and conservation interests. As community and 
stakeholder-driven processes, the nomination and designation of 
national sanctuaries provide one way to balance the many interests of 
communities and various stakeholders.
    How do you envision the role of national marine sanctuaries in 
meeting the needs of many stakeholders and helping to balance 
conservation and economic interests?
    Answer. National Marine Sanctuaries are invaluable to meeting the 
needs of many Americans. I was raised in Southern California and 
enjoyed many days visiting the Channel Islands National Marine 
Sanctuary. There I saw first-hand how effective Marine Sanctuaries can 
be in preserving natural Marine resources. If I am confirmed, I will 
support continuation of the National Marine Sanctuary Program.
    I acknowledge that Secretary Ross has initiated a review of Marine 
Sanctuaries in accordance with Executive Order 13975. I will seek to 
ensure that Secretary Ross has the most complete data and information 
about the benefits of each Sanctuary, and clearly explain the return on 
investment of maintaining each Sanctuary compared to the opportunity 
costs of not developing or extracting resources in each.

    Question 3. Aquaculture: The United States has an incredible sea 
food deficit, and aquaculture has been one mechanism proposed to close 
this gap and is a priority of Secretary Ross. Several groups have 
called for clearer guidelines for aquaculture while others have called 
for banning particular aquaculture practices. NOAA's Office of 
Aquaculture has the goal of fostering aquaculture to create economic 
opportunities within communities.
    What role do you see for aquaculture in closing the sea food 
deficit?
    Answer. Aquaculture growth is absolutely essential for the U.S. to 
correct its seafood trade deficit. 91 percent of the seafood (by value) 
we consume originates abroad--half of which is from aquaculture. 
Additionally, the U.S. is a major player in global aquaculture, 
supplying a variety of equipment, feed, investment, and advanced 
technologies to other producers throughout the world. When considering 
this and the fact that the U.S. has the largest EEZs in the world, it 
is clear the economic potential of aquaculture for the Nation is 
enormous.

    Question 4. Aquaculture: How do envision balancing conservation, 
economic, and other interests while increasing our capacity for 
aquaculture?
    Answer. Three factors are critical for effectively balancing 
conservation, economic, and other interests while increasing our 
capacity for aquaculture:

  <bullet> Improvements in data collection and models: by having a 
        highly resolved, highly accurate picture of the physical and 
        biological environment in and around any given site (or planned 
        site), managers will be able to better anticipate and prevent 
        any negative effects on the environment. The National Marine 
        Fisheries Service (NMFS), the National Weather Service, and 
        National Ocean Service under NOAA are already moving in this 
        direction.

  <bullet> Coordinated, deliberate, transparent and institutionalized 
        communication between stakeholders: this must occur between 
        Federal departments and agencies, local, state, and tribal 
        groups, NGOs, and private sector stakeholders. I am eager to 
        explore opportunities to improve permitting through the 
        Administration's efforts under Executive Order 13807.

  <bullet> A proper regulatory framework that does not stifle growth 
        and ensures environmental protection. The NMFS has extensive 
        experience in this area.

    Question 5. Aquaculture: What guidance do you think is necessary to 
make sure aquaculture is done right to avoid many of concerns raised 
including escapement of domesticated or non-native species, spread and 
incubation of diseases and parasites, and untreated waste from 
aquaculture production?
    Answer. As with any industry, aquaculture should be regulated to 
prevent escapement, the spread and incubation of diseases and 
parasites, and discharge of untreated waste from aquaculture 
production. Numerous authorities including the National Environmental 
Policy Act, Endangered Species Act, and the Marine Mammal Protection 
Act, address many of these concerns. Where they do not, we should 
consider potential new regulation and penalties for aquaculture 
operations and infractions, which I understand both the industry and 
environmental groups support.

    Question 6. Flexibility in Fisheries Management: Three hearings 
have been held in our effort to review Federal fisheries management and 
reauthorize the Magnuson-Stevens Act. Several witnesses have called for 
greater flexibility in fisheries management to address difficult and/or 
unique situations. Other witnesses, however, have called to avoid doing 
anything that compromises conservation tools that are working to 
rebuild fisheries and provide sustainable resources. NOAA has been 
working to strike a balance between conservation and flexibility with a 
recent update to the National Standard 1 Guidelines, released just last 
October.
    How will you help facilitate the full use of the new options 
provided by the update including helping regional fisheries management 
councils to fully utilize the new tools at their disposal?
    Answer. If I am confirmed, I would continue supporting the 
framework used by the Regional Fisheries Management Councils. The 
update to the new National Standard 1, 3, and 7 was intended to improve 
and streamline the National Standard Guidelines by providing 
flexibility in meeting current MSA mandates. The 2016 final rule 
certainly improved implementation; however, more could be done as 
evidenced by concerns raised in recent Congressional hearings. I 
support the effort to reauthorize the MSA and look forward to working 
with the Congress to ensure the retention of the statute's important 
conservation tools.

    Question 7. Flexibility in Fisheries Management: In your opinion, 
does the update to the National Standard 1 Guidelines go far enough to 
increasing flexibility while maintaining conservation? Too far with 
certain provisions needing to be reined in? Or not go far enough with 
additional flexibility measures needed?
    Answer. I believe the revisions to the National Standard 1 
guidelines in 2016 added useful flexibility to fisheries managers while 
ensuring conservation. However, I believe more can be done to improve 
management, particularly with respect to data poor stocks, stocks 
migrating due to changing oceanographic conditions, and recreational 
fisheries. Three improvements I support are: (1) faster and more 
comprehensive incorporation of fishery dependent data into NMFS stock 
assessments, (2) prioritizing the collection of fishery-dependent data, 
and (3) extending the timeline beyond 10 years for stocks to rebuild.

    Question 8. Marine Debris: The challenges posed by marine debris 
are a completely bipartisan issue that several of my colleagues and I 
are working to help address through the Save Our Seas Act. This will 
help NOAA continue its work to address marine debris in the oceans and 
the Great Lakes, but we know these efforts are just a start to solving 
this truly global problem.
    What are you willing to commit to do to help maintain the integrity 
of our Great Lakes and oceans and address the problem of marine debris?
    Answer. I agree that NOAA's Marine Debris Program helps to improve 
the quality of our Great Lakes and Oceans. NOAA's Office of Response 
and Restoration within the National Ocean Service manages this small 
program, cooperating on over 140 projects, including aerial surveys of 
marine debris in Alaska, removal of derelict fishing gear from Flower 
Garden Banks National Marine Sanctuary offshore Texas, high seas marine 
debris monitoring, and online outreach and education programs. If 
confirmed, I will support NOAA's Marine Debris Program to the extent 
possible considering other priorities of the agency.

    Question 9. Marine Debris: What more do you think NOAA's Marine 
Debris Program can do to address this problem and what additional 
resources do you think are needed to create solutions?
    Answer. I believe NOAA can do more by increasing education and 
outreach, particularly with international partners. If confirmed. I 
would personally engage on this issue with organizations like the State 
Department, Navy and Coast Guard. For example, Navy commands regularly 
conduct highway and beach cleanups in their local communities. I would 
advocate for the Navy to help NOAA in Coast and waterway cleanups, 
which I know they would do gladly. I would also work with the State 
Department so that marine debris removal was prioritized as an 
important issue in international fora.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to RDML Timothy Gallaudet
    Question 1. Climate Center and Research at NOAA:

  <bullet> Inaugurated in 1986, the Western Regional Climate Center 
        (WRCC) in Reno, Nevada, is one of six regional climate centers 
        in the United States that delivers high-quality climate data 
        services in conjunction with NOAA and national climate and 
        weather partners.

  <bullet> The WRCC serves as a focal point for coordination of applied 
        climate activities in the West, including drought and climate 
        monitoring, and conduct applied research on the impacts of 
        climate variability and climate extremes in the western United 
        States.

  <bullet> As the western U.S. feels the impacts of greater extremes in 
        weather and climate and WRCC are tasked to study these changes, 
        are NOAA and the staff of WRCC under Administration guidelines 
        or edict discouraging the mention of global ``climate change'' 
        when discussing and conducting climate research?
    Answer. I know of no Administration guidelines or edict 
discouraging the mention of global ``climate change'' when discussing 
and conducting climate research.

    Question 2. Climate Center and Research at NOAA: Would you ever 
condone any such guidance?
    Answer. I support the accurate characterization of physical 
processes, including those relating to climate.

    Question 3. Climate Center and Research at NOAA: Can I get your 
commitment to work closely with various stakeholders in Nevada, like 
those working so hard to maintain Lake Tahoe in pristine condition, to 
address needed scientific engagement on combatting the effects of 
climate change like acidification, or others concerns like ecosystem 
restoration and invasive species?
    Answer. If I am confirmed, I would gladly work closely with various 
stakeholders in Nevada, like those working so hard to maintain Lake 
Tahoe in pristine condition, to address needed scientific engagement on 
combatting the effects of climate change like acidification, or others 
concerns like ecosystem restoration and invasive species.
    This would not be a new experience for me. As Director of the 
Navy's Task Force Climate Change, I worked with Naval Installation 
managers to adapt to climate change, which included efforts like 
preserving habitats on Navy Bases to comply with the Endangered Species 
Act, and planning to rebuild piers to prevent loss to sea level rise.

    Question 4. Climate Center and Research at NOAA: Can you comment on 
how you might focus NOAA's involvement on national AIS concerns to 
tackle the emerging challenges of climate change and aquatic invasive 
species?
    Answer. This is an important topic, as AIS are one of the greatest 
threats to coastal and marine biodiversity worldwide, second only to 
habitat loss. If I am confirmed, I would focus NOAA's current Invasive 
Species Program on improving biological data collection to better 
characterize AIS threats to our ecosystems. This could lead to a more 
effective response. Examples of innovative technologies may include 
advanced sensors (underwater, surface, aerial unmanned vehicles, or 
drones, smart phones and crowd sourced data) and cutting edge data 
processing (machine learning and ``big-data'' techniques). It will also 
be important to advance NOAA's oceanographic and hydrographic 
collection and modeling capabilities, which are important for 
developing AIS response and eradication strategies. I would continue 
NOAA's leadership role as co-chair of the National Invasive Species 
Council.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
